<html>
<title> - THE STATE OF MARITIME SECURITY</title>
<body><pre>[Senate Hearing 108-1014]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 108-1014

                     THE STATE OF MARITIME SECURITY

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 24, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                          U.S. GOVERNMENT PUBLISHING OFFICE
21-190 PDF                         WASHINGTON : 2016
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92f5e2fdd2f1e7e1e6faf7fee2bcf1fdffbc">[email&#160;protected]</a>  



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 24, 2004...................................     1
Statement of Senator Boxer.......................................    12
    Prepared statement...........................................    12
Statement of Senator Breaux......................................     6
Statement of Senator Hollings....................................     3
    Prepared statement...........................................     5
Statement of Senator Hutchison...................................    11
Statement of Senator Lautenberg..................................     9
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Statement of Senator Nelson......................................    44
Statement of Senator Snowe.......................................     8

                               Witnesses

Bonner, Hon. Robert C., Commissioner, U.S. Customs and Border 
  Protection.....................................................    17
Carafano, Dr. James Jay, Senior Research Fellow, Defense and 
  Homeland Security, The Heritage Foundation.....................    64
    Prepared statement...........................................    66
Collins, Hon. Thomas H., Commandant, U.S. Coast Guard............    14
Koch, Christopher, President and CEO, World Shipping Council.....    49
    Prepared statement...........................................    51
LaGrange, Gary P., Executive Director and CEO, Board of 
  Commissioners, Port of New Orleans.............................    59
    Prepared statement...........................................    61
Mitre, Mike, Director, Coast Port Security, Longshore Division, 
  International Longshore and Warehouse Union (ILWU).............    74
    Prepared statement...........................................    79
Stone, Rear Admiral David M., Acting Administrator, 
  Transportation Security Administration.........................    19
    Prepared statement of Admiral Thomas H. Collins, Commandant, 
      U.S. Coast Guard; Robert C. Bonner, Commissioner, Customs 
      and Border Protection, Admiral David M. Stone, Acting 
      Administrator, Transportation Security Administration, 
      Department of Homeland Security............................    21

                                Appendix

Lott, Hon. Trent, U.S. Senator from Mississippi, prepared 
  statement......................................................    97
Response to written questions submitted to Rear Admiral David 
  Stone (Ret.)  by:
    Hon. Ernest F. Hollings......................................    97
    Hon. Frank R. Lautenberg.....................................    98
Written questions submitted to Hon. Thomas H. Collins and 
  responses by the United States Coast Guard.....................   100
Response to written questions submitted by Hon. Ernest F. 
  Hollings to Gary P. LaGrange...................................   108

 
                     THE STATE OF MARITIME SECURITY

                              ----------                              


                       WEDNESDAY, MARCH 24, 2004

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. The Committee meets today to 
consider the state of maritime security in the United States 
and around the world, specifically efforts related to vessel, 
port, and cargo security and personnel with access to vessels 
and cargo at maritime facilities. The Committee hopes to learn 
what's been done to improve maritime security over the two and 
a half years since the terrorist attacks on New York and 
Washington.
    I commend Secretary Ridge and all the employees of the 
Department of Homeland Security who have taken on the 
monumental task of securing our homeland while managing the 
largest government reorganization in history. It's clear the 
Department has made significant strides and established the 
foundation for a layered approach to transportation security in 
the year and a half since the Homeland Security Act of 2002 and 
the Maritime Transportation Security Act were signed into law.
    Yet their task is far from complete. No comprehensive 
maritime security plan exists. I'm concerned that a lack of 
resources and the demands of the reorganization have inhibited 
the Department's focus on its security mission.
    The three witnesses from DHS here today directly oversee 
the agencies most involved in maritime security, the Coast 
Guard, Customs and Border Protection, and the Transportation 
Security Administration. These agencies spent millions of 
dollars on numerous and in some cases overlapping or 
duplicative pilot programs--projects, tests, initiatives, and 
programs aimed at improving maritime security, with 
questionable results.
    For example, over 5,700 companies have signed up for the 
Customs Trade Partnership Against Terrorism, known as C-TPAT. 
While this would seem like a great success, many of those in 
the maritime industry associated with the program to increase 
supply chain security have started to openly question the value 
of this voluntary approach. Some participants continue to 
strongly adhere to the program's goals out of a sense of 
responsibility, while others, driven by their bottom line, are 
moving away from the program and are only meeting those 
requirements in law, the regulation.
    The lack of coordination and absence of established 
standards and goals have led to confusion for the maritime 
industry as to what must be done to improve security, and whom 
to go to with security questions. This type of confusion will 
lead to less cooperation from industry and ultimately to lax 
security.
    The agencies represented here today must strive harder to 
improve coordination efforts. I was amazed to learn that it has 
only been in the last several weeks that the Coast Guard and 
Customs and Border Protection have reached an agreement to 
share manifest and vessel information reported to the two 
agencies by those involved in maritime transportation. I hope 
our government witnesses can shed some light on efforts to 
improve coordination and complete memorandums of agreement that 
define each agency's role and responsibilities.
    I bring this to question the Department about this and 
believe that little effort has been put into completing these 
agreements, which not only better define agency roles, but also 
serve to direct and state local governments in the private 
sector when they try to get answers to security questions.
    Further, we're going to hear from maritime industry 
representatives today who are concerned about future security 
costs. As I stated at yesterday's hearings examining the state 
of rail security, only modest resources have been dedicated to 
maritime and land security over the past two and a half years 
compared to the investments made to secure the airways. I 
believe one reason for this discrepancy is a lack of focus on 
maritime security on a comprehensive plan that sets standards 
and clearly identifies what efforts and costs are public versus 
private responsibilities.
    If the layered approach to homeland security envisioned by 
DHS and its strategic plan is to work, it's imperative that all 
parties, both public and private, have a clear understanding of 
their roles and responsibilities.
    I want to welcome all of our witnesses. I look forward to 
their statements regarding the current state of maritime 
security and hearing their recommendations pertaining to the 
needs that are still outstanding.
    [The prepared statement of Senator McCain follows:]

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    The Committee meets today to consider the state of maritime 
security in the United States and around the world; specifically 
efforts related to vessel, port, and cargo security, and personnel with 
access to vessels and cargo .at maritime facilities. The Committee 
hopes to learn what has been done to improve maritime security over the 
two and half years since the terrorist attacks on New York and 
Washington.
    I commend Secretary Ridge and all the employees of the Department 
of Homeland Security who have taken on the monumental task of securing 
our homeland while managing the largest government reorganization in 
history. It is clear the Department has made significant strides and 
established the foundation for a layered approach to transportation 
security in the year and a half since the Homeland Security Act of 2002 
and the Maritime Transportation Security Act were signed into law, yet 
their task is far from complete.
    No comprehensive maritime security plan exists, and I am concerned 
that a lack of resources and the demands of the reorganization have 
inhibited the Department's focus on its security mission. The three 
witnesses from DHS here today directly oversee the agencies most 
involved in maritime security: the Coast Guard, Customs and Border 
Protection, and the Transportation Security Administration. These 
agencies spent millions of dollars on numerous, and in some cases 
overlapping or duplicative, pilot projects, tests, initiatives, and 
programs aimed at improving maritime security with questionable 
results.
    For example, over 5,700 companies have signed up for the Customs 
Trade Partnership Against Terrorism, known as C-TPAT. While this would 
seem like a great success, many of those in the maritime industry 
associated with the program to increase supply chain security have 
started to openly question the value of this voluntary approach. Some 
participants continue to strongly adhere to the program's goals out of 
a sense of responsibility, while others, driven by their bottom line, 
are moving away from the program and are only meeting those 
requirements in law or regulation.
    The lack of coordination and absence of established standards and 
goals have lead to confusion for the maritime industry as to what must 
be done to improve security and whom to go to with security questions. 
This type of confusion will lead to less cooperation from industry and 
ultimately to lax security. The agencies represented here today must 
strive harder to improve coordination efforts. I was amazed to learn 
that it has only been in the last several weeks that the Coast Guard 
and Customs and Border Protection have reached an agreement to share 
manifest and vessel information reported to the two agencies by those 
involved in maritime transportation.
    I hope our government witnesses can shed some light on efforts to 
improve coordination and complete Memorandums of Agreement that define 
each agency's role and responsibilities. I have previously questioned 
the Department about this and believe that little effort has been put 
into completing these agreements which not only better define agency 
roles, but also serve to direct state and local governments and the 
private sector when they try to get answers to security questions.
    Further, we are going to hear from maritime industry 
representatives today who are concerned about future security costs. As 
I stated at yesterday's hearing examining the state of rail security, 
only modest resources have been dedicated to maritime and land security 
over the past two and a half years compared to the investments made to 
secure the airways. I believe one reason for this discrepancy, is the 
lack of focus in maritime security on a comprehensive plan that sets 
standards, and clearly identifies what efforts and costs are public 
versus private responsibilities. If the layered approach to homeland 
security envisioned by DHS in its Strategic Plan is to work, it is 
imperative that all parties, both public and private, have a clear 
understanding of their roles and responsibilities.
    I want to welcome all of our witnesses. I look forward to their 
statements regarding the current state of maritime security, and 
hearing their recommendations pertaining to the needs still 
outstanding.

    The Chairman. Senator Hollings, welcome back.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you very much, Mr. Chairman. Let me 
welcome Admiral Collins and our Commissioner of Customs, Mr. 
Bonner. Let me do a little taking of stock, because, you know, 
the Committee itself, right after 9/11, went into an intermural 
on airport and airline security. We finally got that through 
and we took up and unanimously reported out a port security 
authorization, and within that authorization we provided 
monies. Specifically, Mr. Bonner, we put in a $15 million 
container fee, approximately $700 million overall, that would 
take care of at least the 55 major ports.
    That's just a start. As Admiral Collins knows, the Coast 
Guard has estimated a total port cost of $7.4 billion. We had 
to make a start, and we made a good start. There was a 
unanimous vote in the U.S. Senate. It went over to the House 
side and into a dogfall of a year's wrangle.
    Number one, they said that this was a tax, a tax, a tax. I 
finally got the House parliamentarian to rule that it was not a 
tax, it was a user fee. Then they went into a wrangle about, 
``Well, wait a minute, this affects revenues under the 
Constitution. It ought to derive in the House of 
Representatives.'' I said, ``Fine, let's get the conference 
agreement and get the money and you folks just introduce it and 
we'll take it ipso facto right on the Senate side.'' No, no, 
they didn't want to do that.
    As of now, we have no money. Can you imagine that? 9/11/
2001, 9/11/2002, that's two and a half years, and we're still 
wrangling. We finally agreed to ask the President to report on 
how he would fund the port security program. You know that's 15 
months ago and we have yet to hear from the White House. We've 
heard from the White House otherwise. They've opposed it at 
every stand. I'm telling you right now, we put a small amount 
and two supplementals into the Homeland Security bill. I was 
able to get in $450 million, and that $450 million should be 
compared to the $7.4 billion that Admiral Collins says it would 
take for the ports.
    But be that as it may, we offered an amendment in the 2004 
budget resolution, of a billion dollars. We unanimously adopted 
the budget resolution. The White House demanded that we drop it 
in conference and it was dropped in conference, so we got 
nothing there.
    Then again, we were trying our best, Admiral, you remember 
the money we received from the emergency supplementals in order 
to get these towers. We credit our friend, Senator John 
Breaux--he said we ought to have these transponders, to throw 
the ball to ships coming in. But we had no towers to throw the 
ball, or signal. And so we put in 50, and they cut it back, I 
think, to 24, if it--and you've done your best to control your 
budget, Admiral Collins. We're not fussing at you. I'm just 
trying to bring the Committee up to par here on just exactly 
what's been done. So we did that.
    Now, in the 2004 budget, they finally requested some $46 
million, but, you know, we still don't have the towers. We hope 
to get the transponders in there, and I think by the end of the 
year, Admiral Collins, you attest to the fact that the ships 
will be ready under Senator Breaux's initiative.
    But what happens is that as of this morning, just 2 weeks 
ago--we always talked about Osama coming in there at Mombasa, 
the port of Kenya, and going to Nairobi and to Dar es Salaam 
and Tanzania and blowing up the two embassies. Well, they came 
into the port of Ashdod, in Southern Israel, just 2 weeks ago. 
They were trying to hit, as best we can tell, a chemical 
facility, and targeted it, but they were intercepted. Ten of 
them were killed, 20 were wounded there as they infiltrated the 
port there in Ashdod. But Lloyd's of London tells us that Osama 
owns ten vessels, and he has an interest in ten more.
    And the best we can, after two and a half years of 
wrangling, and everything else like that, the Congress has been 
acting, but we have yet to get any more than a recommendation 
of $46 million for 55 major ports and 361 ports overall.
    So I commend you, too. You all have been working, and we've 
been in the hearings with you. You've been responding the best 
you can. And, Mr. Chairman, I appreciate your indulgence, but I 
think we ought to take stock and see just exactly where we are 
when--we're all talking, ``We're in there, we're doing this, 
we're doing that,'' and everything else, 9/11.
    On rail security, they have not even taken up your bill and 
my bill that we reported out of this Committee. We can't even 
get rail security debated on the floor of the Congress. And 
they blew them up in Spain. On port security, we can't get any 
money. We passed the authorization, we asked the White House to 
give us their plan; 15 months later, they have no plan.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hollings.
    I mentioned, at the hearing yesterday, which you were 
unable to be here because of the funeral of your----
    Senator Hollings. Yes.
    The Chairman.--your friend in South Carolina, that it would 
be my intention, with your agreement, that we would mark up 
another rail security bill, in light of additional information 
that----
    Senator Hollings. That would be terrific, Mr.----
    The Chairman. Fine.
    Senator Hollings.--Chairman. I appreciate your leadership 
on that----
    The Chairman. Fine.
    Senator Hollings.--because that's the only way we're going 
to get it done.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Mr. Chairman, I would like to thank you for convening this hearing 
today to allow this Committee to consider port security and examine 
where we are some year and a half after the enactment of the Maritime 
Transportation and Security Act of2002. While you don't have to much 
coastal water near you in Arizona, you have allowed us coastal members 
more than adequate opportunity to consider whether we have taken 
adequate measures to protect our ports and the people and citizens the 
live around and near them. However, port security is an issue that is 
much more than an issue that impacts just the people living on our 
coast. It impacts our whole economy and the health and strength of this 
Nation because of the importance of the maritime trade.
    Almost all of the overseas retail goods that are sold here in the 
stores and the malls and the retail outlets comes from overseas 
destinations. U.S. manufacturers also rely on the maritime 
transportation system, for instance in my state of South Carolina, the 
car manufacturer BMW, gets many of the components that they put into 
their car from overseas ports. Most of our petroleum product comes 
overseas in tankers, as well as many of the chemicals and other bulk 
commodities we use. If our system of port security fails, I can assure 
that all of the industries that rely on it will also suffer tremendous 
losses, as will our Nation as whole, so port security really is an 
issue that impacts every citizen in the United States, whether they 
know it or not.
    In my opinion we have been able to take some steps forward to 
better secure our ports and our system of maritime security, but we 
have a long, long way to go, and I do not feel that this Administration 
has dedicated the resources really to address this issue in a 
comprehensive fashion. Less than two weeks ago, in the Israeli port of 
Ashdod in Southern Israel, two suicide bombers allegedly with ties to 
the terrorist organization Hamas, infiltrated the port of Ashdod, 
killing ten and wounding twenty, according to press reports there is 
speculation that the suicide bombers had targeted chemical facilities 
within the port, including the chemical agent bromine. Currently, 
Israeli authorities are investigating how the terrorist got into the 
country, including whether they secreted themselves in marine 
containers in order to gain access. Prior to the incident in Israel, 
Al-Qaeda operatives had used small boats to blow up the USS Cole, and a 
commercial oil tanker. We also know that Al-Qaeda terrorist networks 
used Al-Qaeda owned and controlled vessels to smuggle in terrorists and 
explosives used in the attacks on the U.S. embassies in Kenya and 
Tanzania, and that Al-Qaeda owns a fleet of merchant vessels.
    So this is a very real threat that we are talking about, and I have 
concerns that we are not currently positioned to prevent an attack 
utilizing means of access through maritime transportation or through 
our maritime system. I can tell you, that in the event that something 
does happen, we do not have a plan to reopen U.S. ports to commerce, 
without admitting that we will do so with very real risks that the same 
event could occur again. I can also tell you that in the event that we 
have to close our ports for any length of time, we will cause 
catastrophic economic impacts. For instance, when we had a labor-
management impasse on the West Coast resulting in a closure of the 
ports, it is estimated that it cost the economy 1 to 2 billion dollars 
a day in revenues. I can assure that, closure of U.S. ports for any 
period of time would resonate throughout our entire economy.
    While have taken some steps forward in the implementation of the 
Federal security planning requirements, there are many questions left, 
as to whether the security plans will be aggressive and effective tools 
to deter terrorism, or whether we have shell plans. My sense is that we 
will receive the minimum level of security necessary to ensure Federal 
compliance absent real resources that are dedicated to security 
enhancements. Otherwise, the ports will spend money on what they 
traditionally spend money, and that is making sure that they can move 
cargo as effectively as possible. I feel that the resources issues must 
be addressed, and I will be introducing legislation to ensure that, one 
way or the other, that we have funds in place that will be used to 
enhance port security.
    When we passed the MTSA, the Senate took the position that it 
should be paid for through user fees, and ultimately the House opposed 
our position, and supported by the industry, who claimed that it would 
be funded through the government. Well, the Administration, until this 
year, when they proposed $46 million to be funded, has proposed 
nothing. Repeatedly, I have offered amendments that have been defeated 
on party-line votes, to increase the funds allocated for Federal port 
security programs. Something has to be done to rectify funding 
shortfall, or someday, we will all be sitting around here pointing 
fingers at each other.
    I'll give you just one example of the problem. In the MTSA, we 
required all vessels to carry transponders in order to broadcast 
crucial shipping information and to allow governments to track the 
movements of these ships. Actually, it was Senator John Breaux, who led 
the charge on this particular issue. This will allow us to tracks ships 
to make sure they are not heading into the Golden Gate Bridge, or aimed 
to hit a nuclear reactor at Indian Point on the Hudson River. Every 
ship will have this equipment by the end of the year, but the 
Administration has in the past two years proposed $5 million dollars, 
not nearly enough to even start the system. This indefensible, this 
should be a crucial part of our system of port security defense.

    The Chairman. Fine. Get it out before the Committee, before 
this next recess, and, if necessary, exercise the amending 
process in order to get this issue addressed.
    Thank you, Senator Hollings.
    Senator Breaux?

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you very much, Mr. Chairman, again, 
for following up with this hearing with the one yesterday on 
rail security.
    Over in the Hart Building right now, we are having some 
very high level and highly televised hearings on what happened 
on 9/11 and why we weren't better prepared, while we're having 
a hearing here today to find out how to get prepared so it 
doesn't happen again. This is where it really starts. They're 
looking at why we didn't do what we should have done when we 
should have done it, when today, I mean, we're really looking 
at what we need to do to prepare ourselves to make sure it 
doesn't happen again so there's not going to be another hearing 
sometime in the future to analyze why we weren't better 
prepared when a ship blew up in one of our ports and destroyed 
the lives of innocent individuals. So this is where we solve 
the problems, and they're over there looking at the mistakes 
and what happened.
    This is very, very serious. I mean, we've done a good job, 
I think, on airline security. We've spent four and a half 
billion dollars, we've got locks on the cockpit door; you have 
to go through metal detectors; and professional Federal 
inspectors in the airports. It's a whole new system with regard 
to aviation. But I fear that, in the area of rail security and 
in the area of port security, we're not nearly there yet. And 
if I were a terrorist, as I said yesterday--I mean, you can't 
think like they do, but you would assume that if they're going 
to attack another target, it's going to be the weakest target, 
not the strongest. And I think that when you look at weak 
targets, targets that are open for terrorist activities, you've 
got to look at the ports as one--and the rails--as one area 
that could have some very serious problems.
    If you think about it, I mean, we had these hearings with 
the Chairman at that time, Senator Hollings, and we had 
hearings in Charleston, we had hearings in New Orleans, we had 
hearings in Houston, we had hearings on the East Coast, the 
West Coast, and I was really struck by the total lack of 
preparation because we had never considered, I guess, how 
vulnerable our ports are. If you think about a container ship 
as an example, they could have as many 3,000 containers on one 
ship, and each container carrying up to 60,000 pounds in each 
container, whatever they wanted to put into it.
    And if you think about a ship with 3,000 containers being 
in a port that is located next to an LNG facility, which is 
located next to a chemical plant in the middle of a city, which 
we have in this country, you can imagine what one container 
filled with explosives could do to a city and a community if it 
was containing explosives and it was detonated. We've seen what 
a 35 foot vessel can do to a military naval ship. It blew a 
hole in it and killed innocent men and women, who were 
unsuspecting. And that was a 35 foot little boat that blew a 
hole in the USS Cole.
    So this is a very, very serious problem. We've not done 
enough. Senator Hollings has said that. Money is the big 
problem, not your determination, Mr. Bonner and Admiral 
Collins; you all have done a terrific job, and will continue to 
do so.
    We have, today, the Chairman--President of the Port of New 
Orleans, Gary LaGrange, who is up here. We invited him. It has 
been a port since about the 1700s down there. A ship sank in 
the port just a couple of days ago, stopped traffic for 4 days, 
just an innocent accident. And when you stop that, I mean, you 
stop commerce throughout the middle part of the United States 
of America. And that was, you know, not a terrorist activity, 
but it shows you what can happen.
    The AIS system, the Automatic Identification System, is not 
in place, we said it should be, to track those vessels, where 
they are at every point in time. We know where every airplane 
is at every point in time, but we don't know where every ship 
is, and we've got some real holes in this system. And hopefully 
this hearing will be helpful in trying to fill the holes.
    Thank you.
    The Chairman. Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. And thank you for 
holding this hearing this morning.
    I want to welcome our witnesses, Admiral Collins, the 
Commandant of the Coast Guard, and Mr. Bonner and Admiral 
Stone. I thank you for being here, because obviously this is a 
key priority and a cornerstone of ensuring the integrity of our 
borders, and that is, of course, to secure the maritime 
transportation system.
    As Chair of the Ocean, Fisheries, and Coast Guard 
Subcommittee, I certainly think that we have to do everything 
that we can to ensure that we are protecting our borders, in 
terms of what happens to the ships and the contents of those 
ships that come to this country. And some of the key port 
security priorities is to advance the acceleration of the 
Deepwater funding, which will provide the Coast Guard with 
updated capitalization, in terms of the assets.
    And I'm concerned with also ensuring that ports, based on 
the Port Security Assessment Plan, have the adequate resources 
to implement those plans. That's another area for discussion 
here this morning. And also, making sure that staffing levels 
for the Container Security Initiative are high enough to ensure 
that the weapons of mass destruction never reach our shores.
    Mr. Chairman, given the fact that only around 5 percent of 
the 6 million containers that come to this country from 
overseas are inspected each year, only 12 percent of all 
containers, whether it's air, land, or sea--and 95 percent of 
trade from outside North America comes into the United States 
by sea--it's absolutely vital that we focus on the security of 
our ports as a first line of defense.
    Interestingly enough, there was a RAND report that was 
issued in August of 2003, and it stated that the maritime 
sector, and specifically the container transport sector, remain 
wide open to the terrorist threat, and the system is perceived 
to be poorly defended against misuse and terrorism due to its 
global and open nature.
    So I think that is a stark assessment and characterization 
of where we stand today with respect to port security. I know 
the Coast Guard, the Bureau of Customs and Border Protection, 
and other Homeland Security agencies have made great progress 
in protecting our Nation against catastrophic terrorist 
attacks, but, as we, you know, know, we have a long ways to go 
in this process.
    Last year at this hearing, I expressed concerns about the 
fact that Customs personnel were not equipped with personal 
radiation detectors. That now is not the case; everyone is 
equipped, as I understand it, with those detection systems, and 
that is very important, because that is central to our ability 
of protecting the maritime system from infiltration by weapons 
of mass destruction.
    I do believe that we have to accelerate the Coast Guard 
Deepwater Project. The Coast Guard has been debilitated by 
degrading assets, and I'm concerned about the Administration's 
timeline for the 22-year project for the upgrade of the Coast 
Guard vessels. I think we have to accelerate that. In fact, I 
included a report last year in the Homeland Security Act that, 
in fact, underscored the necessity of accelerating that 
project, and that, in fact, that we would reap the gains and 
benefits of doing so. I do not believe that we can wait any 
longer to acquire the necessary assets for the Coast Guard.
    We're facing an ever-present danger, and the Coast Guard is 
facing extraordinary burdens in ensuring the security of our 
ports, and they need this capitalization and modernization of 
their assets sooner, rather than later, Mr. Chairman. And I 
hope that we're going to be able to turn that timeline around.
    Second, it's funding. I know that's been indicated here 
this morning. Again, in order for the Coast Guard and others to 
comply with the mandates of the Maritime Transportation 
Security Act, I'm very troubled, again, that the Administration 
has requested $46 million in port security grants for Fiscal 
Year 2005, which represents a 63 percent cut, down from $150 
million in Fiscal Year 2003, and $125 million in Fiscal Year 
2004. That is a dramatic reduction at a time, I might note, 
ironically and coincidentally, that the Coast Guard has even 
indicated that it will take $5.4 billion on enhanced security 
grants over the next 10 years to comply with the mandates 
required under the Maritime Transportation Security Act. So 
clearly there is an enormous gap and discrepancy between our 
needs and that which is being requested by the Administration.
    So, obviously, the funding is inadequate. I think we need 
to fight for additional increases in appropriations. And, 
finally, Mr. Chairman, we can't wait, or afford to wait, until 
the dangerous cargo is already in our port. I've been a strong 
supporter of the Containment Security Initiative. I think it's 
going a long ways to shoring up what comes into this country 
and securing--to make sure that those containers that might be 
identified as a high-risk threat do not enter this country. 
But, again, five-person teams deployed to the 17 CSI megaports 
is not adequate to do the job. Again, according to the CSI 
statistics, a five-person team in Singapore, which sent more 
than 400,000 containers to the United States from March 2003 to 
January 2004, reviewed only 63 percent of the cargo container's 
manifest. Obviously, that means that 160,000 container's 
manifests were not even reviewed to determine whether or not 
there was any risky cargo involved.
    So we obviously have made strides, but we have a long ways 
to go, and I think we have to adopt a must-do attitude sooner, 
rather than later, Mr. Chairman, on all these fronts.
    Thank you.
    The Chairman. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman, for continuing to 
review the security concerns we have in our surface 
transportation as well as the ports that we're looking a little 
more closely at today.
    When you think about it, and think about how quiet it seems 
in the port areas, it looks like we're kind of playing the 
``out of sight, out of mind'' game here, not providing the 
resources that we need, and looking at departments that I think 
function very well in government--the Coast Guard, with its 
enormously expanding responsibility all the time. We always 
find, Admiral Collins, different things for the Coast Guard to 
do, even as we cut back on resources. It has been a phenomenon 
that has been unpleasant to witness. I have great respect for 
the agency. And Customs people, I see them; they work very hard 
to do their job. And the volume of entries into the country, at 
airports and cruise ships, et cetera, is enormous.
    When you look at it, if a terrorist organization is looking 
for a point of relatively easy penetration, just think about 
it, 55,000 ports of call are made each year. And where do these 
ships come from? They come from places that we know are not 
really necessarily friendly to the United States, and are 
usually fairly quickly accessible to those who would like to do 
us damage. So the task of securing our ports is enormous, but 
it won't go away by cutting back on the resources applied.
    Recently, an official from the FBI testified before 
Congress that the agency has gathered intelligence suggesting 
that ports are a key vulnerability in our homeland defense. 
And, again, to be repetitive, terrorists know that, as well as 
we know it. Counterterrorism experts worry that terrorists 
could smuggle themselves, traditional weapons, nuclear, 
chemical or biological weapons into the country in these 
containers.
    Robert Jacksta, Executive Director of the U.S. Customs and 
Border Patrol, testified last year that we inspected just 5.4 
percent of the containers that arrived at our ports of entry. 
And despite that testimony, the Bush Administration's Fiscal 
Year 2005 budget proposes no Federal funds to help increase the 
number of containers being screened. Furthermore, Coast Guard 
officials have said, as we have heard from Senator Collins and 
Senator Hollings, that it will--Senator Snowe, rather, and 
Senator Hollings--will cost $1.4 billion in the first year, and 
$7.4 billion over the next 10 years, just to make the basic 
necessary physical security improvements in our ports. But the 
President, again, as we heard from Senator Hollings, is only 
asking for $46 million. That's the funding for this task in 
2005. It's outrageous. But the President didn't mind using a 
seaport background, when he did some photographs for 
advertising, to suggest that he's concerned about a terrorist 
infiltration there.
    It appears that the Administration expects port authorities 
and facility operators to comply with new security regulations 
with very little Federal assistance. Port security in my state 
is a major problem. The Port of New York and New Jersey is one 
of the biggest container ports in the world, handling over 16 
million tons of ocean-borne cargo each year.
    Hazardous materials move in and out of the port, through 
pipelines and over roads and freight line--and freight rail 
lines. And much of our vital surface transportation 
infrastructure in Newark Liberty International Airport are 
within a mile of the port. You can see from one to the other 
very clearly. Millions of people live near these facilities, 
which are vulnerable to terrorist attack. So it's easy to 
imagine what's at stake for New Jersey and New York and the 
Nation if the port's attacked.
    Mr. Chairman, port security, one of those areas that makes 
me disappointed with the Administrations' homeland security 
effort, they don't put their money where their mouths are. The 
needs are out there. And rather than starting to address them, 
the Administration forces the good people at DHS to play budget 
games. And we need them to have the resources they need to help 
secure our country against terrorism.
    Last summer, we saw cross-training of air marshals and 
Customs employees. Yesterday, it was cross-training bomb-
sniffing dogs. We've had requests to shift money from port 
security to pay for aviation security, where I think we are 
doing a pretty good job. But all we want is the security that 
comes with knowing our government is doing what it can to make 
our country safer from terrorism. That means we have to address 
the vulnerabilities that we know are there, particularly in our 
ports.
    And, Mr. Chairman, I hope that this hearing will foster the 
attention and action that we need with regard to what we can do 
to secure our ports, and I greatly respect the fact that you're 
doing--following up yesterday's hearing with this one.
    Thank you.
    The Chairman. Thank you very much, Senator Lautenberg.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    Mr. Chairman, I do appreciate your and Senator Breaux's and 
Senator Hollings' leadership in calling this hearing, along 
with Senator Snowe, who's the Chairman of the Subcommittee, 
because this is an area that I am very concerned that we have 
not put enough emphasis on in the past. You look at what 
happened in California, when there was a labor dispute that 
caused about, estimated, a billion-dollars-a-day in disruption 
to the economy, so you look at a disaster of some kind, and you 
are looking at the economic consequences that could be a huge 
impact on our fragile economic recovery. In addition, in my 
home state of Texas we have the largest chemical complex in 
America, the second largest in the world, sitting right on the 
port. So the kind of damage that could be done with a 
disruption in our system would be untold in terms of both lives 
and economic impact.
    I believe it is time that we add to the Maritime 
Transportation Security Act that, frankly, our Committee took 
the lead on--and we were able to pass and have signed by the 
President, and it did a lot for port security--but I think we 
need to now add a second layer on that, and I am going to 
propose legislation in the near future, and look forward to 
having your input, because I want to do what we need to do to 
shore up the maritime container security, which will be the 
focus of my legislation.
    It will do, first, the development of a national 
transportation security strategy to require the Department of 
Homeland Security to develop an overarching strategy designed 
to integrate the efforts of the Coast Guard as it develops its 
entire national security plan.
    Second, to develop a container integrity initiative to 
build upon the Customs and Border Protection ``smart box'' 
concept, requiring, within 2 years, 50 percent of all 
containers coming into the United States to be in smart boxes.
    Number three, start a point-of-origin security enhancement 
initiative. Building, again, upon the Customs and Border 
Protection Container Security Initiative, we would 
substantially increase the number of U.S. Customs Service 
inspectors at foreign ports, just what Senator Snowe mentioned 
earlier needs to be addressed. I would have these inspectors 
phased in over a period of 2 years, so that we could have a 
real presence at the point of origin. If we don't have some 
capability to determine what is in those sealed-up containers 
at the point of origin, we will not have enough control when 
they get to our ports.
    So I would welcome your input. I don't want to do something 
that would disrupt our trade and commerce. On the other hand, 
nothing could disrupt our trade and commerce more than a 
disaster at one of our major ports.
    So, Mr. Chairman, I look forward to working with you and 
all the leaders in this effort to now take the next step in 
container security.
    Thank you.
    The Chairman. Thank you.
    Senator Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thanks.
    Mr. Chairman, I just want to take a minute to thank you and 
Senator Hollings, because I think Senator Breaux is right, 
everybody's over at the 9/11 hearing because of what happened; 
we're trying to do the work of making sure nothing else happens 
like that.
    And yesterday, we had a great hearing--Senator Hollings, we 
missed you very much--on rail security, and I had a real 
problem with one of the Administration witnesses because I 
couldn't get a straight answer to a question, which was simply, 
``Where are you getting the money to do all these things that 
you want to do?'' And they said they're taking it from other--
from existing funds. Well, we never could get to the bottom of 
where they're taking the money from.
    The bottom line is, if we're going to do this right, we'd 
better face the facts that we have to fund it some way. Whether 
it's a canine patrol or whether it's a high-tech way, like this 
Kevlar here, which I brought to show you, pass around--if we 
had containers made of Kevlar, they would be blast resistant, 
and we wouldn't cause damage. These are the things we have the 
ability to do.
    I would like to put my statement in the record and conclude 
with a few points.
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Good morning. Mr. Chairman, I appreciate you holding this hearing 
today.
    Two and a half years ago, the United States was caught unprepared 
when it came to aviation security. The results were devastating.
    Since then, we have greatly improved our aviation security, and we 
have begun to improve our port security. We have a long way to go in 
both of these areas.
    And clearly after the terrorist attack in Madrid, we must also 
address the vulnerability of our rail systems.
    I was disturbed to read a quote by the Department of Homeland 
Security's Under Secretary for Border & Transportation Security Asa 
Hutchinson. He said that ``it's very important that we do not simply 
react to an incident that happens anywhere in the world'' and that the 
Administration was NOT seeking more funding for train security. The 
Under Secretary said, ``An aircraft can be used as a weapon. A train 
cannot be hurled through the air in the same fashion.''
    I believe that the terrorist attack in Madrid was a tragedy and I 
believe we act--even if the train cannot be hurled into the air.
    In October 2001, this Committee passed a rail security bill. We 
knew that the United States must not be caught off guard when it comes 
to our passenger and freight rail systems.
    However, the bill never became law.
    This is extremely unfortunate when you look at the massive rail 
system in this country (charts: passenger and freight rail systems).
    I am a co-sponsor of Senator Hollings's rail security bill 
introduced earlier this month. And, I am introducing legislation that 
will authorize funding for more police, canine dogs, and surveillance 
equipment on Amtrak and local transit systems.
    I am also sending a letter to GAO asking for a study of the 
Department of Homeland Security's threat assessment of both the 
passenger and freight systems.
    Both a threat assessment and Federal funding for everyday security 
measures are vitally important to our country, including California. 
California has the second highest Amtrak ridership in the country.
    I look forward to hearing from the witnesses.
    It is vitally important that we ensure that our Nation's entire 
transportation system is secure. And, it's our job to do that so thank 
you Mr. Chairman for this hearing.

    Senator Boxer. And 40 percent of all the goods imported 
into the United States come through California. Senator 
Hutchison was so right in pointing out what happened when we 
had a strike, and how important it was to settle that strike, 
and the damage, the economic damage, that was done. Imagine if 
these ports were destroyed, God forbid.
    So here's what we've got. The major cargo ports are Los 
Angeles, Long Beach, and Oakland. Other major ports are San 
Diego, San Francisco, and Stockton. I know so many of you know 
all these places, you've been to all these places. There are 12 
major commercial harbors in California, and numerous other 
smaller ports that take the overload. I've been to Crescent 
City, down to San Diego. They need us. The Coast Guard is 
extraordinary, and the Coast Guard is stalwart. And you ask the 
Coast Guard, ``Do you need anything else?'' ``Oh, we'll make 
do.''
    Well, I think we need to look at the GAO study. I guess 
Senator Lautenberg may have mentioned the number--$4.5 billion 
over the next 10 years is what GAO says is needed. And the 
Administration's asking for $42 million in this year's budget? 
I think, you know, we're in a Committee that's a can-do 
Committee, and this is an area that we must do.
    I want to work with everyone. Congresswoman Millender-
McDonald, from the L.A. area, has a very important bill that 
would call for major grants. We need to find a mechanism to pay 
for this. And we did have it, Senator Hollings, and then we 
couldn't get the bill--we got the bill through, but we didn't 
have a funding source.
    Yesterday, I was on a TV program, on FOX, and the reporter 
said to me, ``Well, don't you think we ought to do away with 
the gasoline tax? That'll bring down the price of gas.'' I 
said, ``Yes, if you don't want to build roads. Yes, if you 
don't want to have transit systems.'' So, you know, we just 
have to be smart about this.
    And I hope that, together, we can work across party lines--
this is a great Committee to do that--so we can make sure that 
we're taking advantage of technology, that we have a funding 
source, that we avoid a 9/11 at our ports and our rail systems.
    Thank you.
    The Chairman. Thank you very much, Senator Boxer.
    Our first panel is Admiral Thomas H. Collins, Commandant of 
the U.S. Coast Guard, the Honorable Robert C. Bonner, 
Commissioner of U.S. Customs and Border Protection, and Rear 
Admiral David M. Stone, who's the acting Administrator of the 
Transportation Security Administration.
    And we'd like to begin with you, Admiral Collins. Welcome.

  STATEMENT OF HON. THOMAS H. COLLINS, COMMANDANT, U.S. COAST 
                             GUARD

    Admiral Collins. Thank you, Mr. Chairman, distinguished 
Members of the Committee, my pleasure to be with you today, and 
along with my Department colleagues, Commissioner Bonner and 
Admiral Stone, to update you on our Department's efforts to 
enhance maritime security, and the impact of those efforts on 
maritime commerce, and measures that we're taking.
    The recent tragedy in Madrid clearly reminds us of the 
urgency of Homeland Security mission. We share the sense of 
urgency expressed by Senator Breaux.
    Since 9/11, Secretary Ridge and all components within the 
Department, we've worked very, very hard to achieve the 
Department's strategic goals of awareness, prevention, 
protection, response, and recovery. And as part of that effort, 
we have developed a supporting maritime homeland security 
strategy consisting of four elements. And if I could indulge 
you just a minute, I will put up a chart that depicts the four 
categories--areas of interest, if you will--that dovetails with 
the Department's awareness, prevention, protection, response, 
and recovery strategies, all designed to mitigate maritime 
risk. That's what this is about.
    Four major components, as you can see. One is to enhance 
what we call maritime domain awareness. That's to have 
visibility of threats and risks and things coming at us in the 
maritime. It starts there if you're going to make wise 
decisions about preventing things from happening. Building and 
administering an effective domestic and international security 
regime, it's increasing our operational presence and leveraging 
partnerships with state and local entities for success, and 
improving our response and recovery posture.
    And listed under--detailed under each one of those major 
goals is all the individual--a partial listing, I might say, of 
the individual action items that we are taking, that we are 
investing in, that we're spending our collective energies in to 
move those goals along.
    We are progressively and aggressively, each of our 
agencies, pursuing initiatives to support these strategy 
elements. And, again, all to mitigate risk.
    The core of the maritime domain awareness effort centers on 
the development and employment of accurate information, 
intelligence, in targeting of vessels, cargo, crews, and 
passengers long before they reach a U.S. port. We want to 
understand the threat before it gets to Port Elizabeth. We want 
to understand the threat before it gets to L.A./Long Beach.
    For example, the Coast Guard has made vessel notice of 
arrival reporting requirements much, much more rigorous, has 
instituted extensive screening procedures collaboratively with 
Customs and Border Protection and the Office of Naval 
Intelligence, and is incorporating provisions for electronic 
submission of information. Customs, in turn, has requested 
earlier and more comprehensive cargo manifest information. All 
three of our agencies work collaboratively to fuse intelligence 
together to gain the clearest picture of risks.
    The second element involves both domestic and international 
efforts to develop a new security framework, a security culture 
in the maritime--new standards of security, new processes, new 
procedures. It includes initiatives related to the 
implementation of the Maritime Transportation Security Act of 
2002, the IMO--International Ship and Port Security Code 
Regulations that have been promulgated, as well as improving 
supply chain security and identity-security processes.
    We published MTSA final rules in October of last year, the 
largest rulemaking in our history. These rules were jointly 
developed--jointed developed, collaboratively developed--
between the Coast Guard, Transportation Security 
Administration, and Customs and Border Patrol. We are on 
schedule to implement the rule, effective 1 July of this year. 
And efforts also include, in terms of the security regime goal, 
very successful Container Security Initiative led by 
Commissioner Bonner. I'm sure you're going to have a few words 
on that, momentarily.
    Our collective efforts to increase--in the third area--
increase our operational presence in our ports and coastal 
zones focuses not only on adding more people, boats, and ships 
to our security effort, but making the employment of those 
resources more effective through the application of technology, 
information sharing, and intelligence support.
    Several examples. Customs and Border Protection is 
employing nonintrusive inspection technology to screen 
shipments. Coast Guard is aggressively enforcing and exercising 
domestic and international security standards, equipping 
helicopters with airborne use-of-force capability and vertical 
insertion capability, adding boats and patrol cutters, and 
developing special safety and security teams to secure our 
ports, waterways, and/or vessels in the face of increasing 
risk. TSA, in coordination with the Coast Guard, is working 
with cruise-line operators to identify technology solutions for 
screening passengers and their belongings.
    We are also aggressively working to improve our response 
capability and readiness to respond to security incidents that 
do occur in the over 26,000 miles of navigable waterways and 
over 361 ports. We will soon deploy the first segments of our 
Rescue 21, the Coast Guard's maritime 9/11 command, control, 
and communications system. We've also worked, within the 
Department and through the Department, to refine our Nation's 
emergency response plans and incident management systems. These 
will materially improve our overall response efforts. I know my 
colleagues this morning will add more descriptors on some of 
these action items that populate our overall strategy.
    I should note that an essential feature of the overall 
Department's security strategy is pursuit of a layered defense 
approach, one that has been alluded to by the distinguished 
Members of this Committee this morning, but one that seeks to 
reach beyond our borders, in partnership with other agencies 
and nations, to mitigate risk of the homeland.
    Please, the next graphic.
    I think this is a pretty good graphic that depicts how 
these various initiatives fold into a reaching-out type of 
approach well beyond our ports. You can see that there are a 
number of these initiatives, sorted by--geographically, if you 
will, in terms of a layered perspective that extends from our 
ports through coastal approaches, through open ocean, all the 
way to foreign ports. This is a comprehensive approach to deal 
with truly a global security challenge, because it is a global 
system that we're dealing with.
    [The graphic referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Coast Guard's efforts for the Deepwater system is part of 
this layered defense. Senator Snowe mentioned that earlier in 
her comments. It is very, very important for us to have the 
presence, the operational presence, and the MDA, the maritime 
domain awareness, through this layered defense in the maritime. 
Indispensable for us to develop a network-centered approach to 
our systems, and that's what it's all about. It's a major 
priority within our budget.
    You can see, Mr. Chairman, that we--the Department has a 
very full range of, I think, well thought-out and coordinated 
initiatives that will increasingly, as we work on all of these 
items, increasingly secure our Nation's ports, waterways, and 
infrastructure. These three agencies that are sitting here are 
committed to these efforts, committed to working together and 
develop many interagency working groups that are addressing 
things like cargo security standards, port security assessment, 
international port security assessment, and the development of 
associated plans in a family-of-plans construct. We're under 
one roof now. We have great, intensive communication and 
cooperation amongst us, and I think there are a lot of great 
things we've done, and more coming.
    Thank you for your attention, Mr. Chairman. I'll be glad to 
answer any questions at the appropriate time.
    The Chairman. Thank you, Admiral.
    Commissioner Bonner, welcome.

STATEMENT OF HON. ROBERT C. BONNER, COMMISSIONER, U.S. CUSTOMS 
                     AND BORDER PROTECTION

    Mr. Bonner. Yes, thank you, Mr. Chairman and Senator 
Hollings and Members of the Committee. I want to thank you for 
this opportunity to testify regarding maritime and port 
security, and the progress that U.S. Customs and Border 
Protection has made since we last discussed this, back in 
September. I'm particularly pleased to be here with my 
colleagues, Admiral Collins and Admiral Stone.
    I think I can report to this Committee that, with much of 
our government's terrorist prevention capabilities now under 
one roof--that is to say, within one department of government--
and that department under the great leadership of Secretary 
Ridge, our country is better able to deal with the terrorist 
threat than we were before the Department of Homeland Security 
was created.
    There are--three of the principal operational agencies of 
the Department are represented by the three of us that are 
sitting at this table before you. Customs and Border Protection 
is one of those operational agencies of the Department of 
Homeland Security that was created just a little over a year 
ago by essentially merging four different entities or agencies 
from three different departments and putting them into one 
agency, one agency for our borders.
    The priority mission of our agency, of Customs and Border 
Protection, as a unified border agency, is nothing less than 
detecting and preventing terrorists and terrorist weapons from 
entering our country. That is, as we've discussed, we have twin 
goals here. One is to secure America's borders, to be sure; but 
to do it in a way that does not stifle the flow of legitimate 
trade, commerce, and people.
    And those goals don't have to be mutually exclusive. We 
can, and we are, accomplishing them through the use of and 
obtaining advance information, through risk-targeting systems, 
through detection technologies, and by extended border 
strategies, like the Container Security Initiative.
    In the maritime environment, we are, of course, concerned 
that cargo coming into our seaports could be exploited by al 
Qaeda, and al Qaeda-associated terrorist organizations. And 
clearly this is something of great concern to us and the 
Administration.
    The use of containers to smuggle terrorists or terrorist 
weapons is, of course, by no means farfetched. Just last week, 
as reported in the Israeli newspapers, two Palestinian 
extremists detonated two suicide bombs in the Israeli port of 
Ashdod, killing 10 people and wounding 18 others. And, at 
first, the security officers in Israel were at a loss to 
explain how these suicide bombers were able to get into the 
port area, because they had. It now looks as though they 
infiltrated the port by concealing themselves in a cargo 
container.
    This attack highlights two significant lessons on port 
security, it seems to me. The first one is the threat to our 
ports lies outside, and it lies in having unknown, essentially 
never before seen shipments arrive at our U.S. seaports. And it 
also is the lesson that we should conduct security screenings 
and inspections of high risk cargo at the earliest opportunity, 
before these cargo shipments and these containers arrive at 
U.S. seaports.
    As the border agency for our country, Customs and Border 
Protection has a great responsibility, because every one of the 
eight to nine million sea cargo containers that arrive at our 
seaports annually have to be presented to and cleared through 
U.S. Customs and Border Protection. And CBP has the authority 
to search any and every container without cause or suspicion. 
Moreover, Customs and Border Protection could deny a carrier 
permission to unload or unload a container at U.S. seaports. 
And based upon that authority, has authority, essentially, to 
order no-load orders at foreign ports to prevent high risk or 
unknown cargo from being loaded onboard overseas onto a ship 
headed for the United States. And I can assure you and this 
Committee that Customs and Border Protection--by the way, I 
have used the no-load authority, and certainly would use it if 
there were any specific intelligence about any container 
anyplace in the world that was headed for the United States. 
And we've used that authority also to gain compliance with our 
24-hour rule requirements.
    Let me just say a couple of other things, and then I'll 
conclude, about our efforts.
    One is the Container Security Initiative, which was 
mentioned by Senator Snowe. Customs and Border Protection is 
targeting and, with our foreign counterparts, screening 
targeted containers, those that pose a potential risk for 
concealment of terrorist weapons before they're loaded onboard 
vessels destined for the United States.
    And I've just put up a chart here on the board which 
indicates that, to date, foreign nations representing 38 
foreign seaports that ship directly to the United States have 
agreed to participate in the Container Security Initiative. And 
teams of Customs and Border Protection inspectors and targeters 
have been already deployed to 18 foreign seaports to target and 
screen containers destined for the United States for potential 
terrorist weapons.
    By the end of 2004, I expect to have CBP officers operating 
in over 30, or perhaps as many as 32, foreign seaports. Now, 
these are hubs, strategic megaports that ship 80 percent or 
more of all containers to the United States, and through which 
containers originating in high-risk countries of North Africa, 
the Middle East, and South Asia ship and pass through or 
transship their containers.
    The other initiative has been--that I want to mention is 
the Customs Trade Partnership Against Terrorism. The Chairman, 
Senator McCain, raised that. CBP has partnered, as you know, 
Mr. Chairman, with the private sector, with the trade 
community, to implement security standards and best practices 
that protect the entire supply chain against exploitation from 
terrorists, literally from the foreign manufacturers' loading 
docks to our ports of entry. And there are over 5,900 
companies, C-TPAT members, that have joined C-TPAT, including 
many, many major U.S. importers. In fact, U.S. importers, 
alone, represent 40 percent of all of the cargo that's shipped 
to the United States.
    So they've agreed to implement security standards. And it's 
not just a matter of saying they're going to implement them. We 
are now rolling out, at Customs and Border Protection, supply 
chain security specialists, who literally are validating that 
the promises and commitments of C-TPAT members and their 
foreign vendors have been complied with.
    And through C-TPAT, we continue to ask more from our 
partners, and continue to raise the bar. In January of this 
year, for example, five C-TPAT partners--these are major U.S. 
importers--agreed to enhance their supply chain security by 
using smart containers with an electronic container-security 
device that lets Customs and Border Protection inspectors know 
if that container has been tampered with. We'll continue to 
work with our partners, with TSA, with the Coast Guard, with 
the Department, and the Border and Transportation Security 
Directorate of the Department with respect to the question of 
how and whether to apply the smart box beyond C-TPAT, and what 
the standard should be.
    In addition, by the way, we've done a lot at our own U.S. 
seaports--I know Senator Hollings knows this--in terms of 
deployment of large-scale X-ray imaging equipment. We've gone 
from--throughout the country, at our ports of entry, from 45 on 
9/11; we now have 145 of the large, whole-container X-ray 
screening equipments at our ports of entry. This includes our 
land borders, as well as our seaports.
    We have deployed, very quickly, radiological and nuclear 
detection equipment. We've acquired and deployed over 9,500 
personal radiation detectors. And, Senator Snowe, you're right, 
every CBP inspector on the front line is equipped with, 
trained, and wears a personal radiation detector device.
    We have deployed 325 radiation isotope identifiers to our 
ports of entry, and trained people to use them. These identify 
the nature of the material that's being--emitting radiation, 
whether it's U-235 or whether it's an innocent source. And 
we've deployed over 248 radiation portal monitors, highly 
sensitive portal monitors, including, by the way, not just at 
the northern border now, but for our first seaport, which is 
the Port of New York/New Jersey, that we deployed. Actually, 
just a couple of days ago I announced that we had deployed, as 
an additional layer, these sophisticated detection devices.
    Let me just conclude, Mr. Chairman, by saying we have made 
some great strides. Clearly, we have a ways to go here, but 
we've made some great strides, and I appreciate the opportunity 
to point out a few of those to this Committee. Pleased to 
answer any questions after my colleague here, Admiral Stone, 
makes his statement.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Commissioner.
    Admiral Stone?

           STATEMENT OF REAR ADMIRAL DAVID M. STONE,

  ACTING ADMINISTRATOR, TRANSPORTATION SECURITY ADMINISTRATION

    Admiral Stone. Well, thank you, Mr. Chairman.
    Mr. Chairman, Senator Hollings, and distinguished Members 
of the Committee, it is an honor to appear on behalf of TSA 
this morning to discuss maritime security. And I sincerely 
apologize for my late arrival.
    As my colleagues have stated, Department of Homeland 
Security agencies are working closely together to maximize 
government resources, ensure consistency among agency 
initiatives and programs, and avoid potential overlap in 
carrying out our maritime security mission.
    The Coast Guard, as the lead Federal agent for maritime 
security, has been tasked with developing the Maritime 
Transportation Security Plan. The Transportation Security 
Administration and U.S. Customs and Border Protection are 
assisting the Coast Guard in the development of this plan, 
which will be a component of the National Transportation 
System, Security Plan, and a subset of the larger National 
Critical Infrastructure Protection Plan.
    TSA has developed a Web-based, no-cost maritime 
vulnerability self-assessment tool that is assisting port, 
vessel, and facility owners in completing vulnerability 
assessments required by the Maritime Transportation Security 
Act. TSA has implemented a synergy project designed to examine 
the feasibility of implementing a cost-effective, functional, 
and secure system to screen and transfer passenger baggage from 
seaport to airport, and reduce congestion at airport security 
checkpoints caused by the influx of large numbers of passengers 
disembarking from cruise ships. We are currently testing this 
program in Miami.
    TSA will soon begin the prototype phase of the 
transportation worker identification credential. The prototype 
will test the feasibility of bringing greater uniformity to 
procedures for granting access to those who work in the most 
sensitive and secure areas of our national transportation 
system.
    TSA personnel are also assisting the Coast Guard in 
developing the policies and procedures that will be used for 
their international port security program, and, to that end, 
have provided the Coast Guard with examples and lessons learned 
from the Foreign Airport Audit Program.
    Key TSA Federal security directors from around the country, 
as well as headquarters, serve on the Coast Guard Area Maritime 
Security Advisory Committees. Working together under the 
leadership of the Border and Transportation Security 
Directorate, we are developing a more comprehensive framework 
for securing the maritime cargo supply chain. This initiative 
will also assist in meeting Maritime Transportation Security 
Act requirements for secure systems of transportation, 
emphasizing the intermodal aspects of maritime cargo 
transportation.
    We are reviewing cargo programs, analytical tools, and 
other relevant resources in order to identify remaining supply 
chain vulnerabilities. The Department expects that the results 
of Operation Safe Commerce will also help shape this framework.
    In closing, I would like to thank you, Mr. Chairman, for 
your strong support, and that of the Committee Members, and I 
look forward to answering your questions.
    [The joint prepared statement of Admiral Collins, Mr. 
Bonner, and Admiral Stone follows:]

Prepared Statement of Admiral Thomas H. Collins, Commandant, U.S. Coast 
 Guard; Robert C. Bonner, Commissioner, Customs and Border Protection, 
 Admiral David M. Stone, Acting Administrator, Transportation Security 
            Administration, Department of Homeland Security
    Good morning, Mr. Chairman and distinguished Members of the 
Committee. It is our pleasure to be here today to update you on the 
Department's efforts to enhance maritime security, the impact of those 
efforts on maritime commerce, and the additional measures that may be 
needed to further enhance maritime transportation security.
    Prior to the attacks of September 11, 2001, the primary focus 
within the maritime domain had been on safety, the environment, and 
vessel traffic management. Most national and international efforts 
revolved around the safe and efficient movement of waterborne commerce 
the interdiction of narcotics and illegal migrant, and trade 
compliance. However, after September 11, 2001, we have acted upon the 
realization that the maritime sector is one of the most valuable and 
vulnerable components of our national transportation system. The 
challenge is significant:

  <bullet> Over 95 percent of overseas trade enters through U.S. 
        seaports;

  <bullet> Our seaports account for 2 billion tons and $800 billion of 
        domestic and international freight each year;

  <bullet> Each year approximately 9 million sea containers enter the 
        U.S. via our seaports;

  <bullet> 26,000 miles of commercially navigable waterways serving 361 
        U.S. ports;

  <bullet> Seaborne shipment of approximately 3.3 billion barrels of 
        oil each year;

  <bullet> 6 million cruise ship passengers travel each year from U.S. 
        ports;

  <bullet> Ferry systems transport 180 million passengers annually;

  <bullet> Waterways support 110,000 commercial fishing vessels, 
        contributing $111 billion to state economies;

  <bullet> 78 million Americans engaged in recreational boating;

  <bullet> Some 8,100 foreign vessels making 50,000 U.S. port calls 
        each year; and

  <bullet> Domestic and international trade is expected to double in 
        next 20 years.

    While this Committee certainly needs no reminder, it is plainly 
evident that a terrorist incident against our marine transportation 
system would have a disastrous impact on global shipping, international 
trade, and the world economy in addition to the strategic military 
value of many ports and waterways.
    The world's oceans are global thoroughfares. A cooperative 
international approach involving partnerships of nations, navies, coast 
guards, law enforcement agencies, and commercial shipping interests is 
essential--with all parties acting collaboratively to confront broadly 
defined threats to our common and interdependent maritime security. The 
Department of Homeland Security (DHS) recently marked its first 
anniversary and we are happy to report that operating with other 
Federal agencies sharing a common DHS mission perspective provides new 
benefits to our Nation's security daily.
    We are committed to working with our partner agencies as one team 
engaged in one fight, and truly believe having one Department 
responsible for homeland security has made America more secure today. 
Events in Haiti over the past several weeks provide a recent example of 
the leaps forward we are taking with regard to interagency cooperation. 
Under the direction of the Secretary of Homeland Security, the Homeland 
Security Task Force Southeast was stood-up as part of OPERATION ABLE 
SENTRY. The Coast Guard (CG) led task force was comprised of many 
agencies chartered to plan, prepare, and conduct migrant interdiction 
operations in the vicinity of Haiti due to the escalation of violence 
in that country and the threat of a mass exodus of undocumented 
migrants. Within the first days of interdiction operations, the task 
force demonstrated impressive agility and synergy:

  <bullet> CG cutters, with Citizenship and Immigration Service (CIS) 
        asylum pre-screening officers and interpreters aboard, 
        interdicted 18 Haitian vessels with 1,076 undocumented 
        migrants;

  <bullet> CG and Immigration and Customs Enforcement (ICE) aircraft 
        patrolled the skies throughout the operating area; and CG, ICE, 
        and Customs and Border Protection (CBP) conducted coordinated 
        patrols off the Florida coast;

  <bullet> CG and ICE conducted a coordinated boarding of a boat 
        suspected of being hijacked off the coast of Miami; and

  <bullet> Federal Emergency Management Agency (FEMA) also deployed 
        three Information and Planning Specialists to the task force in 
        support of contingency planning.

    With our Federal Government's Awareness, Prevention, Protection, 
Response and Recovery capabilities now under one roof, in one 
department, the level of communication and cooperation among the sister 
agencies of CG, TSA, ICE and CBP is stronger than ever. CBP, TSA and CG 
are working together to support efforts to implement the Maritime 
Transportation Security Act (MTSA) through interagency working groups 
addressing cargo security standards, port security assessments, 
international port security and the development of the National 
Maritime Security Plan.
Maritime Strategy for Homeland Security
    Since 9/11, Secretary Ridge and all DHS components have worked hard 
to achieve DHS's strategic goals of Awareness, Prevention, Protection, 
Response and Recovery. These strategy elements guide all that we do and 
likewise represent key pillars of the maritime homeland security 
strategy:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Given its unique blend of authorities, capabilities, competencies 
and partnerships (domestic and international), the CG has been charged 
with taking the lead on the development and implementation of a 
comprehensive Maritime Strategy for Homeland Security. The CG's 
Maritime Strategy for Homeland Security supports both the President's 
National Security Strategy of the United States of America and the 
National Strategy for Homeland Security and is responsive to near-term 
needs while maintaining a strategic outlook on the threats and 
opportunities of the future. The maritime strategy is built upon a 
layered defense; a time-proven means to enhance security in U.S. ports 
and waterways while concurrently facilitating the smooth flow of 
commerce. The collective result of our efforts is aimed at managing and 
reducing maritime security risks.
    DHS is developing a National Transportation System Security Plan 
(NTSSP), designed to provide overall operational planning guidance on 
transportation security. The Transportation Security Administration 
(TSA), working with the Department of Transportation (DOT) and other 
Federal agencies, is coordinating the DRS's efforts on this initiative. 
The goals of the NTSSP are to reduce the risk of terrorism to the 
Nation's critical transportation infrastructure and operations and the 
people who use them. It will ensure that modal security plans are 
integrated into an effective concept of operations for management of 
the transportation sector's security and minimize the catastrophic 
consequences of any successful terrorist act. The NTSSP will be 
consistent with the Information Analysis and Infrastructure Protection 
(IAIP) Directorate's Critical Infrastructure Protection Plan. As the 
lead agency for maritime security, the CG is responsible for developing 
the National Maritime Transportation Security Plan (NMTSP), which will 
harmonize with the NTSSP and critical infrastructure protection plans 
and support our maritime strategy.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Below is an update on the Department's recent accomplishments in 
pursuit of each element of the maritime strategy with a particular 
focus on the joint and individual efforts of the CG, TSA and CBP.
Awareness--Enhance Maritime Domain Awareness (MDA)
    The core of our MDA efforts revolve around the development and 
employment of accurate information, intelligence, and targeting of 
vessels, cargo, crews and passengers--and extending this well beyond 
our traditional maritime boundaries. All DHS components are working 
hard to effectively provide a layered defense through collaborative 
efforts with our international partners to counter and manage security 
risks long before they reach a U.S. port--when effectively deploying 
countermeasures becomes more difficult.
    The goal is to know the difference between friend and foe, so that 
legitimate commerce can move through our coastal and port areas 
unimpeded while we interdict contraband cargo and illegal activities of 
all types at sea before it becomes a threat on our shores. The key to 
achieving this comprehensive domain awareness is our ability as a 
department to obtain, synthesize and analyze the context around the 
movement of goods and people. We are taking an interagency approach, 
leveraging information technology, multiple information sources and 
actively involving of the private sector. Our ability to achieve better 
MDA will allow us to better focus our protection and response efforts 
on those trade transactions, individuals, and activities of interest. A 
synopsis of our collective efforts is provided below:

  <bullet> The CG is leading the interagency and joint Service effort 
        to develop a comprehensive national MDA plan and system 
        architecture.

  <bullet> As directed by MTSA, the CG established an International 
        Port Security Program (IPSP) that is currently working in 
        concert with CBP, TSA and other Federal agencies to identify 
        foreign ports identified by the Secretary as posing a potential 
        security risk to international maritime transportation. TSA and 
        CBP have provided extensive assistance in developing this 
        program by sharing lessons learned and best practices from 
        TSA's Civil Aviation Security Liaison Officer (CASLO) program 
        and CBP's Container Security Initiative. The IPSP will begin 
        visiting selected foreign ports in July 2004 to measure the 
        degree of rigor with which foreign countries are administering 
        the International Maritime Organization's (IMO) International 
        Ship & Port Facility Security Code (ISPS).

  <bullet> The CG is researching technologies and systems that are able 
        to track vessels entering, departing or transiting U.S. waters 
        and track vessels bound for the U.S. from overseas locations. 
        The CG is currently working with IMO to develop functional and 
        technical requirements for long-range tracking out to 2,000 
        nautical miles (approximate distance from shore a vessel owner 
        must transmit their 96-hour notice of arrival, based on typical 
        speed of advance). The U.S. will discuss and attempt to forward 
        an amendment that has been proposed to IMO for this initiative 
        in committee meetings over the next two months.

  <bullet> The CG is establishing a network for receiving and 
        distributing Automatic Identification System (AIS) reports 
        (position, course, speed, cargo, etc.) from ships using 
        existing Vessel Traffic Services in nine of our Nation's ports, 
        waterways, and coastal areas. This initiative will progress to 
        the other strategically significant U.S. seaports, and 
        ultimately extend to nationwide coverage.

  <bullet> The CG Intelligence Coordination Center, co-located with the 
        Office of Naval Intelligence at the National Maritime 
        Intelligence Center in Suitland, Maryland, established 
        COASTWATCH. Through this process, notice of arrival reports 
        from the National Vessel Movement Center are analyzed using law 
        enforcement and intelligence information and vessels of 
        interest are identified so that Coast Guard and other agencies 
        can appropriately respond to board those vessels before they 
        reach port, if necessary. The Coast Guard and CBP have 
        exchanged personnel to enhance data sharing between the CG 
        Intelligence Coordination Center's COASTWATCH (which gathers 
        and analyzes information on ship notice of arrival reports on 
        vessels, people, and certain dangerous cargoes approaching U.S. 
        ports) and CBP's National Targeting Center (cargo tracking) 
        process.

  <bullet> CBP's National Targeting Center (NTC) is a 24x7 operation 
        that supports the enforcement and regulatory missions of 
        various agencies through a network of liaisons, which includes 
        the TSA, CG, Department of Energy, and members of the 
        intelligence community. CBP Officers and Field Analysis 
        Specialists that are experts in passenger and cargo targeting 
        for air, sea. and land operations in the inbound and outbound 
        environments primarily staff NTC. The NTC staff develops 
        tactical targets from raw intelligence in support of the CBP 
        mission to detect and prevent terrorists and terrorist weapons 
        from entering the United States. NTC also supports CBP field 
        elements, including Container Security Initiative personnel 
        stationed in countries throughout the world, with additional 
        research assets for passenger and cargo examinations. NTC 
        personnel are also currently engaged in the support of 
        intradepartmental and interagency anti-terrorist operations, 
        while simultaneously providing support to CBP targeting 
        programs, policies, and initiatives. One example of CBP's 
        commitment to collaborative targeting efforts is the Food and 
        Drug Administration Prior Notice Center located at the NTC and 
        operational since December 11, 2003. There, CBP and Food and 
        Drug Administration personnel conduct joint targeting on a 
        round the clock basis in support of the Bio-Terrorism Act.

  <bullet> CBP is conducting national targeting and using automated 
        targeting tools to screen advance information and other data to 
        identify high-risk shipments. As a key component of the DHS 
        maritime security strategy, CBP's Automated Targeting System 
        (ATS) serves as the premier tool for performing transactional 
        risk assessments and evaluating potential national security 
        risks posed by sea. air, truck, and rail cargo.

  <bullet> CG is using a risk management system to identify High 
        Interest Vessels for follow-up security hoardings and when 
        necessary, due to risk, vessel escorts and positive control 
        hoardings to ensure the safety of vessels during their transit 
        into U.S. ports.

  <bullet> In partnership with the Chief of Naval Operations (CNO), the 
        CG is establishing interagency prototype joint harbor 
        operations centers in select Navy homeports improving both port 
        security and force protection capabilities. Such prototypes 
        have already been completed in San Diego, California and 
        Hampton Roads, Virginia.

  <bullet> TSA will soon begin the prototype phase in developing the 
        Transportation Worker Identification Credential (TWIC), aimed 
        at mitigating the threat of attacks to the national 
        transportation infrastructure. The TWIC prototype and 
        supporting measures will test the feasibility of bringing 
        uniformity and consistency to the process of granting access to 
        transportation workers entrusted to work in the most sensitive 
        and secure areas of our national transportation system. The 
        President's FY 2005 request includes spending authority to 
        begin implementing the TWIC concept within parameters that will 
        be defined by the Administration after completion of the 
        prototype assessment.

  <bullet> Complementing the TWIC, the CG will continue aggressive 
        implementation of a Merchant Mariner Documentation (MMD) Task 
        Force plan, which ensures positive identity of merchant 
        mariners sailing on U.S. flag vessels and performs appropriate 
        security/background screening. In 2004, the CG will provide for 
        additional personnel support at Regional Examination Centers, 
        centralized security screening and electronic fingerprinting 
        capability.

  <bullet> The CG has established additional Maritime Intelligence 
        Fusion Centers on the east and west coasts for both military 
        intelligence and law enforcement sensitive information. In 
        addition, the CG established subordinate Field Intelligence 
        Support Teams (FISTs) in key ports. These teams are actively 
        engaged in Intel collection and first order analysis in 
        coordination with federal, state, and local enforcement and 
        Intel agencies. They are ``joint'' in the broadest sense 
        providing a critical top-down and bottom-up information and 
        intelligence.

    Aside from the important initiatives above, we are seeing 
consistent and steady improvements in our ability to integrate and 
correlate information in the field such that we can effectively 
respond. For example, on March 13, 2004 the Coast Guard Pacific Area 
Maritime Intelligence Fusion Center advised CG Marine Safety Office 
(MSO)/Group Los Angeles/Long Beach that a 728-foot foreign flagged 
motor vessel with a cargo of crude oil was due into Los Angeles but 
failed to properly file an Advance Notice of Arrival. The MSO/Group 
responded and conducted a positive control boarding alongside ICE 
personnel while the vessel was at anchor. The crew was detained onboard 
due to improper visas. While we have much more work to do, our maritime 
domain awareness is improving every day.
Prevention--Create and Oversee Maritime Security Regime
    This element of our strategy focuses on both domestic and 
international efforts and includes initiatives related to MTSA 
implementation, IMO regulations such as the ISPS Code, as well as 
improving supply chain security and identity security processes. Recent 
accomplishments and future plans include:

  <bullet> CBP is expanding the Container Security Initiative (CSI). 
        This is an effort by CBP to secure ocean-borne container 
        traffic by placing CBP officials alongside host government 
        Customs officers to ensure that potentially high-risk shipments 
        are identified and inspected at foreign ports before they are 
        placed on vessels destined for the United States. This program 
        will be expanded to 14 additional foreign ports based on 
        volume, location and strategic concerns, which will bring the 
        total number of operational CSI ports to 31. Once implemented, 
        nearly 80 percent of all cargo containers headed for the United 
        States will be prescreened before they depart from abroad.

  <bullet> In December 2003, DHS promulgated final regulations 
        implementing the Trade Act of 2002, requiring advance, 
        electronic manifest information for all modes of 
        transportation. This information will augment that received and 
        analyzed already at the National Targeting Center.

    <ctr-circle> For vessel operations CBP is receiving complete cargo 
            declaration information for all container vessels and non-
            approved break bulk shipments 24-hours prior to loading the 
            vessel at the foreign port. With the implementation of the 
            Trade Act, CBP now requires this cargo information in an 
            electronic format via the Sea Automated Manifest System 
            (AMS). On March 4, 2004 all container vessels must submit 
            their cargo declaration information to CBP electronically.

    <ctr-circle> The Trade Act also provides for all modes of 
            transportation, inbound and outbound, to require cargo 
            information electronically and in advance of arrival. On 
            May 13, 2004 programming changes will be completed for the 
            Air AMS application and a schedule for training and 
            implementation was published in the Federal Register on 
            March 1, 2004.

    <ctr-circle> The outbound cargo electronic information is awaiting 
            the publication of the Bureau of the Census final 
            regulations before implementation can begin. The 
            regulations are expected to become effective in late 2004 
            or early 2005. For the outbound portion of the Trade Act, a 
            rolling implementation is not being considered. CBP is 
            developing implementation guidelines that are being 
            coordinated with outreach to the trade community.

  <bullet> As a direct and immediate response to the terrorist events 
        of 9/11, CBP challenged the trade community to cooperatively 
        design a new approach to supply chain security that would 
        strengthen U.S. borders against acts of terrorism while 
        continuing to facilitate the legitimate flow of compliant 
        cargo, conveyances and persons. The result was an innovative 
        government/private sector partnership program--the Customs-
        Trade Partnership Against Terrorism (C-TPAT). C-TPAT is a 
        cooperative endeavor covering all sectors of the international 
        supply chain. The program calls upon the trade community to 
        systematically establish procedures to enhance their existing 
        security practices and those of their business partners 
        involved in their supply chains. Currently, over 5,900 members 
        of the international community have demonstrated their 
        commitment to security by partnering with CBP through the C-
        TPAT program.

  <bullet> DHS, DOT and the Department of Justice are working with 
        business interests, the largest U.S. container load centers and 
        the maritime industry to implement Operation Safe Commerce 
        (OSC), an effort to develop and share best practices for the 
        safe and expeditious movement of containerized cargo. The goal 
        of OSC is to serve as a test bed to examine methods to increase 
        end-to-end supply chain security, protect the global supply 
        chain, and facilitate the flow of commerce.

  <bullet> Under a BTS-led effort, TSA along with CBP and the CG are 
        developing a more comprehensive framework for securing the 
        maritime cargo supply chain. This initiative will also assist 
        in meeting MTSA requirements for ``Secure Systems of 
        Transportation (SST),'' by incorporating a systems-based 
        approach to cargo transportation (i.e., point of origin to 
        point of destination). Agencies are reviewing cargo programs, 
        analytic tools, and other relevant resources within the 
        department in order to identify remaining supply chain 
        vulnerabilities. The Department expects that the results of 
        Operation Safe Commerce will also help shape this framework.

  <bullet> Another part of this BTS-lead effort is CBP's recent 
        partnership with five C-TPAT importers to initiative the 
        development of improved security standards and performance 
        criteria for the future maritime container--or ``Smart Box''. 
        The Smart Box being tested through C-TPAT consists of the 
        application and activation of an electronic Container Security 
        Device (CSD), as well as the application of a mechanical seal 
        meeting the ISO 17712 high security bolt seal standards. To 
        date, approximately 215 containers meeting the criteria have 
        been imported into the U.S. from various trade lanes. This 
        first phase of the Smart Box initiative is designed to collect 
        and analyze data relative to the performance of the technology 
        being utilized and to help the Department develop more rigorous 
        container security as part of meeting MTSA ``Secure Systems of 
        Transportation''. Other efforts through TSA, the Science and 
        Technology Directorate and Operation Safe commerce will also 
        inform this process, which will result in the development of 
        specific performance standards for cargo containers.

  <bullet> The CG established Area Maritime Security Committees (AMSC), 
        which assist in the development of Area Maritime Security Plans 
        nationwide, as required by the MTSA. AMSCs will enhance 
        maritime situational awareness and ensure integrated maritime 
        prevention and response operations among the entire maritime 
        community. CBP and TSA have designated representatives assigned 
        to the Area Maritime Security Committees to assist CG Captains 
        of the Port in addressing cargo security issues.

  <bullet> The CG has completed Port Security Assessments (PSA) at 16 
        of the 55 most significant military and economic ports in the 
        U.S. and will complete the assessments of all 55 strategic 
        ports by the end of calendar year 2004.

  <bullet> Final CG MTSA implementation Rules, drafted in cooperation 
        with TSA, CBP and the Maritime Administration (MARAD), were 
        published in October 2003 and security plans from approximately 
        9,500 vessels and 3,500 facilities were due on December 31, 
        2003. To date, approximately 97 percent have been received. The 
        CG will continue to aggressively pursue 100 percent compliance, 
        and has instituted a phased implementation of penalties to 
        ensure that all regulated facilities have implemented approved 
        security plans by the July 1, 2004 deadline.

  <bullet> The Coast Guard is actively involved with MARAD in the 
        development of maritime security competency standards and 
        security training curricula under Section 109 of MTSA.

  <bullet> The CG has met with nearly 60 countries representing the 
        vast majority of all shippers to the U.S., reinforcing a 
        commitment to the ISPS code. For vessels subject to MTSA, the 
        Safety of Life at Sea (SOLAS) amendments and the ISPS Code, the 
        CG is implementing strong Port State Control measures to 
        aggressively ensure foreign vessels have approved plans and 
        have implemented adequate security standards. The measures 
        include tracking performance of all owners, operators, flag 
        administrations, recognized security organizations, charterers, 
        and port facilities. Noncompliance will subject the vessel to a 
        range of control measures, which could include denial of entry 
        into port or significant delay. This aggressive Port State 
        Control regime will be coupled with the CG's inter-agency IPSP, 
        comprised of representatives from the Department of State, 
        Department of Defense, CBP, TSA, and MARAD, that will assess 
        both the effectiveness of anti-terrorism measures in foreign 
        ports and the foreign flag administration's implementation of 
        the SOLAS amendments and the ISPS Code.
Protection--Increase Operational Presence/Enhance Deterrence
    Our collective efforts to increase operational presence in ports 
and coastal zones will continue to build upon the layered security 
posture established by the maritime security strategy. These efforts 
focus not only on adding more people, boats and ships to force 
structures but making the employment of those resources more effective 
through the application of technology, information sharing and 
intelligence support. Recent accomplishments and future plans include:

  <bullet> CG's Deepwater Program: A multi-year, performance-based 
        acquisition that will replace or modernize 90 Coast Guard 
        cutters, 200 fixed wing aircraft and multi-mission helicopters 
        and the communications equipment, sensors, and logistics 
        systems required to maintain and operate them. Deepwater will 
        greatly improve the Coast Guard's maritime presence starting at 
        America's ports, waterways, and coasts and extending seaward to 
        wherever the Coast Guard needs to be present or to take 
        appropriate maritime action. Deepwater provides the capability 
        to identify, interdict, board, and where warranted seize 
        vessels or people engaged in illegal/terrorist activity at sea 
        or on the ports, waterways, or coast of America. In FY04, the 
        Deepwater Program:

    <ctr-circle> Commences urgent re-engining of Coast Guard's fleet of 
            short-range helicopters to ensure safe and reliable 
            operations;

    <ctr-circle> Accelerates the development of the Fast Response 
            Cutter;

    <ctr-circle> Begins construction of the first National Security 
            Cutter (frigate-size vessel about 425 feet long);

    <ctr-circle> Acquires an additional Maritime Patrol Aircraft (MPA);

    <ctr-circle> Completes design and shipboard integration of Vertical 
            Unmanned Aerial Vehicles (VUAV);

    <ctr-circle> Commences conceptual development of the Offshore 
            Patrol Cutter; and Delivers 4 Short Range Prosecutors 
            (cutter small boats) for use on the 123' Patrol Boat.

  <bullet> CBP is employing Non-Intrusive Inspection (NII) technology 
        to screen shipments rapidly for anomalies. Deploying NII 
        technology to our land borders and seaports has increased CBP's 
        ability to detect conventional explosives, nuclear, weapons, 
        and other terrorist weapons. N1I equipment includes large scale 
        X-ray or gamma-ray imaging systems, portal radiation monitors, 
        and a mixture of portable and handheld technologies to include 
        personal radiation detection devices that greatly reduce the 
        need for costly, time-consuming physical inspection of 
        containers and vehicles.

  <bullet> DHS's priority undertaking is preventing weapons of mass 
        destruction from entering this country. The DHS goal is to 
        screen 100 percent of all arriving containers, trucks, trains, 
        cars, mailbags and express consignment packages with radiation 
        detection equipment. To achieve this goal, CBP has developed a 
        comprehensive risk management strategy for the deployment of 
        radiation portal monitors (RPM) throughout the country.

  <bullet> As of March 16, 2004, two hundred forty-seven RPMs have been 
        deployed. The vast majority of the deployed RPMs are at 
        International Mail Branches, Express Consignment Courier 
        facilities and along major Northern Border ports of entry. 
        Presently, CBP has begun deployment to our seaports. CBP has 
        also deployed a large number of handheld radiation detection 
        technologies. Currently, CBP has 321 radiation isotope 
        identifier devices and over 9,418 personal radiation detectors 
        to the field.

  <bullet> Prior to the attacks of 9/11, the CG had committed less than 
        2 percent of its assets to active port security duty. 
        Immediately after 9/11, the CG surged nearly 60 percent of its 
        assets in immediate support of port security. Since then, the 
        CG has rebalanced asset deployments to provide roughly 28 
        percent of its assets in coverage of port security--a 
        significant and steady increase in operational presence.

  <bullet> CG Maritime Safety & Security Teams (MSSTs) provide 
        immediately deployable multiple boat, law enforcement 
        capability that can be sustained over an extended period. Teams 
        are equipped to deploy (via land or air) to any location within 
        12 hours of notification. To date, eight of thirteen MSSTs have 
        been commissioned and the remainder will be operational by the 
        end of CY 2004.

  <bullet> CG is equipping helicopters with Airborne Use of Force (AUF) 
        and Vertical Insertion (VI) capability. This will enhance the 
        Coast Guard's ability to secure our oceans, ports, waterways, 
        and coastal areas against illegal drug, migrant, and terrorist 
        activity by providing capability to fire warning shots and 
        disabling fire and rapidly/covertly deploying boarding teams 
        aboard vessels at sea. The Coast Guard currently has 8-armed 
        MH-68 helicopters operating out of Jacksonville, FL and will 
        equip four HH-60J armed helicopters by April 2004.

  <bullet> TSA in coordination with the CG is working with cruise line 
        operators to identify technology solutions for screening 
        passengers and their belongings for potential threats. TSA is 
        also developing methods for inspecting passengers and vehicles 
        utilizing established ferry transportation systems. Detection 
        technologies and methods must be able to find threats without 
        unduly impacting the flow of passengers and/or vehicles.

  <bullet> TSA has implemented a Synergy Project designed to create a 
        cost effective, functional, and secure system to screen and 
        transfer passenger baggage from a seaport to an airport, 
        thereby reducing the congestion at airport security checkpoints 
        caused by the influx of large numbers of passengers 
        disembarking from cruise ships. This program is currently 
        underway at the Ports of Miami and Vancouver.

  <bullet> Responding to threat assessments in and in support of the 
        Maritime Homeland Security Strategy, CG Stations Boston and 
        Washington, D.C. were created in Fiscal Year 2004.
Response and Recovery--Improve Response and Recovery Posture
    Understanding the challenge of defending 26,000 miles of navigable 
waterways and 361 ports against every conceivable threat at every 
possible time, we are also aggressively working to improve our response 
capabilities and readiness. While the above increases in operational 
presence necessarily augment our collective response posture, 
additional accomplishments and future plans include:

  <bullet> The Secretary announced on March 1, 2004 the approval of the 
        National Incident Management System (NIMS). It is the Nation's 
        first standardized management approach that will provide a 
        consistent nationwide template to enable federal, state, local, 
        and tribal governments as well as private sector organizations 
        to work together effectively to prepare for, prevent, respond 
        to, and recover from a terrorist attack or other major 
        disaster. NIMS will ensure that all of our Nation's responders 
        are working in support of ``one plan, one team, one fight.'' 
        For the first time, there will be standardized procedures for 
        responding to emergencies across the Nation. A NIMS Integration 
        Center will also be established to identify and share best 
        practices on preparedness with state and local authorities, 
        provide consistent training to first responders across the 
        country, and conduct exercises involving many different 
        localities.

  <bullet> Continue deployment of Rescue 21--the CG's maritime 911 
        command, control and communications system in our ports, 
        waterways, and coastal areas. Nationwide implementation 
        continues during 2004. This system provides Federal, state and 
        local first responders with interoperable maritime 
        communications capability, greater area coverage, enhanced 
        system reliability, voice recorder replay functionality, and 
        direction finding capability. Rescue 21 represents a quantum 
        leap forward communications technology.

  <bullet> TSA is coordinating with CG, CBP, MARAD and other DOT modal 
        administrations on setting national standards and policies for 
        transportation security and is working with these agencies and 
        the Office of Domestic Preparedness to coordinate the recovery 
        of the transportation system in the event of a transportation 
        security incident. For example, TSA is working with MARAD to 
        study the impacts and lessons learned from the recent four-day 
        closing of the Mississippi River caused when a barge sank from 
        hitting the Greenville Bridge linking Mississippi and Arkansas.

  <bullet> DHS agencies routinely lead or participate in national 
        intermodal terrorism exercises, such as Operation Heartland, 
        United Defense and TOPOFF2, designed to enhance our ability to 
        prevent, mitigate, and respond to potential transportation 
        security incidents.

    DHS's response and recovery organization will be tested and further 
strengthened at the upcoming ``California Spill of National 
Significance 2004'' exercise (CAL SONS 04), scheduled for April 20-24. 
CAL SONS 04 is a CG-sponsored full-scale national exercise that will 
pose two major marine incidents off the coast of Southern California 
and require a coordinated response by local, State and Federal 
agencies, the government of Mexico, industry partners and volunteer 
organizations. CAL SONS 04 will be guided by the Initial National 
Response Plan and National Oil and Hazardous Substance Pollution 
Contingency Plan and will involve the broad range of response and 
recovery functions, including rescue, mobilization of people and 
resources, multi., level incident management, tactical operations and 
testing of industry and agency contingency plans. The CG's National 
Strike Teams, which have been trained for Chemical, Biological and 
Radiological responses and were .instrumental in the response and 
recovery operations at the recent Ricin incident in the Senate Office 
Building, will also be deployed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In summary, DHS is taking a comprehensive approach to the needs of 
maritime security. It cannot start and end at our maritime borders. 
Rather, it will take an integrated and coordinated approach that 
stretches from ports such as Miami and Los Angeles to Singapore and 
Rotterdam.
Service to the Public--Effect on Commerce
    fu addition to Awareness, Prevention, Protection, Response and 
Recovery a sixth strategic goal of the Department of Homeland Security 
is Service. In this, we will strive to serve the public effectively by 
facilitating lawful trade, travel and immigration.
    The Department is sensitive to the impact that increased security 
may have on commerce. The wide variety of security measures implemented 
to date has had no significant adverse impacts on the flow of maritime 
commerce. That said, we note that the cost to industry to comply with 
MTSA regulations is estimated to be $1.5 billion in the first year and 
$7.3 billion over the next 10 years. While we clearly understand that 
the cost of these security regulations to the maritime industry is not 
insignificant, a terrorist incident against our marine transportation 
system would have a devastating and long-lasting impact on global 
shipping, international trade, and the world economy. Based on a recent 
unscheduled port security closure incident, a maritime terrorist act 
was estimated to cost up to $2 billion per day in economic loss to the 
United States.
    The Department understands there will be short-term costs, 
particularly for many smaller ports or companies with less existing 
security. Nonetheless, as the industry owns the infrastructure that is 
being protected, and benefits from that ownership, they should rightly 
be involved in protecting their infrastructure. We are engaged with the 
maritime industry to provide information on any available Federal 
funding. Thus far, the Department has awarded or made available a total 
of nearly $500 million in port security grants over two years. There is 
also a shared cost burden by the government. The Department of Homeland 
Security, and its associated agencies, has spent hundreds of millions 
of dollars to improve our capability to protect the Marine 
Transportation System. However, the cost of securing America cannot be 
left exclusively to the American taxpayer.
    In addition, we are continuously seeking out technology and 
procedural changes that will make our efforts not only more effective 
and efficient but also less onerous on the vast majority of maritime 
stakeholders who pose no threat to maritime security. As an example, 
the CG is incorporating an option in the 96-hour vessel notice of 
arrival (NOA) requirements to permit electronic submission of 
information. This e-NOA submission method will allow for importation of 
data into the CG's National Vessel Movement Center (NVMC) database, the 
Ship Arrival Notification System (SANS), eliminating all but minimal 
manual data entry. This will significantly enhance the processing and 
identification of security and safety risks posed by vessels entering 
our ports and move information to the field much more rapidly. By 
merging CBP and CG vessel and people information requirements into the 
e-NOA, the reporting burden on the maritime industry will be reduced. 
When the e-NOA system is fully developed, vessel owners and operators 
will have the option to use the e-NOA to satisfy CBP's Advance 
Passenger Information Service (APIS) requirements as well as the CG's 
NOA requirements.
    The security requirements of the MTSA were developed with the full 
cooperation of the private sector. We have developed the security 
regulations to be performance-based, providing the majority of owners 
and operators with the flexibility to implement the most cost-effective 
operational controls, rather than more costly physical improvement 
alternatives. By establishing consistent national and international 
security requirements we will also be helping businesses by leveling 
the playing field. Consistency helps business--consistency amongst 
companies, states and countries. The Department will be vigilant in its 
Maritime Homeland Security mission and will remain sensitive to the 
impact of security measures on maritime commerce.
Conclusion
    Our maritime security is first and foremost about awareness--
gathering and synthesizing large amounts of information and specific 
data from many disparate sources to gain knowledge of the entire 
domain. Maritime Domain Awareness and the knowledge it imparts will 
allow maritime law enforcement and regulatory agencies to respond with 
measured and appropriate action to meet any threat. However, it will 
require the continued growth and development of strong partnerships not 
the least of which is among the CG, TSA, ICE and CBP, state and local 
agencies and our collective maritime stakeholders. No single maritime 
stakeholder whether it is government, industry, or private sector can 
do this alone. We must continue to work together to improve security. 
Tills is never more important than now in our collective national 
imperative to defend our Nation and win the war against terrorism.
    The men and women of DHS have accomplished a great deal in the past 
year and we are each very proud of them. In the end, no amount of 
planning or strategizing is worth the paper it is written on without 
the dedicated effort of committed men and women who wake up every day 
with the safety and security of their nation on their minds. Thank you 
for the opportunity to testify before you today. We will be happy to 
answer any questions you may have.

    The Chairman. Thank you very much.
    Admiral Collins or members of the panel, has a 
vulnerability assessment of our Nation's maritime 
transportation system been completed?
    Admiral Collins. The Port Security Assessment Initiative, 
Mr. Chairman, is underway. We've completed it in over 16 of our 
55 major ports. There's three more that have just been started 
in the last month. And as we briefed in previous hearings and 
reports to both the House and Senate, we're on schedule to 
complete those by the end of this calendar year. That was the 
original timeline. We're still on that timeline to do those 
vulnerability assessments. And they become very, very important 
to the area maritime security committees in over 40 
jurisdictions around the country as we build and refine our 
port--overarching port security plans, Mr. Chairman.
    The Chairman. Admiral, I know you're aware that the 
responsibility for oversight of maritime security grants has 
been transferred to the Grants Policy and Oversight Office, an 
office that I understand, for the last year, has been staffed 
by one full-time employee. Is that sufficient attention to this 
issue?
    Admiral Collins. Mr. Chairman, I don't know the staffing 
profile of that particular office. I know the intent here in 
the consolidation is to get some efficiency focus to facilitate 
the application of grants, sort of a one-stop shopping for 
states and localities. They can go to the Department--exactly 
how--I don't--I don't have the staffing profile, and we can 
provide that for the record.
    The Chairman. Well, check into it. If it's true, you've not 
only got one stop, you've got one person.
    [Laughter.]
    The Chairman. Do you have adequate funding, Admiral, to 
meet the requirements being placed on the Coast Guard?
    Admiral Collins. One of the--Mr. Chairman, obviously one of 
the big funding line items in our 2005 budget is over a hundred 
million dollars and over 700 people to implement the terms and 
conditions of the Maritime Transportation Security Act in the 
regulation that we promulgated last October. It's the first 
opportunity we've had to go on budget for this initiative. That 
will, in fact, give us the wherewithal to implement this 
particular regulation, to oversee it, to ensure compliance, to 
review the plans, to oversee the exercises, and all those types 
of things.
    The Chairman. Admiral, this is a very tough question. And I 
understand that you may not--you may have difficulty answering 
it, and I appreciate that, because it's very difficult. But do 
you have adequate funding to meet the requirements that are 
being placed on the Coast Guard?
    Admiral Collins. Yes, sir. I think the--yes, sir, we're 
pleased with the support----
    The Chairman. Admiral Breaux says no.
    Admiral Collins. We have, of course, our 2005 budget is a 9 
percent increase, a pretty substantial increase in these--in 
this particular budget times. We're appreciative of the support 
that we've received within the Administration for that. Over 
the last 3 years, our operating expense budget, between 2002/
2003 and 2004/2005 has gone up 51 percent. That's a substantial 
increase by--in anyone's estimation. So we're very, very 
pleased that we've been able to increase our force structure 
accordingly. And we're making progress, Mr. Chairman. It's the 
right direction.
    The Chairman. It's a very excellent political answer, 
Admiral. And I understand the difficulty associated with the 
answer. We'd like to hear more about specific needs and 
specific requirements.
    You and your staff are to be commended for spearheading the 
U.S. effort to establish international standards for maritime 
security and the international ship and port facility security 
code. We know all about that. But tell me, what happens to 
ships that are calling on the United States who have failed to 
meet those requirements on July 1?
    Admiral Collins. There is a number of intervention 
strategies that are possible, that go all the way from denial 
of entry to additional inspection requirements and delayed 
departure and a whole host of things. We, in fact, have a 
matrix developed of all those intervention strategies under our 
Port State Control hat is the term of art that we----
    The Chairman. You would anticipate that there may be ships 
which have not met the criterion?
    Admiral Collins. The way that we're going to deal with 
that, Mr. Chairman, is that, of course, every--under the terms 
of the ISPS code that 108 nations have signed up for, is that 
each flag state will issue security certificates to their 
vessels that certify, from the flag-state perspective, that 
they, in fact, compliance with the standards in this new 
international code. We will--our plans are--and effective 1 
July--we're already doing interim inspections now--but 1 July, 
every foreign vessel coming to the United States will be--would 
be boarded, will be inspected to ensure compliance with 
international standards, 100 percent. And then we'll do that at 
least on a annual basis; and, in the interim, we'll do a 20 
percent--review 20 percent of that population through the 
course of the year. So we're going to do a very, very 
aggressive Port State Control examination process to certify 
that they're meeting those standards, and we have, 
incidentally, developed fairly rigorous training programs for 
our inspectors, both for facility inspection, vessel 
inspection, and port inspection functions.
    The Chairman. Gentlemen, we need more memorandums of 
agreement between your agencies, and I hope that you will make 
progress in that area.
    Senator Hollings?
    Senator Hollings. Thank you very much, Mr. Chairman.
    Admiral Collins, let get back to this chart here. Do you 
mind taking that down so we can see it?
    Now, looking right at the chart you have submitted to the 
Committee, reduce maritime security risks, this is the 
responsibility of the Coast Guard, right?
    Admiral Collins. Yes, sir.
    Senator Hollings. And if something wrong happened at a 
particular port such as a terrorist activity, the first person 
to be looked upon for either blame or commendation, depending 
on what happened, would be the captain of the port----
    Admiral collins. That's----
    Senator Hollings.--right?
    Admiral Collins.--that's the Federal Maritime Security 
Coordinator, as defined in the----
    Senator Hollings. Well, the captain of the port, under law, 
is responsible. Now, these young officers are out there, and I 
see them, and I talk to them, and everything else, and I'm 
concerned about whether or not they are getting enough support 
from you?
    Now, go to the first section, put a dollar mark by that. 
It's entitled ``Enhanced Maritime Domain Awareness.'' How many 
billions of dollars is that?
    Admiral Collins. They--we are--it depends which one item 
you're talking about, of course----
    Senator Hollings. I'm talking about the first red section, 
``Enhanced Maritime Domain Awareness.''
    Admiral Collins. That is--I can give you a breakdown of the 
money spent over the last----
    Senator Hollings. Well, just generally speaking, a ballpark 
figure.
    Admiral Collins. Well, there's the $24 million, of course, 
that was appropriated last year for----
    Senator Hollings. You can perform all of that for $24 
million?
    Admiral Collins. No, that's for one element of that, 
Senator. That's for the----
    Senator Hollings. Yes, give me----
    Admiral Collins.--start of the--the start of the------
    Senator Hollings: Well, you see what I'm getting at. I want 
to put a dollar mark on each of the four. Now, under the first 
of the four, what dollar mark would you put?
    Admiral Collins. I'll be glad to break that down and 
provide that for the record, Senator. There has been a 
considerable amount of money spent out of our base and out of--
--
    Senator Hollings. And generally speaking----
    Admiral Collins.--appropriations.
    Senator Hollings.--your needs, you know what you need. You 
couldn't remember, perhaps, the exact figure, but you have a 
ballpark figure in mind. How much for the first?
    Admiral Collins. There are a number of--both capital funds 
and operating-expense funds, and I would be--I would have to 
tabulate that for you, Senator. I don't have the number off the 
top of my head.
    Senator Hollings. And what about the second? You don't have 
a number for the second?----
    Admiral Collins. I--well, I----
    Senator Hollings.--``Build and Administer Domestic and 
International Security Regime.''
    Admiral Collins. The MTSA implementation, in terms of the 
budget request in 2005, it's $100 million issue, and that's in 
our 2005 budget.
    Senator Hollings. And so 100 million would take care of 
number 2.
    Admiral Collins. Not the entire--that it'll take care of 
the oversight in the compliance of the--in the terms and 
conditions of MTSA.
    Senator Hollings. Well, number 2--I'm just looking at your 
chart--is--$100 million your figure on that one?
    Admiral Collins. It is--$100 million, Senator, is----
    Senator Hollings. You know, I'm always askance at all this 
chart nonsense. Man, I've been through it. I've got 38 years of 
charts.
    [Laughter.]
    Senator Hollings. Now, give me the money. I'm trying to get 
down--it's a very simple question. The distinguished Chairman 
was more than polite in asking, and you've got no idea about 1, 
2, 3, or 4, do you? Do you have an amount to give to the 
Committee?
    Admiral Collins. I'd be glad to provide that to the 
Committee.
    Senator Hollings. For each one of those----
    Admiral Collins. Absolutely. Yes, sir.
    Senator Hollings. And when you provide all of that, did you 
ask for that, of the Administration?
    Admiral Collins. There is a good portion of these 
elements----
    Senator Hollings. No, don't give me ``a good portion.'' Did 
you request that amount? These are simple questions and simple 
answers.
    Admiral Collins. The--we requested the money, for example, 
for the MTSA----
    Senator Hollings. No, no. Did you request the money for the 
entirety of this?
    Admiral Collins. They're all--these are----
    Senator Hollings. For one year. You can't do it all in a 
year. I mean, I'm trying to be----
    Admiral Collins. The port---the port-----
    Senator Hollings.--reasonable and practical, just like you.
    Admiral Collins. The portion that we can build out and 
schedule in 2005 is included in our budget, yes, sir.
    Senator Hollings. Well, for how much?
    Admiral Collins. Our overall home security portion of our 
budget is about 48 percent of our old entire base. And, again, 
I--I'll be glad to detail these, itemize these initiatives, and 
also show you the money that has been spent over the last 2 
years----
    Senator Hollings. Yes, but I'm trying to get the 
authorization. This is an authorizing Committee, and we're at 
fault if we don't get you the authorization for the funds 
needed. All I can get out of you this morning, is charts and 
conversation, I would like an amount. I want to know how much--
I know the $7.4 billion, because you've given me that amount--
--
    Admiral Collins. Sir, the----
    Senator Hollings.--your predecessor, incidentally, Admiral 
Loy.
    Admiral Collins. The $7.4 billion is the impact on the 
private sector of the MTSA regulation.
    Senator Hollings. Yes.
    Admiral Collins. In other words, it's--that is not 
necessarily special program----
    Senator Hollings. I'm still getting conversation. Do you 
have any amounts in mind?
    Admiral Collins. Yes, sir, and I'll be glad to provide that 
detail for the record.
    Senator Hollings. All right, sir. They are--because we know 
that--you know--you have $43 million. And if you have $86 
million, that would be 100 percent increase. I mean, come on. 
The percentages mean nothing to this Committee. We've got to 
get going and get this job done.
    With respect to the language, now, with--you say ``one 
roof'' and ``layered'' and ``fused'' and ``comprehensive'' and 
all. Where's the place to go for intelligence on port security? 
Is it your office or--where is that office? I know that Customs 
has an intelligence endeavor. The Coast Guard's an intelligence 
endeavor. The homeland security crowd has its intelligence--the 
FBI--the FAA--everyone has intelligence--where is the office, 
the one-stop shopping for intelligence on port threats?
    Admiral Collins. For our Department, it's the Under 
Secretary at IAIP, sir, that is the node--Information Analysis 
and Infrastructure Protection--which is the informational node 
for our entire Department for not only maritime security, but 
the security across the board. We plug into that information 
intelligence fusion node, as does other elements in the 
Department. Our particular part of the equation, we have a 
maritime--National Maritime Intelligence Center that's co-
located with Office of Naval Intelligence, in Suitland, 
Maryland, that oversees the screening, and so forth, arrivals 
of ships coming inbound to the United States, vet that 
information through multiple national data bases in a 
coordinated way through FBI, CIA, and other national data 
bases, and with the targeting center at Customs, sharing that 
information collaboratively, and coming with the joint risk 
assessment on how to approach inbound ships, containers, and so 
forth, into our country.
    Senator Hollings. If you'd indulge me one more question----
    The Chairman. I'd be pleased to indulge you.
    Senator Hollings. LNG containers. You know, right after 9/
11, we were very disturbed by liquified natural gas. In fact, 
General Dynamics manufactures the containers in Charleston. And 
one ship contains enough liquified natural gas from Algeria to 
power 30,000 homes for one year. If they could ignite it, they 
said, it would be just like an atom bomb in the Port of Boston. 
I take it you're not going to allow one of those during our 
convention.
    Admiral Collins. No, sir, and I--there's a--also, just a 
comment, there's a--in terms of the technology in the--what 
happened----
    Senator Hollings. Where are they coming in now? Do you----
    Admiral Collins. Sir, they're coming in from multiple 
places. They're--ones going into Boston are from Trinidad and 
Tobago.
    Senator Hollings. So they are coming in from--coming into 
Boston now.
    Admiral Collins. Yes, sir. And they're coming into Trinidad 
and Tobago. That's a loop from Trinidad and Tobago into Boston. 
We have a very, very strong oversight--security oversight 
program for that transit, including--we have been down in 
Trinidad and Tobago, we've inspected their facility down there 
from security, we've coordinated with the companies involved, 
we board every ship offshore, we provide escorts, we provide 
sea marshals on those vessels, layered defense, even air 
coverage all the way in and out of Boston. So I think we have 
been very, very detailed, very, very rigorous in dealing with 
that risk. And, of course, LNG comes into other parts of our 
country, as well--into the Chesapeake Bay, into Port Arthur. 
There is multiple applications in for LNG deepwater ports. And 
so----
    Senator Hollings. Thank you, Mr. Chairman.
    The Chairman. Senator Snowe?
    Senator Snowe. Thank you.
    Admiral Collins, I wanted to go back to the Deepwater 
Program, because I do think it's essential to the Coast Guard 
major responsibility, in this instance, in enhancing port 
security and bolstering the maritime domain awareness. And I'm 
very concerned about the timelines that have been proposed and 
that we're adhering to, much to my objections, frankly.
    As I said earlier, I did include, in the Homeland Security 
Act, a study that indicated that we could save more than $4 
billion over the life of the program if we accelerated it by 10 
years, and that's not even including the under-estimation, in 
my opinion--and I think I'm on track in saying this--of 
maintaining the current assets, whether it's, you know, the 
aircraft or the vessels, because, as I understand, they're 
deteriorating even more rapidly--the costs are greater to 
sustain their readiness--and also the mandates under the law 
for enforcing maritime security.
    So my first question is, Why aren't we pursuing a different 
timeline? Are you going to be able to perform your 
responsibilities with the existing assets?
    Admiral Collins. Well----
    Senator Snowe. It deeply troubles me, as you know. And I--
you know, I'm going to just keep insisting on this----
    Admiral Collins. I share your--excuse me.
    Senator Snowe. Go ahead.
    Admiral Collins. I share your concern, Senator. The current 
readiness status of our fleet, both air and surface, is my 
number-one concern, as the head of the Coast Guard. We are--we 
have a rapidly deteriorating readiness position because of the 
aging--some of our ships are eligible for social security, 
literally. They're older ships, and we're using them hard, in 
the national interest. So they are deteriorating in front of 
our eyes. And the conundrum that I'm faced with is that 
Deepwater has two basic pots of money in it. One is to maintain 
and enhance the capabilities of the legacy systems, or the 
existing system; one is to buy the replacement. But I'm 
stealing from the replacement money to keep the Band-aids on 
the--and so----
    Senator Snowe. Yes.
    Admiral Collins.--it's a problem.
    Senator Snowe. Well, that's a serious situation, then. I 
mean, the bottom line is, Can you perform your mandate 
regarding homeland security missions with your current assets, 
either now or into the future?
    Admiral Collins. I think----
    Senator Snowe. I mean, let's look into the next 5 years.
    Admiral Collins. I don't think so. I think the timeline has 
to be addressed, and I think the 2005 budget--appreciative of 
the Administration's support that we've got in the 2005 
budget--it increases that plus-up that we received in 2004, 
with the help of this Committee and others, that have acted to 
plus-up almost $200 million for Deepwater, and so it 
accommodates that, plus a modest increase. So it is showing a 
commitment to this requirement.
    I think that, over the multi-year basis, we're going to 
have to rethink this timeline because of the--two things--
because of the readiness condition, the material condition of 
the fleet, and, second, the Nation needs this capability now--
that this brings a network-centric system to the maritime for 
this layered defense posture.
    Just a couple of statistics on the material condition of 
our fleet. I had 670--over 670 unscheduled maintenance days for 
my major cutters. That's four of my major cutters, in a fleet 
of 12, that I was not able to lose--use last year because of 
unscheduled maintenance. That reflects their age and failing 
systems. Our 110-foot patrol boat is the workhorse of our 
fleet--does all our coastal search and rescue, our law 
enforcement, our interdiction of migrants, and so forth--
suffered 20 hull breaches--yes, that's water coming into the 
hull--and required emergency dry-docking. Why? They're beyond 
their planned service life. The current schedule in Deepwater 
for the replacement of that asset is not until 2018. I can't 
wait to 2018 to replace this asset.
    Some are graphic examples of the current readiness posture, 
and why, looking at that multi-year plan and restructuring that 
multi-year plan is very, very important.
    Senator Snowe. Well, it sounds like we have to do this on 
an emergency basis, because it's going to take some time, 
obviously, just to replace the existing assets. I mean, this it 
not something that's going to happen overnight. But that's a 
dramatic situation that we're talking about, and it is going to 
encumber your ability to do what you need to do to protect, you 
know, our maritime domain awareness and pushing this threat out 
to sea----
    Admiral Collins. Sure.
    Senator Snowe.--so that it doesn't reach our ports.
    Well, does everybody understand that?
    Admiral Collins. I mean, it all comes down to budget 
priorities and----
    Senator Snowe. Wow, it's----
    Admiral Collins.--and so forth.
    Senator Snowe. I think this is a----
    Admiral Collins. As we know----
    Senator Snowe.--major priority.
    Admiral Collins. I am an advocate for a strong support of 
the integrated deepwater system.
    Senator Snowe. Well, I think that, obviously, we do have a 
urgent situation on our hands, you know, and it basically is 
undercutting your ability to do what you need to do, and I 
think that needs to be on the record. I think it has to be 
underscored, it has to be reinforced--we'll get everything on 
the table here--that these investments need to be made. And I 
think it's just--you know, your comments here this morning is 
illustrative of what we're facing. I mean, we can continue to 
ask you to do everything you need to do, but if you can't do 
it, you simply can't do it. Six hundred and seventy days? I 
mean, I hesitate to think about how much the costs are involved 
that takes away from the future modernization program. Do you 
have any estimate, currently?
    Admiral Collins. Based on the current condition and the 
couple of data points that we have, that we could be, over the 
next 10 years, spending between 500 million to a billion 
dollars more on maintenance for our ships because of their 
current state. And, again, every dollar we spend is a dollar 
away from the modernization part.
    So it's sort of this downward spiral phenomenon you get 
yourself into, and I--you know, if you talk to other service 
chiefs, whether it's the Navy, the Army--they're very familiar 
with this issue of current readiness and condition of the 
current assets, versus modernization and how to balance--do a 
balancing act on that, maintain the current operational 
capability and then get ahead with modernization.
    But we're--I think we're reaching a critical stage. Again, 
we have some very, very old assets. If you compare our fleet 
with major navy fleets of the world, we are right down at the 
bottom, in terms of the oldest fleets in the world. And so this 
is a--I do have--again, I do have the sense of urgency, because 
I feel that it's my responsibility to ensure that our men and 
women, who we put in harm's way every day, need to have the 
best equipment possible. And to do so, I would be irresponsible 
not to take any other position.
    Senator Snowe. I appreciate that, Admiral Collins.
    Thank you.
    The Chairman. Senator Breaux?
    Senator Breaux. Thank you, Mr. Chairman.
    I'm sure Mr. Bonner and Mr. Stone are feeling neglected up 
there at the witness table, and just wished they were engaging 
in these questions that Admiral Collins is bearing the brunt 
of.
    The thing--now, the chart's gone, but, I mean, on that 
reduced maritime security risk, I mean, I'm sort of like 
Senator Hollings, I'd--you know, the charts are great, and 
they're pretty, and they're multicolored now, and how we have 
them under the computer systems we get, but what is really 
lacking on all of this is--there are two things, at least. 
Senator Hollings pointed out that it's lacking about how much 
it's going to cost and where the money's going to come from. 
The second thing that I think is really missing is, What date 
goes right after each one of those? I mean, you know, it's a 
wonderful chart, but if the date is 2020 or 2030 or 2040, it 
doesn't give anybody much comfort. If it's within this year or 
next year or the next Fiscal Year, that's one thing.
    Which leads me to the point of the questions I want to ask 
about the situation in the Port of New Orleans. And the Port 
Director, Gary LaGrange will be with us. But with regard to the 
automatic identification system, the requirement is that all 
the ships have the AIS equipment onboard so they can transpond 
to a central terminal to locate where all ships are at all 
times. That system is not in place in New Orleans, is it?
    Admiral Collins. It's not finalized. It will--all our nine 
VTSs will be fully equipped and up and running by the end of 
this calendar year.
    Senator Breaux. Was the system in place the night and the 
morning of the ship crash that occurred in the mouth of the 
Mississippi River?
    Admiral Collins. I don't believe the AIS--I'd have to get 
back to you. That's----
    Senator Breaux. The answer is, it was not. The AIS system 
was not operating. And the purpose of that system, obviously, 
is to track ships because of potential terrorist activity 
onboard one of these vessels, or because--also just monitoring 
the navigation, from a safety standpoint. In your opinion, had 
that system been in effect, would we have had better 
information about the locations of those ships?
    Admiral Collins. I'd have to wait for the results of the 
investigation, which is ongoing right now.
    Senator Breaux. Well, that's not the question. My question 
was very careful. I mean, would--had that system been in place, 
would you have had better information on the location of the 
two vessels?
    Admiral Collins. I think that system provides you a margin 
of information--improved margin of information wherever you 
would put it in. And I----
    Senator Breaux. If the system had been operating, you would 
have had an identification and location on the ships in the 
Mississippi River.
    Admiral Collins. Absolutely. It gives you better visibility 
of the--of vessels. And clearly that's, you know, why we have 
been aggressive trying to push this system--AIS base VTSs. We 
think that's the way to go.
    Senator Breaux. Is the reason it is not in place in New 
Orleans and other ports around the country because of 
technology is not available, or is it because of the costs that 
we do not have the money to pay for?
    Admiral Collins. I think it's a cost and schedule issue 
that it boils down to, and we're building it out as fast as 
cost and schedule allow. And, again, the game plan is to have 
it all--all the nine VTSs, Senator, by the end of this calendar 
year, is the current schedule.
    Senator Breaux. This goes back to the Chairman's question 
and then Senator Hollings question. My information is that you 
requested $1 million in the budget for the AIS system last 
year, and this year it's five million. That is woefully 
inadequate to accomplish what you're saying that you'd like to 
have done, isn't it? You can't do it with----
    Admiral Collins. It really----
    Senator Breaux.--for $5 million.
    Admiral Collins.--it really stretches it out, Senator. One 
of the----
    Senator Breaux. It does.
    Admiral Collins.--one of the things we're looking for, for 
your information, in terms--to try to moderate the cost 
challenge is to look at existing structures in which to place--
this is having AIS coverage beyond the immediate ports, beyond 
the VTSs. So we're looking at things like NOAA buoys and 
offshore platforms--you've very familiar with how many offshore 
platforms are in the Gulf--but to use those as structures by 
which to place AIS equipment.
    Senator Breaux. I understand that. But the problem is that 
you are not able to request sufficient funds in order to do 
these types of things. I mean, $1 million to do an AIS system 
nationwide is really not even close to getting it started. And 
this year, it's $5 million. Now, I think had that AIS system, 
in the--maybe the Coast Guard inquiry on the cause of that 
accident will reveal more information--but had that system been 
in place, clearly the central control system would have known 
where those ships were, what--the movement and what direction 
they were going in, and possibly could have avoided a very 
tragic accident. I mean, I can't say that. I mean, it's a 
tragedy for the families and for everything. But had that 
system been in effect, we would have had a great deal more 
information in order to warn the ships of an impending 
collision--which occurred and shut down a port for 4 days, not 
even to mention the tragic loss of life.
    So, anyway, we don't have enough money to do what we should 
be doing. I mean, that's--I think that's pretty clear, 
particularly in this area.
    Mr. Bonner, it seems to me--and we've had these 
discussions--that it's much more difficult to inspect 3,000 
containers on a ship when it arrives in port. It's much better 
to try and inspect the containers when they are loaded on the 
ship in the foreign port. And you say we now have about 38 
ports around the world that are coordinating. I mean, I'd like 
to know a little bit more about that. Are you able, or is our 
government, to go in and say, ``Look, you're going to have to 
have an inspection system that tells us what's being put on 
these vessels, or we're not going to allow you to call on our 
ports. It's just that simple?'' And I guarantee you, with 
everything we're importing into this country, other countries 
would put it into effect lickety-split, because they're not 
going to be able to say, ``We're not going to ship to the 
United States.'' What's the status of all that?
    Mr. Bonner. Well, first of all, there are--they're 
countries that represent 38 foreign ports that have agreed to 
implement the Container Security Initiative.
    Senator Breaux. Is that our----
    Mr. Bonner. We----
    Senator Breaux.--is that our Container Security----
    Mr. Bonner. It's our----
    Senator Breaux.--Initiative?
    Mr. Bonner.--Container Security Initiative. And it means, 
Senator Breaux, that they've agreed that they will--first of 
all, we will have targeters there. We will be using, and are 
using, our automated targeting system to identify, based upon 
strategic intelligence--not just specific intelligence, but 
strategic intelligence--as well as anomaly analysis, the 
containers that pose, in our judgment, a potential threat for 
terrorist exploitation. The host nation that--joint CSI agrees 
that when we then, based upon our targeting and any 
information, additional information, they can give us--and, by 
the way, being there, our targeters being there, there is an 
exchange of information that takes place with the host nation 
customs authorities--but if we say, ``Look, we're concerned 
about this container or this group of containers,'' because of 
where they're coming from and other things that go into our 
targeting rules, we request them to actually do the minimum 
security inspection. And the minimum security inspection is 
running that container through the large-scale X-ray imaging 
machines--so to be in CSI, you've got to have at least one of 
these machines at your foreign seaports--and run it for 
radiation detection. Now, obviously, if there is a concern 
then, it gets a physical inspection, but relatively few do. So 
we select out--that's the agreement, that's what CSI is. And we 
have deployed that now to 18 foreign seaports where we have 
Customs and Border Protection inspectors, targeters, working 
with the host nation to identify high-risk containers and see 
that they're screened overseas before they're loaded onboard 
vessels headed for the U.S.
    And 18 foreign seaports, by the way--we just--the first 
foreign seaport was just 18 months ago, so we've deployed one 
every month since September of 2002. And we're continuing. I 
mean, we're not stopping with those 18. As I indicated, we're 
going to expand this. I believe we'll hit over 30 by the end of 
the--at least 28 to 30 by the end of the Fiscal Year, and 
another four by the end of the year, and to expand it out.
    So this gives us a system in place, with respect to many of 
the major ports of the world--the megaports, the hub ports that 
ship most of the containers to the United States. And, by the 
way, these are also placed in areas where--you know, nothing 
comes directly from Karachi to the United States. I can tell 
you that right now. It comes through Singapore, or it comes 
through Hong Kong. And we have CSI there. So it's a hub using 
targeting and target analysis and information to identify high-
risk containers, and then doing it there.
    Now, we're ramping this up. We've--you know, there's no 
question that we've made good progress, but we have ways to go. 
We probably need to increase, to some extent, the numbers of 
targeters that are working in particular countries, like 
Singapore, because of volume, but we've made good progress so 
far in expanding the Container Security Initiative. And it has 
been well received and widely accepted by every--virtually 
every country that we've approached to join in with us with the 
Container Security Initiative.
    Senator Breaux. Thank you.
    The Chairman. Senator Lautenberg?
    Senator Lautenberg. Admiral Collins, we all are very fond 
of the Coast Guard, the work that it does, and the relationship 
that we have within the coastal states particularly to the 
Coast Guard, the number of functions that it performs. But yet, 
in response to the Chairman's inquiry about whether or not you 
have enough funds, you were more than gracious, I think, with 
the Administration by saying, ``Don't worry about it, we've got 
plenty.''
    But if I look at the GAO report that recently came out, in 
March of this year. The total Coast Guard resource hours have 
increased substantially, 39 percent, over pre-September 11 
levels in Fiscal Year 2003; but, not unexpectedly, homeland 
security is the greatest beneficiary of the increased hours, as 
more vessels devoted to homeland security have been added to 
the fleet. Conversely, the resource hours for most non-homeland 
security programs have decreased as many more resources are now 
generally devoted to protecting the Nation's ports and 
waterways.
    For example, resource hours for several programs that the 
Coast Guard has traditionally conducted, such as living marine 
resources, search and rescue, declined by 26 and 22 percent, 
respectively. And if we look at the various categories of 
activity--illegal drug interdiction, down 44 percent. And this 
morning, there was a drug bust of 29,000 pounds of cocaine off 
the West Coast, so there still are plenty of drugs out there, 
we know that.
    How do you square, Admiral, this minimal increase in 
funding with all of these activities that you are responsible 
for? It's terrific to see the enhancement of the security 
concerns being attended to, but these other functions are 
important functions, traditional Coast Guard functions. What 
happens with them?
    Admiral Collins. Clearly, homeland security and the 
security of our ports and waterways is priority number one. You 
know, the Secretary believes that, I believe that, I think 
Commissioner Bonner and Administrator Stone believes that. And 
that--because the consequences are very, very substantial. So 
we have to maintain, I think, an aggressive posture. Most of 
our budget plus-ups over the last couple of years have been 
devoted to building up our--to be just confident--the Coast 
Guard to be just as confident in the homeland security part of 
our business as we are traditionally in search and rescue and 
servicing aids to navigation and breaking ice and so forth. I 
think if you look at our performance in all those missions, 
along with activity levels, that--activity levels give you one 
perspective. Look at our performance and outcomes, and I think 
you'll see, in all the non-homeland-security areas, that we've 
met every standard, we've exceeded every performance goal in 
those particular non-homeland-security missions, if you will. 
We have not backed off our search and rescue standards one bit. 
We're meeting our search and rescue standards. We saved over--
--
    Senator Lautenberg. Was that a bloated budget that you had 
before that we should have----
    Admiral Collins. I think----
    Senator Lautenberg.--reduced the----
    Admiral Collins.--I think that you'll see ups and downs of 
those numbers in any given year, based upon the risks that 
we're dealing with in that year. Our whole allocation of our 
cutters and our boats and our people is all risk based. You 
know, we're allocating resources day in, day out to the 
greatest risk at the time.
    Senator Lautenberg. Well, how about something like the 
foreign fish enforcement, the living marine resources? These 
things don't have an immediate response to attention, but they 
will--in years ahead, suddenly we'll find ourselves with--over-
swamped foreign fishing fleets that rape the bottom of our 
oceans and leave nothing there for us to harvest. I think, 
honestly, you're--I would have normally said ``you're a good 
soldier,'' but you're not a soldier. The fact is that you are 
certainly loyal to those who make the decisions, but we know 
how seriously the Coast Guard takes its responsibility. And you 
can't make the case that we can constantly do more with less, 
unless we want to change the mission of the Coast Guard 
altogether and say Coast Guard is another part of the 
intelligence or anti-terrorism organization, and leave the 
nautical part to something else.
    Admiral Collins. Part of the--Senator, part of the 
challenge of this thing, again, is to manage to the greatest 
risk at the time. I mean, understanding that we're not 
optimally resourced for every one of our missions 
simultaneously, and so to mobilize our--to be multi-mission, in 
terms of our resource, multi-task capability we embed in every 
one of our resources. They can surge to those issues, and we've 
done that, and I think we've done that very, very effectively, 
and that's a good story. The second is to be--to grow. And I 
think if you look at our budgets over the last 3 years, we are 
growing. We've added--our workforce has grown by over 12 
percent, our budget's been increased by the Administration----
    Senator Lautenberg. But it has been absorbed by functions.
    Admiral Collins. It----
    Senator Lautenberg. More than absorbed. And when you say 
that the American Coast Guard is near the bottom of the list 
with the kind of equipment that we need to do our job, it's 
distressing to hear that, and that has to come from some pot of 
resource that is being used otherwise.
    And, Mr. Chairman, the conclusion is that we cannot 
maintain all of the functions that we need to maintain, those 
that take care of now and those that take care of the future, 
without supplying the resources.
    And I'll conclude with this very quick question for Admiral 
Stone. Mr. Bonner, I don't mean to leave you out, as Senator 
Breaux said before, but the fact of the matter is, I have a 
question for you about the radiation detection, because that's 
like the second line of defense. The first line of defense is 
what we do at those ports of embarkation, and how do we control 
it, and can we effectively stop those ships from coming here if 
those ports look like they're particularly dangerous places for 
us? Is that----
    Mr. Bonner. Well, first of all, you know, one thing that I 
think is not often recognized, but if we had a specific concern 
from intelligence that we received from IAIP through the intel 
community about a specific container that posed a terrorist 
threat, we have information, under the 24-hour rule, of all 
containers, wherever they're moving, if they're heading for the 
United States, before they leave foreign ports, Senator--before 
they leave the foreign ports, 24 hours before they're loaded 
onto our vessels to leave. So we literally can instruct the 
carrier to ``do not load that container'' until we are 
satisfied that it doesn't pose a threat.
    Now, if we're at a CSI port, we obviously are in a position 
to make sure we do the security screening, because we have--
we're there, and we also have the commitment from the host 
nation to work with us to get it done.
    But we have some means here to prevent a container that 
poses a risk, if we have the intelligence, to prevent it from 
going onboard. And then, at CSI ports, it's beyond just the 
intelligence; it's the strategic intelligence, if you will, 
that there are a group of containers that were--we have 
sufficient concerns about that we want them to be inspected 
before they're loaded onboard----
    Senator Lautenberg. Yes, but referring to Senator Breaux's 
earlier question, could we assign a different status to those 
ports that we expect problems coming from--could we simply 
embargo that port and say the only ports that are going to be 
allowable are those--you described some as hub-ports--can we do 
that if we choose to do that? Or----
    Mr. Bonner. I actually think we're--in essence, as we 
expand out the Container Security Initiative and the standards 
that Senator Breaux was referring to, where we've got a much 
broader coverage, then you have the possibility of simply 
saying, let's say, at level orange, or where there's a higher 
threat level, that all containers, if they're moving to the 
United States, have to move through those ports. But you don't 
want to do this, in my opinion, until you have----
    Senator Lautenberg. Commerce----
    Mr. Bonner.--much broader coverage of the Container 
Security Initiative than we have with just 18 ports. But, yes, 
I think that would be a direction. And, ultimately, of course, 
the Coast Guard, under MTSA, will be certifying the security at 
the foreign ports themselves that are shipping containers to 
the U.S. and so----
    Senator Lautenberg. So we're working from the beginning--
before it begins----
    Mr. Chairman, I wanted to say to Admiral Stone that we've 
been more than perplexed, frustrated, et cetera, about the 
slowness of DHS's--slowest--terribly late response to our 
inquiries in this Committee, and I want to leave you with a 
question.
    If you could provide us with some identification of the 
directorate's resources that are devoted to port security 
tasks, and those that have been assigned to rail security. And 
I wonder if you could just tell us how long it might take to 
get that information.
    Admiral Stone. Yes, sir. Would you--you'd like that from 
the Department perspective, or just TSA-specific, or the 
overall Department?
    Senator Lautenberg. No, from the Department's perspective.
    Admiral Stone. Yes, sir. I'll go to work on that 
immediately and get that to you as soon as possible.
    Senator Lautenberg. But we won't need a year for that.
    Admiral Stone. No, sir.
    Senator Lautenberg. OK. Thanks very much.
    Senator Breaux. [presiding]. Senator Nelson, any questions?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. Mr. Chairman, I 
always knew you wanted to be Chairman of the Commerce Committee 
before you retired.
    [Laughter.]
    Senator Breaux. Now I'm leaving.
    [Laughter.]
    Senator Nelson. Admiral, you have a big job. And it's a big 
job to comply with the law that says all of these ports have to 
be ready to meet the standards for port security by July 1. And 
the fact is that a lot of the foreign ports that do business 
with the United States, especially the 14 deepwater ports that 
almost half of the Florida commerce originates from, will not 
be able to comply by July 1. How are ports in the Caribbean and 
Central America, such as Puerto Cortez, Honduras, 350 miles 
south of Cancun, going to be compliant, according to the law, 
by July 1?
    Now, tell us what in the world you are going to do. You 
have my full support, but I just don't know how you can get ten 
pounds of potatoes in a five-pound sack.
    Admiral Collins. It is--Senator, you've hit the nail on the 
head. That particular part of the regulation is--it's going to 
be a challenge.
    Just to echo your concern, I went down and visited, in 
Costa Rica, about 3 weeks ago, and several other countries. The 
reason for my trip was basically building counter-drug 
agreements, bilateral agreements, with those countries. But I 
did use the occasion to talk about the MTSA and the ISPS code 
and how they were going to be meeting core standards. When I 
visited Costa Rica, that wasn't even on their scope, and there 
were not--didn't have any overt act--they do now, by the way. I 
talked to the president of Costa Rica, and they are moving on 
sharply.
    We're going to have to work closely with each one of those 
countries through regional groups and affiliations, and slug 
through those issues.
    For Florida, there are already regulations in the book. 
There's a special reporting requirement into the ports in 
Florida for any vessel coming from the Caribbean, and we're 
going to have to scrutinize it. We're going to have to pay 
special attention to every one of those vessels coming in.
    That's, I guess, the short of it, is that we're going to 
have scrutinize each one of those vessels. We're going to have 
to look at all--if there's a--for instance, Costa Rica 
doesn't--it's not a flag state, but it--but there are third-
party vessels, Panama flag or whatever, that call in this port, 
pick up the pineapples or whatever it's carrying en route to 
the United States. So the fact that it takes on cargo from a 
port not--they're not even a signatory to the ISPS code. So 
they're not a signatory to the ISPS code, so we're going to 
have to look at alternative security plans, help them along, 
have very close oversight, scrutinize them from a risk 
perspective, and take intervention measures for each and every 
occasion until we bring that, you know, ``tide rising, all 
ships'' type of phenomenon, we bring them up, from a standards 
perspective.
    Senator Nelson. Well, let me suggest to you what's going to 
happen. We're only talking about three and a half months from 
right now. When it dawns on everybody that commerce is going to 
grind to a halt because you are either going to wave off a ship 
coming from a port that has not complied with the security 
requirements, or you're going to impound the cargo until it's 
inspected, to be released, commerce is going to grind to a 
halt. And that is going to cause an outcry. And the pressure is 
going to be on you to release and ease up on your security 
requirements under the law. How are you going to deal with that 
pressure?
    Admiral Collins. Carefully, Senator. No, you're absolutely 
right. No to be flippant about this. It's absolutely a 
challenge. We're going to have a lot of pressure on that. And 
one of the reasons we're working in the interagency process 
with the State Department and others, so that we will have--and 
coming--developing what we call an intervention matrix of Port 
State Control. What control actions will we take if this vessel 
meets--doesn't meet this issue, doesn't meet that issue, and so 
forth?
    But I think for smaller infractions, you don't--you know, 
for smaller infractions of the code, you don't ignore them--you 
hold them accountable, but you don't deny--you may not deny 
entry. It doesn't call for denying entry, it doesn't call for 
detainment; it calls for having corrective action before the 
next port of call, or whatever. It depends on what the serious 
nature of that infraction is. So we'll have a menu--menu of the 
Port State Control--the most severe of which would be detaining 
or denial of entry, but that would have to be for a higher-risk 
issue.
    But our intent was to fully hold these ships accountable, 
and owners accountable. As you know, for safety, we publish a 
bad-guys list for classification societies, for ship owners, 
for ship operators, and so forth. And based upon past 
performance on safety and environment issues, you get on this 
list or don't get on the list. And if you're on the list as a, 
what we call a priority one, we are all over you on the 
inspection regime every time you come in. We're going to do the 
same--and it's, by the way, produced incredibly good results, 
in terms of driving substandard ships, from a safety 
perspective, out of the U.S. trade--we're going to do the same 
thing on security.
    There's going to be a report card on every vessel. We're 
going to publish that worldwide. We're going to exchange that 
information worldwide, so there'll be security accountability, 
safety accountability, and marine environmental protection 
accountability for every ship that comes in. So it's a strong 
oversight inspection regime from a Port State Control to ensure 
we--and this is about managing risk, and we're going to try to 
identify risks, sort the risks, and act appropriately. Denial 
of entry is the last resort, of course. But if the risk is high 
enough, then you deny entry if the vessel is not complying.
    Senator Nelson. Well, I want to suggest, also what's going 
to happen is that there are those, such as myself, that have 
been raising Cain about increasing the amount of money 
appropriated for port security in this country. I mean, what 
we've been addressing is the port security in these other 
countries. I assume a port like Rotterdam's got enough 
financial resources that they're going to be compliant. But you 
get into some of these--like this port in Honduras and other 
Caribbean nations, they're not going to be compliant. And yet 
here in our own country, I have been raising Cain that we're 
not putting enough money into our port security.
    Now, you know, the National Port Council wants something 
like $5 to $7 billion more. I've been trying to get $2 billion 
more. And I can't get any support out of the White House for 
that. As a matter of fact, there is, in the budget submitted by 
the President in this coming year, it's $46 million. Now, they 
say it's $1.9 billion, but a huge part of that is actually for 
you, which--you have to do a lot of other things, other than 
port security, such as interdiction on the high seas, search 
and rescue, and so forth.
    Admiral Collins. Yes, sir. There's basically--this approach 
that we're taking with this regulation is shared responsibility 
for this rollout, and shared financial responsibility. The 
Federal Government is certainly underwriting a major part of 
our operational presence, maritime domain awareness, and all 
these other things we're doing, to the tune of the dollars that 
you mentioned. Commissioner Bonner's work force, my workforce 
is paid by Federal dollars. We're involved in the security 
business. That's a Federal investment in the security of our 
maritime. The figures that have been quoted earlier about the--
initially $1.5 and $7.3 billion over 10 years, that's the cost 
estimated of this regulation, obviously, to state, local, 
private sector, in meeting the terms and the standards of the 
regulation. There is almost $500 million that's already been, 
in terms of grants, distributed to ports, based on their 
application. As you noted, there are 46 million dedicated funds 
within the 2005 budget.
    But I might add that there's also the ability for ports to 
apply to ODP within the Department for a larger pot of money. 
The total amount of grant money available in 2005 through the 
Department, close to 3.5--I think it's 3.4--billion that'll be 
administered through the central processing and grant 
application to ODP, with the Coast Guard and others still the 
expert witness, if you will, on maritime applications. So a 
dedicated 46, plus the ability to apply for that larger pot 
through general application to ODP.
    Senator Nelson. Well, if I may be clairvoyant, my job, of 
getting additional money for American port security, is going 
to be a lot easier come July 1 because of the outcry that's 
going to occur, and that outcry will be translated into 
legislative action because of Members of Congress suddenly 
hearing about this problem. And not all of the Members of 
Congress have districts that are on the coast of the United 
States.
    A final question. I have the three largest cruise ports in 
my state. Now, I know you all have already addressed, here, the 
issue of security, the metal detectors, and so forth. But I can 
tell you, from having talked to constituents and others that 
have recently come on and off of a cruise, that there is not 
much checking of the luggage, and particularly not so with 
regard to the kinds of plastic explosives that could be put in 
luggage and create the same kind of effect that occurred in 
Spain on the railroad cars. So this is just another little 
headache that you're going to have to address.
    Admiral Collins. The cruise--clearly, the--and you're 
referring to Port Everglades and obviously the Fort Lauderdale 
area and Miami and so forth, that every Friday that's a pretty 
busy--those are pretty busy ports as they change out----
    Senator Nelson. Miami, Everglades, and Canaveral.
    Admiral Collins. Yes, sir. And, of course, that was the one 
segment of the maritime industry that, before 9/11, had 
comprehensive security plans, by the way--past history of 
Achille Lauro and other issues that--that was the one part that 
had more robust--that did have a security regime, and the 
only--really the only part of the industry that had that type 
of a security regime. And right at 9/11, of course, we elevated 
the security condition, and there has been 100 percent 
screening of baggage and people since 9/11 for the cruise 
industry.
    We're also working with TSA to see what kind of technology 
enhancements and procedural enhancements, based upon their 
expertise in screening, needs to be imported----
    Senator Nelson. OK, now, on that 100 percent screening, is 
that just for metal, or is that for all kinds of explosives?
    Admiral Collins. I don't know the answer to that--I might--
maybe----
    Senator Nelson. I will tell you the answer.
    Admiral Collins. Maybe Administrator----
    Senator Nelson. I'll tell you the answer.
    Admiral Collins.--Stone would have----
    Admiral Stone. I'll partner with Admiral Collins, sir, and 
make sure we get you a comprehensive answer on----
    Senator Nelson. OK.
    Admiral Stone--whether it's just metal or----
    Senator Nelson. That's what I'm saying, you're not 
screening for----
    Admiral Stone. Yes, sir.
    Senator Nelson.--plastic explosives. And it's an accident 
waiting to happen.
    Thank you, Mr. Chairman.
    Senator Breaux. Are you not X-raying luggage that comes 
onboard cruise ships? I mean, I've visited the cruise ship 
terminal, and we looked at what you all were doing, and----
    Admiral Collins. It has been a lot--the sophistication of 
the equipment at--on the marine terminal is not on the par as 
the sophistication at the airports.
    Senator Nelson. That's correct.
    Admiral Collins. And that's the observation that the 
Senator is making.
    Senator Breaux. So you could detect if they brought a 
pistol onboard, but not if they brought plastic explosives. 
Ugh.
    Admiral Collins. I'll confirm that, but I'm sure the 
Senator is correct----
    Senator Breaux. That's not too comforting.
    Admiral Collins. The overall level of sophistication and 
investment in equipment has not been the same.
    Senator Breaux. That's like when they took my little red 
Swiss army knife, about this long, away from me when I went 
into the Superdome Stadium in New Orleans, but if I could have 
walked in with plastic explosives, they never would have caught 
it, but they sure caught that one-inch little red knife. I 
don't know what I could have done with that.
    All right, let me--so you said 145 container screeners now, 
Mr. Bonner? What are--can you tell us, what are the container 
screeners picking up? I mean, can they pick up anhydrous 
ammonia being loaded in a container? That wouldn't really show 
up----
    Mr. Bonner. Well----
    Senator Breaux.--would it? I mean, I don't want to get 
into----
    Mr. Bonner. They can----
    Senator Breaux.--something you don't want to talk about, 
but----
    Mr. Bonner. They scan--go ahead, Senator.
    Senator Breaux. I mean, what do you--what are you picking 
up in container screeners that you now have utilized, 145 of 
them?
    Mr. Bonner. The main thing we're picking up are illegal 
drugs, but we--but it has the capability--the X-ray screening 
machine, and we use this on a targeted--risk-targeted basis, 
but it has the capability of picking up lead-shielded 
materials. It has the capability of detecting an anomaly. If 
you had a certain--by the way, we're getting advance 
information on what's supposed to be in these containers, so if 
it says ``ladies apparel,'' and it doesn't look like ladies 
apparel, that's anomaly in itself. So it gives us an extra 
measure of detection without doing, essentially, a physical 
inspection of every container we think poses a potential risk, 
for certain kinds of things. I mean, it doesn't--you know, 
that's why you have a layered detection strategy, because it--
you know, it wouldn't detect against every possible, let's say, 
weapon, particularly if it were relatively small and wasn't--
didn't contrast, let's say, with the density of----
    Senator Breaux. It's a----
    Mr. Bonner.--in the background of what's in the----
    Senator Breaux.--it's a huge----
    Mr. Bonner.--what's in the container.
    Senator Breaux. Yes, it's a huge problem. I think we've 
made some real progress with these container screeners, and--
but like Senator Nelson was talking about, there are some 
things that may not even show up on these screeners. I don't 
want to talk about it too much in the public; it may give 
people ideas about what they can bring in. But, I mean, 
obviously this is a concern I hope you all are trying to 
address.
    Mr. Bonner. Well, we are, and there are layers to this. And 
one of the things is--if you're talking about just explosive 
materials--of course, is that we have some other technologies. 
One is canines that we have trained. As you know, we've had an 
excellent canine program at Customs--now it's Customs and 
Border Protection--with respect to dogs that sniff out drugs 
and even cash. But we've trained, and are training, more 
canines that are capable of detecting both potential chemical 
weapons, as well as explosive materials with respect to cars or 
vehicles or containers that may be crossing our borders. So----
    We also have itemizers and some other materials, where we 
can take swabs of containers or shipments, and run them, and 
very quickly identify whether they have explosive materials in 
them.
    Now, all of this, by the way, is based upon managing risk 
and targeting containers or shipments or vehicles that pose a 
potential risk, and identifying that either in advance or at--
when a person or thing presents itself at our ports of entries 
into the United States.
    Senator Breaux. Well, we want to thank you. We've kept you 
all here a long time. There have been a number of requests from 
Members about information that we need to have forwarded. Mr. 
Stone and Admiral Collins, you both have had requests, and I 
would hope that you would be able to promptly respond to those 
Members' requests as quickly as you can. And we thank you very 
much for being with us.
    I'd like to welcome up the next panel. We have, Mr. Chris 
Koch, who is President and CEO of the World Shipping Council; 
Mr. Gary LaGrange, who is the Executive Director and CEO of the 
Port of New Orleans; Dr. James Carafano, who is Senior Research 
Fellow for Defense and Homeland Security at the Heritage 
Foundation; and Mr. Mike Mitre, who is Director of Coast Port 
Security, with the Longshore Division of the International 
Longshoremen and Harbor--and Warehouse Union. We're delighted 
to have all of you with us and are pleased to receive your 
testimony.
    Mr. Koch, we have you listed first. Welcome back to the 
Committee.

    STATEMENT OF CHRISTOPHER KOCH, PRESIDENT AND CEO, WORLD 
                        SHIPPING COUNCIL

    Mr. Koch. Thank you, Mr. Chairman.
    We appreciate the Committee's looking into maritime 
security, because it is so important, because so much maritime 
commerce is moved by this country--about 200,000 importers a 
year are moving their goods through maritime commerce. There 
are a comparable number of exporters, all using this industry. 
So your oversight is very appreciated.
    Just to give you a little framework here, we're talking 
about $750 billion worth of goods being moved in and out of 
U.S. ports from international commerce. About two thirds of 
that is moved by the liner industry in containers. That's about 
$1.4 billion worth of cargo a day going through U.S. ports. 
That keeps retailers' and grocers' shelves filled, but it also 
provides markets for U.S. exporters, and keeps factories 
supplied with the components they need.
    There are various facets of how the government is trying to 
deal with maritime security, and let me just try to identify 
them very quickly.
    The first is ships. As Admiral Collins described, by July 1 
all ships arriving at U.S. ports will have to be compliant with 
the ISPS code. In surveying our members, our expectation is 
that all our members' ships will be compliant by July 1.
    Senator Breaux. I'm sorry to interrupt you. Is that the AIS 
system?
    Mr. Koch. AIS is one component of the ISPS code. So all the 
ships will have that equipment on it, although, as has been 
discussed earlier, the Coast Guard has yet to be fully equipped 
to receive AIS transmissions at all ports across the country.
    As to ports, the ISPS code also requires, by July 1, that 
all port facilities have compliant security plans. It's our 
understanding that all U.S. container terminals should be ready 
by that period of time, but, as also discussed earlier, we do 
expect problems in some foreign ports, that not all foreign 
ports will be compliant by July 1.
    One of the unanswered questions we hope to work with 
Customs and Coast Guard on is: After a compliant vessel has 
called at a port that is not compliant, what happens to it? And 
what happens to the cargo that originates at a noncompliant 
port when it arrives in the U.S.? There aren't crystal clear 
answers on that. We know we're not suspending trade with those 
countries on July 1, and it's going to be an iterative process. 
They're going to put pressure on the industry to keep pressure 
on these foreign ports. We understand that, too. But we'll need 
to work through how that's going to be handled.
    There's also a people security piece to this, which we 
recognize. TSA is developing a transport worker identification 
card for shore-based maritime employees, and other transport 
modes. As to seafarers, the U.S. Government's cleaned up its 
seafarer list. As to foreign seafarers, they've suspended the 
use of crew list visas. Now every seafarer has to get an 
individual visa. Vessels are also providing the government 
advanced notice of all crew members 96 hours before the vessel 
even arrives at U.S. ports, so all crew members are screened 
through the various intelligence and information systems that 
the government has.
    The final piece of this is really the cargo security. And 
from the liner industry perspective, that's the more 
complicated piece of it, particularly containerized cargo. 
There's a lot of cargo, about seven million containers a year 
coming into U.S. ports. If we inspect every container, we 
obviously have gridlock for commerce. So, as discussed earlier, 
the strategy here is that you screen 100 percent of all 
containers through the Automated Manifest System, or the 
Automated Targeting System, using the 24-hour rule. You deploy 
radiation portal screening, so you can screen 100 percent of 
all containers for radiation, and we understand the objective 
is to have that in place by the end of the year. And then you 
physically inspect everything that the Automated Targeting 
System says should be inspected. And that's a key component of 
this strategy----getting the Automated Targeting System to be 
more robust and more effective, because it's the lynchpin in 
the strategy. You want to inspect everything that gets kicked 
out by ATS.
    And then, finally, very importantly, is the CSI initiative. 
What we would like to point out is that the Coast Guard had the 
advantage of dealing with the IMO, an existing international 
organization which can create international rules for ships and 
ports.
    Commissioner Bonner didn't have the advantage of an 
international organization that sets cargo security rules, so 
Customs has had to create this through the bilateral agreements 
forming the CSI network. And in diplomatic terms, they've done 
a great job. They've got 38 ports signed up: 18 are 
operational. And it's obviously a work in progress, but a very 
essential part of the strategy. So the strategy is good. 
There's a lot of hard work going on, at both government and 
industry levels, to make it work. A lot of people should get a 
lot of credit for where they are. But the challenges now are to 
keep going, because we're still at the foundational level--
making ATS more robust, making sure the equipment is there to 
inspect not only U.S. ports, but at foreign ports, and to 
encourage international cooperation. We should not fall into 
the trap of thinking we can solve all problems in the U.S. and 
that, everything's going to be done here. This is international 
trade, and we need international cooperation and international 
standards with our trading partners if we're really going to 
get our hands around this.
    So there are a lot of issues, including good contingency 
planning, which we discuss a little bit in our submitted 
testimony. But we think the government's at least on the right 
track. It's a question now of keep going and keeping focused on 
dealing with what increasingly become more difficult parts of 
the challenge.
    Thank you.
    [The prepared statement of Mr. Koch follows:]

      Prepared Statement of Christopher Koch, President and CEO, 
                         World Shipping Council
Introduction
    Mr. Chairman, I would like to thank the Committee for the 
opportunity to comment on the state of maritime security enhancements. 
My name is Christopher Koch, and I am the President and CEO of the 
World Shipping Council (WSC). The Council is a non-profit association 
of thirty companies that operate forty-four international shipping 
lines. WSC's members include the full spectrum of vessel-operating 
ocean common carriers, offering containerized, roll-on/roll-off, car 
carrier, and other international cargo transportation services. WSC's 
members carry approximately ninety-three percent of the United States' 
imports and exports transported by the international ocean liner 
shipping industry.
    International commerce is a huge and economically vital part of our 
economy, and liner shipping is an essential facilitator of that trade. 
In 2002, approximately 202,800 U.S. importers received goods from more 
than 178,200 foreign exporters via liner shipping. The combined value 
of U.S. exports and imports of goods moved by international waterborne 
trade in 2002 was approximately $728.4 billion. Close to $500 billion, 
or two-thirds of that, was containerized cargo carried on liner 
vessels. On average, roughly $1.4 billion worth of goods are moved 
through U.S. ports by the liner shipping industry each day.
    The Council has strongly supported the various efforts of the 
government to enhance maritime security, and it will continue to do so. 
Whether it has been the Coast Guard's efforts as the lead agency for 
vessel and port security, or Customs and Border Protection's efforts as 
lead agency for cargo security, the Council has fully supported the 
government's strategies in both domestic regulation and in 
international fora.
    Enhancing maritime security, while maintaining the efficient flow 
of commerce, is a very large, complex and multi-faceted task, and this 
Committee's oversight of that effort is very appropriate. In my remarks 
this morning, I would like to address several different components of 
the overall maritime security objective, including enhanced ship 
security, port facility security, personnel security, and cargo 
security.
I. Ship Security
    The Maritime Transportation Security Act instructs the Coast Guard 
to establish regulations requiring all vessels calling at U.S. ports to 
have vessel security plans. With an upcoming July 1 effective date, all 
vessels arriving at U.S. ports will have to be fully compliant with the 
new International Ship and Port Facility Security (ISPS) Code and the 
amendments to the International Convention for the Safety of Life at 
Sea (SOLAS). The Coast Guard deserves considerable credit for 
simultaneously and successfully partnering with domestic and 
international industry stakeholders, the International Maritime 
Organization and other governments, other Federal agencies and the U.S. 
Congress to accomplish this. The Coast Guard's approach to the 
implementation of the ISPS Code and SOLAS amendments, not only 
faithfully implements this new international regime that the Coast 
Guard played a key role in creating, but it enhances maritime security 
through the use of a consistent, uniform international approach for an 
industry, which operates within the jurisdictions of all the maritime 
trading nations of the world.
    Vessels that are not compliant with the Code by the July 1 
effective date will be denied entry to U.S. ports. The Coast Guard 
regulations will ensure that every vessel has an approved security 
plan, designated and trained personnel responsible for defined security 
actions and communications, procedures for communicating with ports and 
other vessels, procedures for monitoring and controlling physical 
security and access to the vessel, and the installation of Automated 
Identification Systems transponders.
    While a substantial amount of work is being done to be compliant by 
July 1, our Member lines' representatives have identified no 
significant problems regarding lines' expectations that their vessels 
will be compliant by that time.
    We would note that the new rules require most ships to have AIS 
transponders installed and operational by July 1,\1\ but that Coast 
Guard receiving stations will not be operational by that time in a 
number of U.S. port regions, especially along the Atlantic and Gulf 
coasts. We believe that the Coast Guard should be given the resources 
to make a nationwide AIS system fully operational as soon as possible.
---------------------------------------------------------------------------
    \1\ All vessels larger than 50,000 gross tons are required to 
comply by July 1,2004. Vessels less than 50,000gt but larger than 300 
gt must comply not later than the first safety survey, but not later 
than December 31.
---------------------------------------------------------------------------
    Finally, we note that while these vessel security plans will 
improve internal vessel security and preparedness as intended, they may 
be of little defense against an organized, external terrorist attack of 
a merchant vessel, such as the attacks on the Limburg or the U.S.S. 
Cole.
II. Port Security
    The regulations established by the Coast Guard to implement the 
requirements of the Maritime Transportation Security Act and the ISPS 
Code also require port facilities to be compliant by July 1st. As with 
vessel security plans, compliance with these requirements may involve 
considerable effort, but, as with vessels, we are unaware of any U.S. 
container terminal that does not plan on being compliant by that date.
    It would appear likely, however, that not all foreign port 
facilities will be compliant on July 1. This may be of particular 
concern in some developing countries. It seems clear that the U.S. will 
not stop trade with such countries in July; however, the issue is: How 
will ISPS compliant vessels be treated by the U.S. Coast Guard and 
other nations' maritime authorities when they arrive after having 
called during their voyage at a foreign port facility that does not 
have an ISPS compliant facility security plan? Vessels calling between 
such ports and the cargo on those vessels are caught in the middle. It 
is not yet clear what a vessel can expect in these situations.
    Similarly, it is currently unclear what consequences shippers 
should expect for their cargo that passes through noncompliant 
facilities. For example, it is possible that Customs' Automated 
Targeting System may assign a higher security risk to cargo containers 
transiting through non-ISPS Code compliant facilities, and thus make it 
more likely such containers will be held up for inspection. While the 
government may be highly reluctant to stop trade with such countries, 
we expect it is likely to undertake measures designed to impose 
pressure on such ports and governments to comply, and those 
consequences may become more substantial as time passes and the 
government becomes less tolerant of foreign ports that are not 
compliant with the Code. In short, while we fully recognize that the 
U.S. and other ISPS Code compliant nations are likely to take actions 
that will affect carriers and shippers that move cargo through a non-
compliant foreign port facility, and that such actions are likely to be 
designed to ensure, inter alia, that all parties strongly support 
efforts by all port facilities to become compliant as soon as possible, 
it is unclear at present how these situations will be addressed.
III. Personnel Security
    The Transportation Security Administration is developing a 
Transport Worker Identification Card for all domestic transport workers 
in each transportation mode, which will require government background 
checks and biometric identifiers. This system will apply to shore-
based, domestic maritime workers. It is unclear when this system will 
become operational, but several pilot projects are underway.
    Regarding U.S. and foreign seafarers, the government has undertaken 
a number of changes.
    First, it reviewed all U.S. seafarers and revoked the licenses of a 
number of persons who raised security questions.
    Second, for foreign seafarers, effective last August, the use of 
crew list visas has been terminated. Each seafarer is required to 
obtain an individual visa from a U.S. embassy or consulate, and undergo 
a personal interview. If a seafarer does not have an individual visa, 
he will be unable to sign on or off the vessel in the U.S. or obtain 
shore privileges in the U.S., and the vessel operator may incur 
additional costs of posting guards at the vessel gangway.
    Third, today information on all crew members is transmitted 
electronically to the Coast Guard 96 hours in advance of a vessel's 
arrival in a U.S. port, and is provided separately to Customs and 
Border Protection (CBP) and is screened through government information 
systems. Both agencies and the industry agree that there should be a 
``single window'' for the advance electronic filing of such information 
that can be shared among government agencies. One of the positive 
manifestations of effective coordination within the new Department of 
Homeland Security is the recent agreement by the CBP and Coast Guard 
that the Coast Guard's electronic notice or arrival (e-NOA) system will 
soon be an acceptable ``single window'' system for this purpose and 
will be used by both agencies, thus eliminating duplicative filing 
requirements. We would like to commend Undersecretary Hutchinson, the 
Coast Guard and Customs and Border Protection for their continued 
efforts in this regard.
IV. Cargo Security
    One of the most complex challenges is the enhancement of cargo 
security, especially containerized cargo. The vast majority of liner 
cargo is containerized--that is, it is carried in sealed metal 
containers from point of origin to destination. These containers come 
in standard sizes (typically 20', 40', and 45' in length) and may 
include various specialized technologies, such as refrigeration units 
for chilled and frozen foods, or internal hanger systems for carrying 
garments. Over 20 million TEUs (twenty foot equivalents) of 
containerized cargo are imported or exported through U.S. ports per 
year. Containers serve, in essence, as a packing crate and in-transit 
warehouse for virtually every type of general cargo moving in 
international commerce.
    Physically inspecting every container is not practicable. Commerce 
would be severely disrupted.
A. Cargo Screening and the Automated Targeting System
    As a result, Customs has developed and implemented a strategy to 
enhance the security of containerized cargo by:

  <bullet> Requiring carriers to provide the agency with advance cargo 
        manifest information for every container imported into the U.S. 
        (or stowed aboard a vessel that calls at a U.S. port even 
        though the cargo may be destined for a foreign country), 24 
        hours before vessel loading in a foreign port,

  <bullet> Analyzing such information via the agency's Automated 
        Targeting System (ATS),

  <bullet> Inspecting any container about which ATS raised significant 
        questions, and

  <bullet> Developing close cooperative working relationships with the 
        governments of our trading partners through the Container 
        Security Initiative.

    The ATS is thus a central feature in determining which containers 
get inspected and in the working relationships that Customs is 
establishing with other Federal agencies and with other trading 
nations' Customs administrations.
    It is noteworthy that with international liner shipping, unlike the 
other transportation modes, the government strategy is to perform cargo 
security screening before the cargo is even loaded onto the 
transportation conveyance coming to the U.S. The ``24 Hour Rule'' has 
been implemented without major incident, and Customs has worked closely 
and cooperatively with industry to address those issues that have 
arisen. The Rule's importance is obvious to the security strategy 
described, and ocean carriers have supported Customs' strategic 
initiative and the Rule.
    Today ATS is populated with carriers' cargo manifest or bill of 
lading data, and it utilizes other government data. A significant 
pending question is whether the current 14 cargo manifest data elements 
are sufficient for the security task at hand. Earlier this year the 
complexities of this issue became obvious in the context of Customs' 
Trade Act cargo documentation regulations. Customs amended the cargo 
manifest regulations' regarding who the carrier should name as the 
``shipper'' on its bills of lading that are filed with the agency, out 
of a desire to capture information about the identity of an importer's 
``foreign vendor, supplier, manufacturer, or other similar party''. 
This particular approach to obtaining such information presented 
serious problems.\2\
---------------------------------------------------------------------------
    \2\ For a complete explanation of all the issues created by this 
proposal, the Council's petition that was submitted to Customs on 
February 2 can be found on the Council's website. 
www.worldshipping.org.
---------------------------------------------------------------------------
    The agency recognized the problem that the regulations created, 
suspended enforcement of that portion of the regulations, and announced 
that it would work with the industry to review these issues. In short, 
it acted in a most professional and responsible manner. What remain to 
be addressed, however, are some hard issues. While it appears clear 
that information about importers' ``vendors, suppliers, and 
manufacturers'' is not appropriately obtained by trying to change who 
should appear as a ``shipper'' on a transportation contract--a bill of 
lading, it is not so readily apparent how such information is best 
obtained by Customs if it is to be used in the ATS for security 
screening before vessel loading in a foreign port.
    Because this is an important issue that is likely to be addressed 
this year, I would like to offer some preliminary observations.
    One should start by recalling the terms of the law. Section 343 of 
the Trade Act requires:

        ``In general, the requirement to provide particular information 
        shall be imposed on the party most likely to have direct 
        knowledge of that information. Where requiring information from 
        the party with direct knowledge of that information is not 
        practicable, the regulation shall take into account how, under 
        ordinary commercial practices, information is acquired by the 
        party on which the requirement is imposed, and whether and how 
        such party is able to verify the information.''

    In short, the information of interest--an importer's vendors, 
suppliers or manufacturers--is clearly information within the ``direct 
knowledge'' of the importer, not the carrier. In fact, the importer 
today provides this information to Customs in an existing Customs data 
system in the merchandise entry process. The difficulty is that this 
information is not currently filed before vessel loading in time to be 
useful to ATS.
    When Customs wanted carriers' manifest information earlier than the 
formerly required time of vessel arrival at the U.S. port, the 
government established the 24 Hour Rule and required carriers to change 
their systems and processes to comply. The same logic might be applied 
by requiring shippers to provide Customs with their data before vessel 
loading. Although importers may not relish the idea of doing so, such a 
process is used for U.S. export cargo.
    The threshold issue is whether Customs needs the information about 
an importer's suppliers and vendors before vessel loading in order for 
ATS to become more effective. There is in fact an over-arching and 
broader question that underlies this issue and the effort to make ATS 
as effective a cargo security screening system as possible, namely: 
What information does the government need, from whom, when, filed into 
what information system? Clarity and agreement on this difficult but 
fundamental question will be important to understanding what gaps 
exist, what the objectives are, and how we can all determine how best 
to make the continued progress.
    The Trade Act regulations make it appear probable that shippers are 
going to be involved in measures to provide the government and the ATS 
more advance information about their cargo shipments before vessel 
loading. It is also apparent that carriers should not be made into 
conduits for transmitting to the government information they don't 
know, cannot verify, and could be penalized for if inaccurate.
    In addition to the language of the Trade Act, which indicates 
carriers should not be the parties filing this kind of information, 
there are other aspects of this issue that all sectors of the industry 
will need to consider. First, there is the issue of confidentiality. Do 
shippers want their supplier and vendor lists given to carriers, and 
filed in the public manifest system? Second, early carrier manifest 
filing requirements are becoming more prevalent with Customs 
administrations around the world. For example, Panama will soon be 
implementing an advance cargo manifest filing system very similar to 
U.S. Customs' system for every container transiting the Canal, 
regardless of whether Panama is the cargo's origin or destination. The 
measures taken here in the U.S. on this issue could easily become a 
precedent for other nations. Do shippers want their supplier and vendor 
lists broadly distributed via carrier manifests? Third, would such 
requirements apply to foreign-to-foreign cargo shipments that move on 
ships that call U.S. ports or are relayed in bond through U.S. ports? 
Because it is highly unlikely, for example, that a European importer of 
Latin American goods is going to supply the U.S. government with a list 
of its vendors and suppliers just because the ship calls at the Port of 
Miami, such a measure applied to such goods could have a substantial 
effect on vessel deployments, vessel calls at U.S. ports, and other 
service related issues.
    In short, Customs has addressed the immediate problem that existed 
in the drafting of the existing Trade Act regulations, but the agency 
and the industry have yet to determine how the underlying issues will 
be addressed.
B. Container Inspections
    Today, Customs uses the ATS system to screen 100 percent of all 
containers before they are loaded aboard a vessel bound for the U.S. It 
then has the ability to inspect, via physical de-vanning of a container 
or use of Non-Intrusive Inspection technology (gamma ray or X-ray), 
every container that raises a security question. As Customs has refined 
ATS, ocean container inspection rates have increased, from less than 2 
percent before September 11 to 5.4 percent according to the most recent 
reports. That means that Customs is now inspecting almost 400,000 ocean 
containers a year. We expect container inspections are likely to 
continue to increase. We believe that a numerical objective, however, 
should not be the goal. The goal should be to inspect 100 percent of 
all containers that ATS says warrant inspection, plus some random 
process designed to monitor and verify the selectivity techniques being 
used.
    How many of these inspections will be performed at U.S. ports and 
how many at CSI foreign ports of loading we cannot tell at this time.
    Finally regarding container inspections, Customs has stated that 
its goal is to establish radiation-screening portals that will perform 
radiation screening on 100 percent of all containers transiting U.S. 
ports. The implementation of this will be challenging, including 
addressing the screening of containers that are loaded onto on-dock 
rail cars and do not pass through the terminal gate, but the goal is 
clear and appears logical. We also note that some foreign ports are 
undertaking similar measures to protect international commerce and that 
the Port of Rotterdam is implementing a similar radiation screening 
system.
C. Container Security Initiative
    I began my testimony by discussing the Coast Guard's implementation 
of the new vessel and port facility security plan requirements, which 
the agency was instrumental in creating at the International Maritime 
Organization. The Coast Guard's strategy and its execution, as well as 
its communication and efforts working with the industry, have been 
excellent.
    Customs, however, has not had the benefit of a comparable 
international regulatory organization to work with, so Commissioner 
Bonner and his organization have worked with Customs administrations in 
other trading nations to develop the Container Security Initiative--a 
set of bilateral agreements designed to foster closer cooperation and 
more effective security screening of international commerce. It is also 
significant that the Department of Homeland Security has reached an 
agreement with the European Commission that can promote trans-Atlantic 
cooperation and coordination of container security initiatives in 
conformity with the CSI approach and objective. We welcome this 
development. The importance of CSI should not be underestimated. 
Protecting international trade requires international cooperation, and 
the Council hopes that all participating governments will implement 
these CSI agreements effectively and cooperatively. Of the 38 CSI 
ports, 18 are currently operational.
    CBP deserves a lot of credit for where it has taken this 
initiative, and while we recognize that many details of CSI have not 
been spelled out, we would urge the Committee to consider that the 
program is still in its developmental stage. Ocean carriers are fully 
supportive of these initiatives. In the event governments need to 
respond to a terrorist event in this industry, it seems likely that 
trade would be irreparably harmed if CSI agreements are not operational 
and well implemented
D. Technology and ``Smart'' Containers
    As discussed earlier, technology is being improved and deployed 
more extensively to enhance container security through non-intrusive 
container inspection technologies and through radiation detection.
    Government and industry also continue to examine technology that 
may be appropriate for application to containers themselves. Operation 
Safe Commerce continues to fund projects reviewing such possibilities. 
Customs and the Department of Energy continue to review these issues, 
as do technology manufacturers, shippers and carriers.
    The objective of this exercise is generally stated to be to make 
sure that containers are effectively sealed and that one can reliably 
detect if they have been tampered with in transit.
    The ``sealing'' portion of this exercise does not really involve 
sophisticated technology. It requires shippers to seal a container 
immediately upon securely stuffing the box with a high security seal. 
Electronic seals (e-seals) do not provide any more security in this 
regard than a high security manual seal, but they may have a role in 
enabling a more efficient way to verify seal integrity.
    Consideration of e-seals usually involves the application of Radio 
Frequency Identification (RFID) technology, and in fact many of the 
products and platforms being marketed as enhancing container security 
also rely on that technology. Recent announcements by the Department of 
Defense and major retailers concerning the usage of RFID tags on 
products have also spurred significant interest in the technology.
    It is important to keep in mind, however, that no international 
standard exist today for the application of RFID-based e-seals or for 
active, read/write RFID tags. Nor has a clear and appropriate 
delineation been drawn between the possible usage of RFID technology to 
address container security requirements and the possible usage of that 
technology to address supply chain management objectives. These are not 
trivial issues. The issues, the challenges, and the requirements 
involved in addressing the two are not the same. The purposes and the 
use are not the same. The technology, operational and information 
implications are different. A failure to clearly distinguish between 
security requirements and commercial supply chain management objectives 
will create confusion; will impede progress on these issues; and may in 
fact create significant security vulnerabilities.
    There is also the issue of selection of frequency or frequency 
bandwidth. It simply would make no sense to select a radio frequency 
for RFID platforms that is not publicly available in all major trading 
nations. And it would be of little value to the government and industry 
if the frequency that is eventually selected were deficient in terms of 
operational characteristics, such as requiring line of site to be read, 
producing false positives, etc.
    The WSC is actively participating in International Standardization 
Organization (ISO) working groups tasked with developing standards for 
RFID e-seals and tags, and has submitted several papers to the ISO 
identifying user requirements for e-seals and a proposed framework for 
the optional usage of RFID e-seals and tags.
    We have also presented this framework to CBP in response to its 
Request For Information (RFI) for ``Smart and Secure Containers''. We 
commend CBP for having reached out to affected parties to solicit their 
input in this first stage of what we hope will be a comprehensive and 
coordinated analysis of the issues involved in trying to identify 
technology's role in enhancing container security.
    One of the more important and difficult issues in this regard is 
understanding and analyzing the information infrastructure and systems 
issues necessary to support a technology, whether it be RFID, wireless 
or satellite based, including:

  <bullet> What information is generated, who is authorized to generate 
        it, and is that information necessary for security purposes?

  <bullet> Who collects the information?

  <bullet> What supporting infrastructure the technology requires, 
        where must it be located, and who operates it?

  <bullet> Who has access to the information?

  <bullet> What is done with the information?

  <bullet> What actions are to be taken, by whom, with respect to the 
        information?

  <bullet> What are the costs of the technology and its use, and who 
        incurs them?

  <bullet> How does the technology affect the operations of shippers, 
        carriers, and the relevant government agencies?

    The deployment of any such technology would involve many 
international supply chains, international operating systems, the need 
for cooperation in other national jurisdictions, and substantial costs. 
Consequently, it is essential that government and industry analyze all 
the issues to be sure that appropriate and clearly understood 
requirements are being defined and met, and that the requirements and 
technology are not going to be replaced and the necessary capital 
wasted in efforts to implement technology that is really not the best 
approach to the issue.
    Finally, there is the issue of how ``sensors'' might be applied to 
containers. Clarity will be needed on what should be sensed, and where. 
For example, is sensing more appropriately done at the port of loading 
through centrally operated sensing devices (as is done for radiation 
detection as discussed earlier) rather than equipping the world's 16 
plus million sea containers with individual sensors, which might be 
disabled by a terrorist loading the container?
    For devices installed on containers, there is also the issue of 
what kind of reading and information infrastructure is needed for these 
devices to work.
    For example, some question RFID-based technology platforms for 
container security application because of their dependence on an array 
of ground based readers at multiple yet-to-be defined points in many 
facilities, in many different countries, controlled by many different 
parties. Increasingly such RFID skeptics are considering whether 
satellite and/or wireless technologies may be a potentially superior 
way than RFID-based technology to address security requirements as they 
are developed. We do not yet know the answer, but these issues need to 
be addressed before decisions are made on the deployment of 
technologies, which will have significant cost and operational 
implications for customs administrations, shippers, carriers, and 
terminal operators around the world.
    In this regard, Undersecretary Hutchinson recently announced a 
significant and important change in the Department of Homeland 
Security. Responsibility for the issues of smart and secure container 
technology and systems has been moved from the Transportation Security 
Administration to the Border and Transportation Security Directorate, 
with Customs having a major role in implementation and with TSA having 
an advisory role. The BTS Directorate has also announced that it will 
soon be establishing a new consultative process with the industry to 
help consider and address the issues involved. It is not entirely clear 
at this time how the ongoing ``smart'' container analysis within 
Customs and within Operation Safe Commerce will be integrated into this 
process, but it presumably will be. We look forward to working with 
BTS, Customs and TSA on these issues and such a process.
E. Customs Trade Partnership Against Terrorism (C-TPAT)
    Secure container loading is the starting point, and arguably the 
single, most important point, in the container security process. It is 
also the most difficult to address because it involves millions of 
containers being loaded and sealed at tens of thousands of different 
locations in every country in the world. An ocean carrier is like the 
postman; it receives a sealed container for transportation with all the 
necessary cargo documentation regarding the shipper, the consignee, and 
the cargo, but it has no first hand knowledge of what has been loaded 
inside. Unless the carrier is aware of information that arouses its 
suspicion about a particular container, it has little choice but to 
trust what shipping documents state is in the container and that the 
loading process was secure.
    The Customs Trade Partnership Against Terrorism (C-TPAT) program is 
one way to try to effect improvements in this regard, but this is a 
substantial challenge. We expect that the Bureau of Customs and Border 
Protection (CBP or Customs) will continue to try to expand the 
voluntary C-TPAT program into an initiative that includes manufactures 
and suppliers outside the United States, and that it will continue its 
efforts to validate compliance.
F. Export Cargo Regulation
    Later this year, the Census Bureau is expected to issue new 
regulations requiring U.S. exporters to file an electronic Shipper's 
Export Declaration (SED) for export vessel cargo directly to the 
government via the Automated Export System (AES) no later than 24 hours 
prior to vessel departure. Once those regulations are in place, a 
carrier may not load export cargo without first receiving from the U.S. 
exporter either the electronic SED filing confirmation number or an 
appropriate exemption statement. There are expected to be several 
exemptions from the advance SED export cargo filing requirement 
depending on the value of the shipment, the size and nature of the U.S. 
exporter, and possibly also the types of cargo.
G. Imported Food Security
    The United States imports approximately $50 billion worth of food 
products per year. The Public Health Security and Bioterrorism 
Preparedness and Response Act of 2002 requires food facility 
registration and requires that prior notification of certain imported 
food be provided to the U.S. Food and Drug Administration (FDA) before 
its arrival in the United States. The implementing regulations require 
facilities throughout the world that produce or hold FDA-regulated food 
products shipped to the United States to register with the FDA and have 
a U.S. agent. Second, they require every FDA regulated food shipment to 
file detailed information about the product prior to its arrival in the 
United States, and they identify carriers as the parties through whom 
the government will stop cargo that is not compliant with the new 
rules.
    This is a complicated and extensive new regulatory system that is 
being developed, and we would like to commend Customs and Border 
Protection for their extensive efforts to assist FDA in making these 
new regulations as workable as possible.
V. Contingency Planning
    The Department of Homeland Security is now one year old, and is 
dealing with a very substantial number of issues. One of the issues 
that we hope will be high on the list of priorities for the Department 
is the unpleasant topic of contingency planning, or how would trade be 
allowed to continue in the event of a terrorist attack on the industry? 
The issue first requires clear, agreed and practiced role definition 
within and among the various U.S. government agencies. Second, it 
requires clear understandings and practiced scenarios with the 
governments of our trading partners who presumably will have just as 
significant an interest and need to address the continuation of 
commerce as the U.S. government. Third, the implementation of any 
response scenario would also involve substantial activity by the 
private sector--importers, exporters, carriers, brokers, terminal 
operators, and others. Having some kind of dialogue and road map of 
expectations and requirements would be very helpful to the private 
sector. The World Shipping Council's members are fully prepared to 
support and participate in any such endeavors.
VI. Conclusion
    Mr. Chairman, the above is a brief description of the major 
security enhancement initiatives as they affect international liner 
shipping. While liner shipping is the largest component of our maritime 
commerce, it is important to recognize that there are many other 
maritime sectors that are not addressed herein, including the passenger 
cruise industry, the bulk and tanker shipping sector, the inland 
waterway industry, break-bulk cargo, and small vessels calling at small 
facilities. Each sector has its separate and distinct security 
challenges.
    In the liner shipping sector, enhancing the security of America's 
commerce has, in many respects, brought carriers, shippers, 
intermediaries and government closer together in addressing a common 
threat and dilemma. Simply hoping you are not the victim cannot be the 
approach, because a successful terrorist attack would make us all 
victims. It would affect every supply chain, every carrier, every port, 
and every nation's trade and economy.
    While trade and commerce, like many aspects of our society, remain 
vulnerable to premeditated criminal, terrorist activity, significant 
progress has been made in the last year to enhance the protection of 
international trade from the risk of terrorist attack. But this is a 
work in progress that must continue. Each of the initiatives discussed 
above, involving ships, port facilities, people, cargo security, cargo 
screening, inspection, and risk assessment capabilities is an important 
part of a multi-layered effort to enhance the security of international 
commerce. It is a complex and multi-faceted security infrastructure 
that is being built, but we now live in a world where it must be built, 
and all sectors of industry and all trading nations must work together 
to help create it.
    We should also recognize that the security infrastructure we are 
trying to build to prevent terrorists from using or attacking 
international maritime trade needs to be robust enough to function as 
the security infrastructure that will be used to keep trade flowing in 
response to a transportation security incident.
    The security infrastructure thus must not only be effective in 
design, but all the players' roles and responsibilities in that system 
should be clear. Ambiguity in the face of difficult questions is quite 
understandable, but it neither advances effective security, nor helps 
government or industry understand what it needs to do to adapt to meet 
these evolving needs.
    We are making substantial progress in enhancing the security of 
international trade. The system is certainly more secure now than it 
was two years ago. It will be even more secure next year. We fully 
recognize that it is a difficult challenge, and that industry and 
government must work closely together to meet the challenge. There are 
no good alternatives to open, constructive dialogue and the joint 
development of effective solutions to shared challenges. We would like 
to state for the record that the agencies responsible for maritime 
security, particularly the Coast Guard and Customs and Border 
Protection, have consistently worked closely with the industry in these 
efforts. The international liner shipping industry fully understands 
and supports working as closely as possible with the government to make 
commerce more secure in a way that is sustainable and does not unduly 
impede trade.

    Senator Breaux. Thank you, Mr. Koch.
    Mr. Gary LaGrange, Gary, welcome, glad to have you here.

            STATEMENT OF GARY P. LaGRANGE, EXECUTIVE

           DIRECTOR AND CEO, BOARD OF COMMISSIONERS,

                      PORT OF NEW ORLEANS

    Mr. LaGrange. Thank you, Mr. Chairman, it's a pleasure, 
indeed, and to all the other Members of the Committee.
    And, Senator Nelson, I assure you, in Louisiana, at the 
Port of New Orleans, we share the same sentiments with you 
about Cortez and Limon and all of the other many Central 
American and Caribbean ports.
    My first day on the job at the Port of New Orleans as CEO 
was September 10, 2001, and I can assure you that, on that day, 
when I showed up in New Orleans to take the job, security--port 
security, in particular--wasn't on the top 20 list of anything 
that we needed to accomplish. Since that time, all of our lives 
have changed in many respects and in many ways.
    Senator Breaux, I was fortunate enough to sit in and to 
testify at a Committee hearing that you had at the Port of New 
Orleans early on in this venture. And since that time, I do 
have to admit much has happened. But not enough has happened, 
and that's for the simple reason that adequate wherewithal has 
not been provided, and we basically have been playing 
centerfield on one leg as best we can, and I think that's true 
from the top all the way down to the bottom.
    The implementation aspects of things that we have--have 
occurred not so much from a Federal level, where we've received 
approximately $8 million in the first two rounds out of a need 
for $60 million identified in our vulnerability assessment; an 
assessment, which, by the way, was ongoing at the time of 9/11, 
copycatting the Florida Ports Council, if you will, who had 
done an excellent job in taking a leadership role of what to do 
and what to identify.
    Where it has happened and where it has occurred is really 
in providing more of a coordinated role, more of a vigilant 
role, more of a role of being acknowledged and aware of what's 
going on around you. There have been a number of agencies, a 
number of groups that have been formed, which we participate in 
on a weekly basis. The United States Coast Guard Area Maritime 
Security Executive Committee, the Region 1 Area Security 
Initiative membership, the FBI Joint Anti-Terrorism Task Force 
membership, all of those groups meet at least on a twice-a-
month basis, and we're actively involved with our 90-plus 
harbor policemen and our security department, and working in a 
coordinated vein with them.
    As I said, much has happened; however, not enough has 
happened. The $8 million that we have received from the Federal 
level is tantamount to receiving a tube of toothpaste, but no 
toothbrush. Basically, we have a situation where we've had four 
perimeter gates, as an example, to our new uptown docks and our 
new container terminal that's just been completed at a cost of 
$120 million, and those four gates, which were partially funded 
are absolutely meaningless to us at this point, because we, in 
essence, got the funds that we needed for approximately one 
third of each gate. One third of each gate just simply doesn't 
serve the purpose that we need.
    Much of our activities are self-funded. Twenty-five percent 
of the Port of New Orleans budget now is dedicated strictly to 
maritime safety and security, anti-terrorism efforts. We've 
sent officers to anti-terrorism school in Georgia. They've come 
back. We've created an anti-terrorism division, which is 
performing quite well, within the port. But all of that is not 
without--it's not free. Five and a half million dollars a year 
has been added to our budget from an operational standpoint 
alone, as well as another million to a million and a half in 
operational expenses for equipment and so on and so forth on an 
annual basis.
    Where does the money come from? It's not coming from the 
Federal Government. It comes from our ability to build future 
infrastructure that we need to placate the original meaning and 
idea of a port, to facilitate commerce and the movement of 
commerce. And in doing that, it's a significant part, much like 
Florida, at the Port of New Orleans, which is at the mouth of 
the Mississippi River, it serves 32 states. Sixty-two percent 
of the consumer-spending public in the United States is 
represented via the Mississippi River and its tributaries. 
Along with that, 62 percent of all grain exported out of the 
United States goes through the Port of New Orleans, and 19 
percent of all petrochemical products that come into the United 
States come into the Port of New Orleans, on the import side.
    Senator as you have mentioned and alluded to earlier, on 
Mardi Gras weekend, on February 21, Saturday morning, 6 a.m., 
in a fog-shrouded Mississippi River, there was a collision with 
a container ship coming in and an oil fuel supply boat on the 
outbound side. The supply boat cut across the bow, 
unfortunately, of the container vessel, immediately sank; and, 
unfortunately, five lives were lost in that collision.
    That is something that possibly could have been prevented. 
I, for one, believe that it could have, with the completion of 
the VTS. That VTS system is in progress, and it's being 
completed, and only two radar sites remain to be completed with 
it; and, of course, all of affiliated tests that go hand-in-
glove with it.
    In the Mississippi River, over 5,000 ships a year come in 
to the river, and there are over 400,000 barge movements, which 
go hand-in-glove to placate the inland ports at Pittsburg and 
Louisville and Chicago and St. Louis and Memphis and Tulsa.
    All of that said, 2 days after the river reopened, 
Secretary Ridge was in the Port of New Orleans office 
commemorating the first anniversary of him becoming Secretary 
of Homeland Security. And the question begged by the 
Secretary--that was only a small 140-foot vessel; what if it 
was a 3,000-passenger Conquest-size cruise ship instead? What 
would the ramifications have been? Or, better yet, as we gazed 
out of my office at the Crescent City Connection, the bridge 
that connects--goes over the river in downtown New Orleans--
what if some bird shows up and decides to bring these bridges 
down? What happens to the movement of commerce into inner-
America, mid-America and up into the Northeast? Those are 
questions that are yet today unanswered, and I'm not sure that 
we really want the answer.
    As I said, it's an integral role. We feel as though New 
Orleans is in an integral position. But so is every other port. 
The port director from Long Beach, California, just mentioned 
to me yesterday at a meeting, two private airplanes collided 
over the entrance to the Long Beach Harbor. Thank God it didn't 
stop traffic. Thank God it didn't stop the waterways and the 
movement of commerce. But at any given port anywhere--your port 
in Miami, Everglades, Canaveral, Tampa, any other them--you 
close that harbor, and you've shut off a significant amount of 
commerce to a lot of people.
    Senator Nelson. [presiding]. The Skyline Bridge----
    Mr. LaGrange. Yes, sir.
    Senator Nelson.--over the mouth, coming into the Port of 
Tampa.
    Mr. LaGrange. Exactly. How well we recall.
    [The prepared statement of Mr. LaGrange follows:]

  Prepared Statement of Gary P. LaGrange, Executive Director and CEO, 
              Board of Commissioners, Port of New Orleans
    I want to thank Chairman McCain and Senator Hollings for calling 
this hearing and continuing to shed light on the issues of port 
security. I also would like to thank Senator John Breaux for his 
tireless support of the Port of New Orleans and the maritime industry 
throughout the United States. We will deeply miss Senator Breaux's 
advice and counsel when he leaves the Senate at the end of this year.
    Since reporting to the Committee two years ago, the Port of New 
Orleans, along with many other U.S. ports, has made significant port 
security enhancements. The Port has accomplished all previously 
enumerated goals and objectives that could be undertaken 
administratively by its staff. The following security enhancement and/
or regulatory compliance requirements have been completed:

  <bullet> Increased Security to Heightened MARSEC/National Alert 
        Levels

  <bullet> Federal Grant Application Initiatives

  <bullet> Federal Grant Project Award Management

  <bullet> Port Vulnerability Assessment

  <bullet> Harbor Police Department Anti-Terrorism WMD Manual

  <bullet> Increased Cruise Terminal and Waterside Security

  <bullet> U.S. Coast Guard Area Maritime Security Executive Committee 
        Membership

  <bullet> Region One Urban Area Security Initiative Membership

  <bullet> FBI Joint Anti-Terrorism Task Force Membership

  <bullet> Immigration and Customs Enforcement (ICE) ``Operation Check 
        Down'' Initiatives

  <bullet> MTSA Facility Security Plan

  <bullet> Metal Detection Equipment Enhancements

    The Port has completed or is in the process of completing necessary 
infrastructure enhancements with funding assistance made available by 
the Federal Government. The Port has dutifully absorbed all personnel, 
operations and maintenance costs related to security improvements, 
including overtime for heightened level alert periods. The impact of 
increased security costs on port authorities is significant and must be 
addressed. It is the primary reason that Federal funding assistance 
must not only be continued, but increased to meet the level of funding 
needed to address security concerns demonstrated by the Port 
Vulnerability Assessments completed by ports throughout the United 
States and submitted to the U.S. Coast Guard. These assessments 
document U.S. ports' numerous areas of weakness and, consequently, 
their susceptibility to criminal and terrorist activities. The 
preparation, distribution and review of these assessments, albeit as 
protected SSI (Security Sensitive Information) documents, may actually 
result in increased port vulnerability, if the steps required to 
mitigate identified weaknesses are not taken within a ``reasonable'' 
period of time. Therefore, Congress and the Bush Administration should 
act immediately to provide funding at levels sufficient to enable port 
authorities to meet the increased financial burden associated with 
increased security costs as well as the mandates of the Maritime 
Transportation Security Administration which become applicable on July 
1, 2004.
    As stated, during the past two years, the Port of New Orleans has 
accomplished many of the goals listed in its previous report. To date, 
the Port has applied for more than $33 million in Federal grant 
funding. The following awards have been received

TSA I             Upriver Gate Access   $3.5 million     Project ongoing
TSA I             Cruise Terminal       $184,450         Project
                   Fencing                                completed
TSA II            Cruise Terminal       $600,000         Project ongoing
                   Lighting/Monitoring
TSA II            Signs, barricades,    $50,000          Project ongoing
                   barriers
TSA II            Metal detectors       $15,000          Project
                                                          completed
DHS               Upriver Perimeter     $3.4 million     Project ongoing
                   Enhancements
DOJ/Tech.         Video                 $52,000          Project
                   Teleconferencing                       completed
DOJ/COPS          Hiring Grant          $212,351         3 Officers over
                                                          3 years
DOJ/COPS          Overtime Grant        $37,500 Req.     -0- Award
TSA II            8 Projects            $5.5 mil. Req.   -0- Award
 

    The Port of New Orleans anticipates contributing matching funding 
for these projects totaling approximately $1.2 million. (This is in 
addition to an annual Safety and Security Division operating budget of 
$ 5.5 million and a capital equipment budget of $275,000.) The Port 
intends to apply for additional funding through the Round III Federal 
grant initiative. However, the President's proposed Fiscal Year 2005 
budget of $46 million for port grant funding is not sufficient to meet 
port security funding requirements. It is worth noting, that this 
figure represents a significant reduction in available grant funding 
because infrastructure improvements or new construction projects, which 
were included in previous rounds, are now listed as ``ineligible'' in 
the Round III guidelines. Nearly $5.4 million in security enhancements 
were not funded in the Port's previous grant application. This amount 
alone comprises eight percent of the President's proposed budget. None 
of the grant projects included in Round III attempts to address the 
prohibitive costs of providing infrastructure improvements and 
associated equipment, maintenance and staffing costs (as opposed to 
installation or replacement enhancements) which result directly from 
elevated security requirements.
    The American Association of Port Authorities estimates that $400 
million in funding is called for in FY `05. The latest U.S. Coast Guard 
forecast estimates the cost for total MTSA compliance to be $1.125 
billion for the first year and $5.4 billion over the next 10 years.
    Numerous administrative or procedural MTSA mandates must also be 
addressed and clarified. The most glaring example is the TWIC 
(Transportation Worker Identification Card) concept for ports. 
Information concerning the status of the TWIC initiative is all too 
often illusive, sketchy and most of all inconsistent. The Port of New 
Orleans, like many ports, has deferred initiating a card access project 
because the ``start-up'' (staffing for processing, distribution, 
enforcement and administration); equipment; and software costs are 
extremely high and this is without the assistance of a paid consultant. 
A recent article in the Winter, 2004, Port Illustrated discusses the 
TWIC pilot program in Wilmington, Delaware. The pilot program began in 
July, 2003, and is scheduled to run for 15 months, extending beyond the 
July, 2004, MTSA compliance deadline, and leaving ports without firm 
guidelines. To date, no directives or guidelines which address the need 
or requirement for a biometric component of TWIC have been issued. As a 
result, ports will be forced to purchase more expensive card access 
systems which will be able to accommodate features which, ultimately, 
may not even be required.
    The Port of New Orleans will submit a grant application for all 
eligible unfunded security initiatives, ranging from training and 
exercises to communication system upgrades and patrol vessels used to 
supplement Coast Guard patrols and response. The price tag for these 
initiatives is currently being estimated at approximately $50 million 
dollars.
    Port executives remain committed to securing additional funding for 
security initiatives from both self-generated revenues and Federal 
funding sources. Now, more than ever, port executives truly understand 
that the safety and security of our Nation's waterways will forever be 
a paramount component of port operations.
    The vessel collision that occurred at the mouth of the Mississippi 
River on February 21 of this year provides a poignant example of the 
potential economic havoc that could be visited upon this Nation by a 
terrorist act. In this unfortunate incident, the sinking of a 
relatively small vessel in the busy Southwest Pass resulted in a four-
day closure of the main international shipping channel into the 
Mississippi River and the delay of 158 ocean-going vessels. The closure 
was absolutely necessary to conduct search and rescue and recovery 
operations followed by removal of the vessel. Our thoughts go out the 
families of the five seamen who lost their lives.
    After removal of the sunken vessel, the backlog of ship traffic was 
cleared and shipping returned to normal within three and a half days. 
Estimates are that this incident caused approximately $17 million in 
direct losses and $68 million in overall negative economic impacts. Not 
only were ships delayed, but three container cargo ships and three 
cruise vessels had to be diverted to other ports. Thousands of 
passengers were bussed to other Gulf Coast ports which were ill-
equipped to handle them on such short notice. The cruise lines incurred 
thousands of dollars in ground transportation costs and reimbursements 
to passengers for the loss of their vacations.
    With more than 5,000 ocean-going vessel calls on the Mississippi 
River annually, the importance of this waterway system to the Nation's 
economy is readily apparent. The nation's economy would experience 
severe consequences from a prolonged closure of the Mississippi River 
to deep draft navigation. In 2002, the ports of the Lower Mississippi 
River from the Gulf of Mexico to Baton Rouge handled 227 million tons 
of foreign waterborne commerce valued at nearly $40 billion and 
representing 18.1 percent of the Nation's international waterborne 
commerce. American producers exported 27 percent of total U.S. exports 
out of lower Mississippi River ports.
    Included in this total are agricultural products from 17 midwestern 
states exported from the 10 grain elevators located on the lower 
Mississippi River, making up more than 62 percent of total U.S. Grain 
Exports. More than 92 million tons of petroleum and petroleum products 
are imported to Louisiana facilities on the Mississippi River system, 
comprising nearly 16 percent of all U.S. waterborne imports of 
petroleum and related products.
    This collision and its consequences clearly demonstrates the need 
for the timely completion of all elements of the of the Vessel Traffic 
Service (VTS) on the lower Mississippi River to facilitate safe and 
secure vessel operations. Ports and industries along the lower 
Mississippi are poised to reap the considerable benefits of the new 
state-of-the-art VTS being implemented by the U.S. Coast Guard. All 
facets of the maritime community have been involved in this 
unprecedented multi-year cooperative venture with the Coast Guard. The 
system, for the most part, is up and running on a test basis out of the 
Coast Guard's Vessel Traffic Center on the river front in New Orleans. 
Two more radar sites must be installed and the system must be subjected 
to formal testing procedures, involving both the computer simulation 
and real world tests with a large number of vessels on the waterway 
equipped with VTS transponders.
    VTS New Orleans will enhance both safety and security of the 
largest port complex in the world. The Coast Guard will be able to 
identify and track the movements of all ocean-going vessels and most 
other commercial vessels moving on the lower Mississippi. Tracking will 
begin prior to a ship's entrance to the river and will extend up river 
beyond the limit of deep draft navigation at Baton Rouge. Mariners will 
be given a powerful new tool to assist safe navigation in the busiest 
waterway in the Nation. Existing radar only provides a very limited 
view of the river and is particularly hampered by the river's twists 
and turns. Mariners depend on extensive use of radio communication with 
other vessels to determine navigation conditions, but radio 
communication, as seen in the recent vessel collision, is not always 
reliable. VTS will provide a detailed, real-time picture of vessel 
movements on the waterway, including vessel identification, as well as 
provide a method for communicating waterway conditions and special 
alerts to all mariners. VTS will not be blinded by bends in the river 
or by fog or darkness.
    We have to thank the Coast Guard for its perseverance in bringing 
VTS to our ports and waterways, and Louisiana Senator John Breaux for 
his tireless championing of VTS, especially for his insistence on 
expediting VTS carriage requirements for vessels. A final notable 
attribute of VTS is that as currently programmed it comes at no cost to 
the Port. The Port's emergency response vessel, which assists the U.S. 
Guard and responds to every level of waterway emergency and service, is 
scheduled to be have the system installed at no cost to the Board.
    In conclusion, now is not the time for Congress to lose its zeal in 
the war against terrorism on the domestic front. Extending the deadline 
for compliance with security measures without providing necessary 
additional funding is not the answer. The nation's ports, like its 
airports, simply cannot by themselves bear the financial burden of 
added security costs, especially during these volatile economic times. 
From the beginning of this regulatory process, port executives have 
pleaded that no security mandates be issued without the proper funding. 
The mandates are here. Please ensure that adequate funding is too.

    Senator Nelson. Thank you, Mr. LaGrange.
    Mr. LaGrange. Thank you, sir.
    Senator Nelson. Dr. Carafano?

              STATEMENT OF DR. JAMES JAY CARAFANO,

  SENIOR RESEARCH FELLOW, DEFENSE AND HOMELAND SECURITY, THE 
                      HERITAGE FOUNDATION

    Dr. Carafano. Thank you. I have a lengthy statement, which 
I've submitted for the record, which I'd just like to briefly 
summarize.
    The Heritage perspective of our research agenda is to 
always look at the strategic problem, because we think this is 
going to be a long, protracted war. And I actually think we 
could take a lesson from the Cold War here. You need the same 
kind of strategy, and it's got to have three parts, and you 
have to have offense and defense--one, because, you know, 
you've got to take the initiative; two, the bad guys are always 
going to get through, so you have to deal with the leakers. 
But, at the same time, you have to continue to grow the 
economy. And so if you have a strategy that doesn't promote 
economic growth, then you have a failed strategy, because 
that's what enables you to endure and win in a protracted 
conflict while you ride the other guy into history. And the 
third is, you have to protect civil liberties and privacy at 
the same time, because that's the foundation of stability of 
the country. And, in essence, that's what you're fighting for.
    And our agenda says, basically, our research looks at it, 
and if you don't have a solution, a security solution that does 
all three--security, economic growth, and protect civil 
liberties and privacy--then you have the wrong answer. Go back 
and start over.
    And so with that in mind, what I tried to do was to briefly 
look at the different efforts in the maritime security area, up 
against the national security strategy, and look and see where 
there were questions, concerns, or problems that I wanted to 
highlight to the Committee.
    Before I do that--by definition, these are negative kind of 
comments, because I'm looking for gaps and holes. And I don't 
want to belittle or neglect the great work that DHS has done. I 
think they've made remarkable progress in the last year. I 
think the guys on the ground are terrific. I mean, in all the 
ports I've been to--I was in Miami recently, and I walked the 
line at the cruise-ship terminal with a young Coast Guard 
officer, and every place you went, every person that we talked 
to, no matter what their badge was, no matter what patch they 
had on their shoulder, he knew every one of those guys by their 
first name. And it's clear that on that pier, those people are 
working together and cooperating and are concerned about 
security.
    And I'd also--I think--don't think we can neglect the great 
work that this Committee has done. I think the MTSA act has 
been a great foundation for establishing a homeland security 
program.
    I'd just like to very briefly highlight some of the points 
that I identify in the testimony. One of the components in the 
MTSA act was a requirement for--within the Department of 
Transportation, to examine and certify a means of providing 
secure commerce and transport. That doesn't necessarily mean 
regulatory means. It could be alternatives to the structure 
that we have with CSI and C-TPAT and these other things. And 
that's not to say that they're bad, but I think that we ought 
to have something in the Department that's looking at 
alternative ways for--to secure intermodal transportation.
    First of all, it's going to take years for the whole CSI 
system to be put in place. And even then, we don't really know 
if it's going to work. Second is, you know, we're not--there's 
no--we have no confidence that regulatory systems are going to 
keep up with economic and technological developments. Other 
people could come up with better, faster, and cheaper ways to 
do this. And, third, I think we really have to think about the 
day that something catastrophic does happen, because we'll do 
exactly what we did with the airlines; we'll close every port 
in the United States down, and commerce will grind to halt. And 
if we don't have plans and programs and public/private plans in 
place to figure out how we can get Wal-Mart goods going again, 
not just to get the economy rolling, but to get people the 
confidence that this Nation is still going on, then we're going 
to have a problem. So I do think that we need to look at 
alternatives for secure intermodal security that the private 
sector could propose, that DHS could validate, and that could 
either be used or put on the shelf for times of emergency.
    Another area that we need to look at is law enforcement. 
How can we buildup law enforcement capacity in the maritime 
domain? And just one issue I'd like to point out very quickly 
is some great initiatives in the Coast Guard. Sea marshal 
program, great initiative. Also, if you look at their Maritime 
Security Office, they've done a lot more, in terms of using 
their investigators for counterterrorism and security issues. 
But, in either case, they have human capital programs. There 
aren't development programs, there aren't ways to grow and 
maintain these people. And there's no plan on how they really 
integrate with the other law enforcement activities in DHS. You 
know, for example, for a maritime security officer--
investigative officer, you have to be in place 20 months. But 
you don't have to be an investigator for 20 months; you could 
be a safety officer for 19 months, and an investigator for one. 
Only 5 percent of the investigators do a follow-on assignment, 
so all the expertise that they gain is really lost. So I do 
think that there is work to be done, in terms of looking at the 
law enforcement capacity that we have available in the maritime 
realm, and how we could expand that.
    Another area is unity of effort at the ports. The port 
captain, the port authority director, and the Customs 
enforcement person all have clear responsibilities. In most of 
these ports, they all have different command posts, so I'm not 
really sure how we have unity of effort. I'm not really sure we 
have a plan that really looks at, Do we need to bring these 
guys into one command post? Do we need to have redundant 
command posts? Do we need to have virtual command posts? And 
have we really looked at how we could enhance that?
    And the final point I'd just like to make is on 
organization. I mean, when we created Department of Defense, 
what became the Department of Defense in 1947, I mean, 
everybody knew we weren't going to get it right. You know, we 
went back in 1949, and we passed a law that kind of cleaned up 
the bill--the Department a bit. We missed some of the hard 
issues, like jointness. And it only took us 50 years to get it 
right after that. I think everybody should have an expectation 
that we need to go back at some point and rethink the 
Department of Homeland Security and see if we really have it 
right. And I think the area of maritime security is clearly one 
that should be looked at.
    I mean, one of the issues that I've found is, one of the 
reasons why I think the pieces all don't quite come together, 
is, we don't really have a true national maritime security 
strategy. And you need a national strategy to really help you 
make the hard choices. Do I need to put more money into the 
port security grants, or is that money better spent on 
Deepwater? And I don't think it's--unless we have that, that we 
really can move forward in a very proactive and systematic way.
    And to the question of--we have TSA, we have ICE, we have 
Coast Guard and Department of Defense. All potentially have a 
big role here. Do we really have the roles and missions right? 
Do we really have somebody who we can put our finger on and 
just say, ``You're in charge of making this happen?'' That's a 
tough thing, but I think that eventually that's an issue we 
need to go back and revisit.
    Thank you.
    [The prepared statement of Mr. Carafano follows:]

 Prepared Statement of Dr. James Jay Carafano, Senior Research Fellow, 
                        The Heritage Foundation
    Mr. Chairman and other distinguished Members, I am honored to 
testify before the Committee today.\1\ Appraising the status of 
national efforts to enhance maritime security is a vitally important 
task. In my testimony, I would like to assess the progress that has 
been made in each of the areas related to implementing the national 
homeland security strategy, examine organizational issues that will 
affect the long-term development of a national maritime security 
regime, and reconsider the need for standards and metrics to evaluate 
preparedness and guide future efforts and investments.
---------------------------------------------------------------------------
    \1\ The Heritage Foundation is a public policy, research, and 
educational organization operating under Section 501(C)(3). It is 
privately supported, and receives no funds from any government at any 
level, nor does it perform any government or other contract work. The 
Heritage Foundation is the most broadly supported think tank in the 
United States. During 2003, it had more than 200,000 individual, 
foundation, and corporate supporters representing every state in the 
U.S. Its 2003 income came from the following sources:

        Individuals 52%
        Foundations 19%
        Corporations 8%
        Investment Income 18%
        Publication Sales and Other 3%

    The top five corporate givers provided The Heritage Foundation with 
5 percent of its 2003 income. The Heritage Foundation's books are 
audited annually by the national accounting firm of Deloitte & Touche. 
A list of major donors is available from The Heritage Foundation upon 
request. Members of The Heritage Foundation staff testify as 
individuals discussing their own independent research. The views 
expressed are their own, and do not reflect an institutional position 
for The Heritage Foundation or its board of trustees.
---------------------------------------------------------------------------
The Challenge--Consequences, Size, and Scope
    There are three reasons why the subject of maritime security 
requires national attention.

  <bullet> First, the importance and vulnerability of the maritime 
        domain cannot be overestimated. As you well know, 95 percent of 
        U.S. overseas trade traffics the maritime domain. In addition, 
        many major population centers and critical infrastructure are 
        in proximity to U.S. ports or accessible by waterways. Maritime 
        security also has a critical national security dimension.\2\ 
        The economic, physical, and psychological damage that might 
        result from a significant terrorist attack targeting maritime 
        commerce or exploiting America's vulnerability to strikes from 
        the sea \3\ is difficult to estimate. The September 11 
        terrorist attack on New York incurred well over $100 billion in 
        losses to the U.S. economy alone.\4\ Given the Nation's 
        overwhelming dependence on ocean-going commerce, a similar 
        sudden, unexpected attack in the maritime domain might easily 
        exceed these costs. The United States lacks sufficient means to 
        respond to maritime attacks with catastrophic consequences.
---------------------------------------------------------------------------
    \2\ The overwhelming bulk of American military power is still moved 
around the world by ship. Most military supplies and hardware move 
through only 17 seaports. Only four of these ports are designated 
specifically for the shipment of arms, ammunition, and military units 
through DOD-owned facilities. For an overview of the military's 
reliance on ports and associated security risks, see U.S. General 
Accounting Office, ``Combating Terrorism: Preliminary Observations on 
Weaknesses in Force Protection for DOD Deployments Through Domestic 
Seaports,'' GAO-02-955TNI, July 23, 2002. See also U.S. General 
Accounting Office, ``Combating Terrorism: Actions Needed to Improve 
Force Protection for DOD Deployments Through Domestic Seaports,'' GAO-
03-15, October 2002, pp. 5-10.
    \3\ For a discussion of threats, see James Jay Carafano, ``Budgets 
and Threats: An Analysis of Strategic Priorities for Maritime 
Security,'' Heritage Foundation Lecture No. 791, June 16, 2003, at 
www.heritage.org/Research/HomelandDefense/HL791.cfm.
    \4\ Estimates of the damage wrought by the 9/11 attack vary 
depending on the criteria used. Insurance Information Institute set the 
initial cost at $40 billion. Insurance Information Institute, 
Catastrophes-Insurance Issues-Part 1 of 2, January 9, 2002, np. A study 
by the Federal Reserve Bank of New York put the cost at $33-36 billion. 
The Federal Reserve Bank's estimate included only immediate earning 
loses, property damage, and clean-up and restoration costs through June 
2002 and did not cover long-term productivity and tax revenue losses. 
Jason Bram, et al., ``Measuring the Effects of the September 11 Attack 
on New York City,'' FRBNY Economic Policy Review, Vol. 8, No. 
2(November 2002), p. 5. The City of New York Comptroller set the total 
economic impact on the city at between $82.8 and $94 billion. 
Comptroller, City of New York, One Year Later: The Fiscal Impact of 9/
11 on New York City (New York: City of New York, September 4, 2002), p. 
1. The U.S. General Accounting Office reported that it believed the 
most accurate assessment places the total direct and indirect costs at 
$83 billion. U.S. General Accounting Office, Impact of Terrorist 
Attacks on the World Trade Center, GAO-02-7000R, May 29, 2002, p. 2. In 
addition, Wilbur Smith Associates estimated the long-term costs of the 
9/11 attacks resulting from reduced commercial aviation range from 
$68.3 to 90.2 billion. Wilbur Smith Associates, ``The Economic Impact 
of Civil Aviation on the U.S. Economy--Update 2000,'' (2002).

  <bullet> Second, the size of the maritime security challenge is as 
        daunting as the terrible consequences of a serious attack. The 
        figures often cited are well-rehearsed: maritime security 
        involves hundreds of ports, thousands of miles of coastline, 
        tens-of-thousands of commercial and private craft, and millions 
        of shipping containers. Even these figures, however, do not 
        describe the magnitude of the maritime domain, which is truly 
        global in nature, encompassing every ocean and the peoples and 
        property of many nations.\5\ Current initiatives, even when 
        fully implemented, may be inadequate to address the global 
        challenges of maritime security.
---------------------------------------------------------------------------
    \5\ See, for example, Daniel Y. Coulter, ``Globalization of 
Maritime Commerce: The Rise of Hub Ports,'' Globalization and Maritime 
Power, ed. Sam. J. Tangredi (Washington, D.C.: National Defense 
University Press, 2002), pp. 133-142.

  <bullet> Third, maritime security is truly a complex strategic 
        problem encompassing a physical domain, land-based critical 
        infrastructure, intermodal means of transportation, and 
        international supply chains that covey goods, services, and 
        passengers. The National Strategy for Homeland Security, issued 
        by the Bush Administration in July 2002, identified six 
        critical mission areas. These areas were established to focus 
        Federal efforts on the strategy's objectives of preventing 
        terrorist attacks, reducing America's vulnerabilities to 
        terrorism, and minimizing the damage and recovering from 
        attacks that do occur. The components of maritime security cut 
        across each of these functions.\6\ Only a strategic solution 
        can provide the comprehensive regime required to address such a 
        complex strategic problem. The United States still lacks such 
        an adequate, overarching approach to the challenges of maritime 
        security.
---------------------------------------------------------------------------
    \6\ White House, National Strategy for Homeland Security, 2002, pp. 
15-46.

    While these challenges are indeed daunting, I would like to start 
off by commending Secretary Ridge and the entire Department of Homeland 
Security (DHS) on the work that has been done over the last year in the 
area of maritime security. The war on terrorism is likely to be a long, 
protracted conflict, and the DHS has the difficult task of being on 
watch right now against possible terrorist threats and building a 
robust homeland security system that must stand for decades. While the 
Nation's current maritime security regime is inadequate to meet long-
term U.S. strategic needs, it represents a significant improvement over 
the pre-9/11 state of preparedness. The DHS has achieved a lot given 
the short time frame of its existence and the magnitude of the task it 
faces. Likewise, Congress has performed yeoman's service as well. The 
Maritime Security Act (MTSA) of 2002 produced major changes in the 
Nation's approach to maritime security and, I believe, provided much of 
the legislative foundation required to implement robust national 
programs. But, there is more work to be accomplished. Rather than 
dwelling on what has been done well, I believe it is more important to 
focus on what can be done better.
A Strategic Assessment
    One of the most important actions taken by President Bush's 
administration in the wake of the September 11 attacks on New York City 
and Washington was establishing a national homeland security strategy. 
In turn, the strategy defined the six critical missions required to 
protect U.S. citizens from transnational terrorism. I would like to 
review each in turn, highlighting where cautions or questions are in 
order.
    Intelligence and Early Warning. The first critical mission area is 
intelligence and early warning. It includes activities related to 
detecting terrorists and disseminating threat information and warning. 
It is widely recognized that promoting intelligence sharing across the 
public and private sectors is the greatest challenge in this critical 
mission area. Effective intelligence sharing is a prerequisite for 
exploiting the full potential of national capabilities to respond to 
potential terrorist threats.\7\ The emerging national maritime system 
certainly faces this challenge. However, intelligence and early warning 
in the maritime domain faces an additional obstacle. The United States 
lacks adequate situational awareness of activities in U.S. coastal 
waters and waterways.
---------------------------------------------------------------------------
    \7\ Among the recent initiatives by the DHS to improve information 
sharing is the announcement of the establishment of the Homeland 
Security Information Network (HSIN). HSIN will link states, 
territories, and major urban areas to the Homeland Security Operations 
Center through the Joint Regional Information Exchange System (JRIES). 
Initially, the system will be limited to sensitive-but-unclassified 
information, but in the future it is intended to carry secret 
information to the state level. A collaborative tool such as HSIN is 
essential for effective information sharing. Extending HSIN to major 
ports within the United States as a priority might significantly speed 
efforts to enhance public-private information sharing in the maritime 
domain. For a discussion of major challenges in intelligence sharing 
see, James Jay Carafano, ``The Homeland Security Budget Request for FY 
2005: Assessments and Proposals,'' Heritage Foundation Backgrounder No. 
1731, March 5, 2004, at www.heritage.org/Research/Homeland
Defense/bg1731.cfm.
---------------------------------------------------------------------------
    While the U.S. Coast Guard recognized the critical importance of 
maritime domain awareness even before the 9/11 attacks,\8\ current 
plans for enhancing domain have matured little. For example, the Vessel 
Traffic Service (VTS) was established in 1972 to improve navigation 
safety by organizing the flow of commercial maritime traffic. There are 
10 VTS areas scattered throughout the United States. These provide 
limited coverage of the maritime domain. In 1996, Congress required the 
Coast Guard to reassess future VTS requirements. This initiative 
resulted in the development of the Ports and Waterways Safety System 
(PAWSS), which is now in the process of being employed. MTSA requires 
most large commercial craft and vessels on international voyages to 
have Automatic Identification System (AIS) tracking devices that will 
be monitored by PAWSS. PAWSS-VTS is intended to automatically collect, 
process, and disseminate information on the movement and location of 
ships in ports and on waterways using a network of radars and onboard 
ship transponders.
---------------------------------------------------------------------------
    \8\ Bruce B. Stubbs, ``The Coast Guard and Maritime Security,'' 
Joint Force Quarterly, No. 26 (Autumn 2000), pp. 95-99.
---------------------------------------------------------------------------
    Unlike the U.S. air traffic control system, PAWSS-VTS will never be 
able to provide a complete picture of traffic in the maritime domain. 
PAWSS-VTS faces three major drawbacks. First, it will not be a national 
system. According to a report by the General Accounting Office, as 
currently envisioned, ``for the foreseeable future, the system will be 
available in less than half of the 25 busiest U.S. ports.'' \9\ Second, 
PAWSS-VTS was intended to support maritime safety and environmental 
protection missions, and has been pressed into service to support 
homeland security responsibilities. In this regard, PAWSS-VTS will be 
inadequate to meet emerging security threats. It will, for example, be 
of virtually no use in providing early warning of small boat threats 
such as the craft used to attack the USS Cole in October 2000 or large 
commercial vessels that might be hijacked or converted into covert 
weapons carriers. Third, PAWSS-VTS does not provide coverage ``between 
the ports.'' Terrorists could well mimic tactics of drug smugglers and 
employ non-commercial vehicles such as small, fast, private boats with 
concealed compartments capable of storing 30-70 kilograms of 
material.\10\
---------------------------------------------------------------------------
    \9\ U.S. General Accounting Office, ``Maritime Security: Progress 
Made in Implementing Maritime Transportation Security Act, But Concerns 
Remain,'' GAO-03-1155T, September 9, 2003, p. 7.
    \10\ Measuring the Deterrent Effect of Enforcement Operations on 
Drug Smuggling, p. 1.
---------------------------------------------------------------------------
    Currently, the DHS has only two, very expensive and unattractive 
options for significantly expanding maritime domain awareness. It can 
direct additional investments in the land-based equipment and other 
infrastructures required to expand PAWSS-VTS and require additional 
craft to carry AIS tracking equipment, or it can rely on the surface 
and aviation assets of the U.S. armed forces (including the Coast Guard 
and the U.S. Navy) to cover the large remaining gaps. Neither option 
appears particularly cost-effective nor sufficiently useful or flexible 
to ensure preparedness in a protracted conflict against an 
unpredictable foe.
    Proposals to create a maritime-NORAD, might offer the basis for 
developing more practical alternatives.\11\ Such an approach would 
probably require three elements to produce more promising alternatives 
to the long-term challenge of enhancing maritime domain awareness: (1) 
joint cooperation between the Department of Defense (DOD) and the DHS 
both in research and development and operational monitoring of U.S. 
waters, (2) close cooperation of the United States' northern and 
southern neighbors, (3) new and innovative technical solutions.
---------------------------------------------------------------------------
    \11\ James Jay Carafano, ``Shaping the Future of Northern 
Command,'' CSBA Backgrounder, April 29, 2003, at www.csbaonline.org/
4Publications/Archive/B.20030429.NORTHCOM/B.200
30429.NORTHCOM.pdf.
---------------------------------------------------------------------------
    Border and Transportation Security. Protecting border and 
transportation systems includes managing the border and ports of entry, 
ensuring aviation and maritime security, and developing guidelines and 
programs for protecting national transportation systems. The key 
principle guiding Federal investments in this area should be ensuring 
the adoption of a layered security system: a combination of effective, 
mutually supporting initiatives that simultaneously provide useful 
counterterrorism measures, protect civil liberties, and do not encumber 
the flow of travel and commerce.
    Unlike many strategic challenges, overall, adequacy of resources 
for implementing new initiatives is not the most significant challenge 
in this critical mission area. Funding for the DHS role in one layer of 
the maritime component of border and transportation security, however, 
is an issue of major concern. In particular, the appropriation for the 
U.S. Coast Guard's Integrated Deepwater acquisition program--long-term 
modernization effort to recapitalize the service's fleet of cutters, 
aircraft, sensors, and command and control--is inadequate.
    The Coast Guard's fleet is old, expensive to operate and maintain, 
and poorly suited for some homeland security missions.\12\ Deepwater 
was to be funded at $330 million (in 1998 dollars) in the first year 
and $530 million (in constant dollars) per year in the following 
budgets, but no annual budget before FY 2004 matched the required rate 
of investment. Meanwhile, the Coast Guard's increased operational tempo 
and expanded mission requirements since 9/11 have been wearing out the 
fleet faster than anticipated, putting the modernization program even 
farther behind schedule.
---------------------------------------------------------------------------
    \12\ Ronald O'Rourke, ``Homeland Security: Coast Guard Operations--
Background and Issues for Congress,'' Congressional Research Service, 
RS21125, November 22, 2002, p. CTS-2, and Independent Assessment of the 
United States Coast Guard, ``Integrated Deepwater System,'' Acquisition 
Solutions Issue Brief, July 14, 2001, p. 6.
---------------------------------------------------------------------------
    In the Administration's FY 2005 budget, Deepwater would receive 
$678 million, an increase of $10 million.\13\ This level of funding is 
totally inadequate to support rapidly building up an essential 
component of the Nation's homeland security system. Dramatically 
increasing the budget for Deepwater would not only establish the 
capabilities needed for a long-term security system sooner, but also 
garner significant savings (perhaps as much as $4 billion) in lower 
procurement costs.\14\ Reducing life-cycle expenses by retiring older 
and less capable systems would realize additional savings.
---------------------------------------------------------------------------
    \13\ U.S. Department of Homeland Security, ``Budget in Brief: FY 
2005,'' February 2004, p. 33.
    \14\ See the recommendations for the costs and benefits on 
accelerating the Deepwater program in U.S. Coast Guard, ``Report to 
Congress on the Feasibility of Accelerating the Integrated Deepwater 
System,'' at govt-aff.senate.gov/presslinks/031203cgreport.pdf.
---------------------------------------------------------------------------
    While funding should be expanded there are aspects of the Deepwater 
program that should perhaps be revisited in light of how the U.S. 
maritime security structure has evolved since September 11. Among the 
issues that might be reconsidered is whether coordination of 
requirements and leveraging of research and development between the 
Coast Guard and the U.S. Navy's littoral combat ship (LCS) program is 
adequate and properly synchronized.\15\ Likewise, both programs should 
be assessed to see if they provide an adequate set of capabilities to 
respond to the small boat threat. Currently, the United States simply 
lacks an adequate capability to deal with an attack similar to the 
strike on the USS Cole (In particular, it is unclear if they have 
sufficiently exploited emerging non-lethal technologies that might be 
available). Additionally, it is not clear that short-range unmanned 
aerial vehicle (UAV) and manned aviation requirements of the Navy, 
Coast Guard, and Immigration and Customs Enforcement Air and Maritime 
Operations have been adequately rationalized.\16\
---------------------------------------------------------------------------
    \15\ For issues related to LCS development, see Robert O. Work, 
``Naval Transformation and the Littoral Combat Ship,'' Center for 
Strategic and Budgetary Assessments, February 2004, pp. 129-153, at 
www.csbaonline.org/4Publications/Archive/R.20040218.LCS/
R.20040218.LCS.pdf.
    \16\ Bruce B. Stubbs, ``Fitting In,'' GovExec.Com, October 1, 2003, 
at www.govexec.com/features/0903hs/HS0903s2.htm.
---------------------------------------------------------------------------
    Another issue that might be addressed is the requirement for 
Deepwater systems to provide security on the waterside of the ports. 
Most security plans acknowledge that security on the landside of port 
facilities is the responsibility of the port. There is often, however, 
an assumption that security of the water around the port should be the 
responsibility of the U.S. Coast Guard. While the Coast Guard has 
traditionally had responsibility for protecting defense-related port 
facilities, particularly during times of war, it is not clear that 
service assets should be the primary responders to security incidents 
in proximity to the ports. Over the long term, it might be more 
effective if close-in security needs are met by local port authorities 
\17\ and Deepwater assets were focused to an even greater degree on 
extending depth and redundancy in the U.S. maritime security zone.
---------------------------------------------------------------------------
    \17\ One alternative, for example, might be build-up state naval 
guard forces to fulfill this role. See James Jay Carafano, ``Citizen-
Soldiers and Homeland Security: A Strategic Assessment,'' The Lexington 
Institute, March 2004, pp. 20-21.
---------------------------------------------------------------------------
    In contrast to funding for Deepwater, other initiatives in the 
border and transportation area are programmed to receive significant 
additional funding. However, of concern here is whether, even with 
adequate funding, they will provide the redundancy and overlapping 
security required for an effective layered defense system. Of principal 
concern are the initiatives intended to secure the supply chain that 
crosses the maritime domain including the CSI--Container Security 
Initiative (a program designed to target high-risk cargo for additional 
screening); CTPAT--the Customs-Trade Partnership Against Terrorism (an 
initiative for encouraging the private sector to enhance supply-chain 
security); ACE--the Automated Commercial Environment (which will 
facilitate Customs oversight of lawful international commerce by 
streamlining data entry and information exchange between Customs and 
the trade community and facilitate cargo inspections and clearances); 
the inspection teams and technologies employed in domestic and foreign 
ports to screen high-risk cargo; and the shipping and port security 
measures mandated in MTSA and the International Maritime Organization's 
International Shipping and Port Security Standards (ISPS). While all 
these initiatives are worthwhile, each addresses only a portion of the 
challenge of providing security of maritime commerce and interdicting 
terrorist threats before they reach their intended targets. We will 
only know if they actually provide comprehensive security once they are 
all up and running in concert and appropriate metrics are developed to 
measure their effectiveness. This effort will take years and in the end 
may not prove effective. Nor is it clear these initiatives will be 
flexible enough to keep with the rapid changes demands and 
technological innovations of the 21st century marketplace.
    It may not be strategically prudent to pursue the current 
combination of measures alone. Layered security, after all requires not 
placing all the eggs in ``one security basket.'' The MTSA required the 
Secretary of Transportation to establish a program to evaluate and 
certify secure systems of intermodal transportation. It did not direct 
that these programs would have to necessarily be conceived or 
implemented by the Federal Government. In order to reduce risk, as well 
as exploit the capacity of the marketplace to create innovative and 
effective solutions, the DHS might consider establishing mechanisms to 
allow the private sector to develop and implement its own alternatives 
to the CSI/CTPAT regime.
    Domestic Counterterrorism. This mission area comprises law 
enforcement efforts--principally by the FBI and U.S. Immigration and 
Customs Enforcement (ICE)--to identify, thwart, and prosecute 
terrorists. The guiding principle for enhancing this critical mission 
area should be adopting programs that expand the capacity to conduct 
counterterrorism operations without impinging on civil liberties or 
detracting from other law enforcement priorities.
    The addition of the U.S. Coast Guard to the DHS provides another 
additional tool for expanding the Nation's capacity to conduct domestic 
counterterrorism in the maritime domain. Several initiatives are 
noteworthy. Since 9/11, many of the local investigation and inspections 
arms of the Coast Guard's Marine Safety Offices have significantly 
shifted their focus to supporting domestic counterterrorism efforts. In 
addition, the Coast Guard created the sea marshals program to create a 
cadre of specially trained law enforcement officers to escort high-risk 
vessels into port.
    While the Coast Guard law enforcement initiatives are a positive 
effort, there is little sign that the service is creating a 
comprehensive human capital plan, including the leader development 
training and education that are needed to fully exploit the potential 
of these programs. Likewise, it is not clear that Coast Guard and ICE 
law enforcements programs are being developed in tandem to create the 
objective law enforcement corps needed for maritime security. In fact, 
it is not apparent that the DHS has defined its long-term strategic 
needs in this area and that they dovetail with other ongoing Federal 
and state efforts to expand the national capacity to conduct domestic 
counterterrorism.
    Defending Against Catastrophic Threats. This critical mission area 
includes developing better sensors and procedures to detect smuggled 
nuclear, radiological, chemical, and biological weapons; improve 
decontamination and medical responses to such weapons; and harness 
scientific knowledge and tools for counterterrorism efforts. The 
guiding principle for investments in this mission area must be to focus 
funding on developing new means to prevent, respond to, and mitigate 
the unprecedented dangers posed by catastrophic threats.
    The DHS Science and Technology Directorate is to be commended for 
developing mission portfolios to address the most critical technology 
needs for the DHS.\18\ On the other hand, it is unclear whether the DHS 
portfolios, which has not yet been publicly released, adequately 
reflect the needs of maritime security. Nor has the directorate forged 
a relationship with the science and technology community in the DOD 
that can conduct the joint development and acquisition of major 
programs that might benefit both the defense and homeland security 
community.
---------------------------------------------------------------------------
    \18\ James Jay Carafano, ``Strategy and Security in the Information 
Age: Grading Progress in America's War on Terrorism,'' Heritage 
Foundation Lecture No. 824, March 14, 2004, at www.heritage.org/
Research/HomelandDefense/hl824.cfm.
---------------------------------------------------------------------------
    In addition, greater consolidation of research and development 
efforts in regards to supply-chain security is required. For example, 
the Administration proposes to phase out Operation Safe Commerce in FY 
2005. Launched in November 2002, the program was in-tended to use pilot 
projects in the ports of Seattle-Tacoma, Los Angeles-Long Beach, and 
New York-New Jersey to test technologies and practices, including cargo 
tracking, anti-tampering ``Smart Containers,'' information protection, 
and real-time data reporting.\19\ However, it has shown only limited 
results, and the research and development effort could be performed 
better and more efficiently under a development program in the DHS 
Science and Technology Directorate.
---------------------------------------------------------------------------
    \19\ Alex Fryer, ``Port-Security Project Endangered Murray 
Claims,'' Seattle Times, February 12, 2004, at 
seattletimes.nwsource.com/html/localnews/2001856193_homeland12m.html.
---------------------------------------------------------------------------
    As the DHS consolidates these programs in the directorate it should 
reevaluate whether they are consistent with the department's research 
priorities. It is not clear, for example, that ``Smart Containers'' are 
a worthwhile program for Federal research. Any solution to implement 
smart containers should come from the private sector, which is in a 
better position to evaluate the utility of added security information 
as measured against the added cost. The DHS effort in this area might 
be more profitably focused on leveraging the security that might be 
provided by new commercial products and practices rather than 
developing and mandating standards and technologies to the marketplace.
    Protecting Critical Infrastructure and Key Assets. This critical 
mission area includes national efforts to secure public and private 
entities. Since virtually all of the Nation's critical maritime 
infrastructure and key assets are not federally owned, developing 
programs to ensure responsible, efficient, and cost-effective 
cooperation between the public and private sectors should be the 
principle guiding investments in this area.
    Making the challenges of critical infrastructure protection in the 
maritime domain particularly pressing is that U.S. ports must comply 
with new security provisions detailed in MTSA and ISPS. However, in 
developing a funding strategy to improve port security, the 
Administration should not become overly ``port-centric.'' Addressing 
all the critical infrastructure concerns at U.S. ports could well 
require many billions of dollars.\20\ On the other hand, the DHS 
awarded only $245 million in port grants in FY 2003 (albeit the largest 
amount of any year to date). According to an unpublished analysis by 
Dr. Joe Bouchard, implementing MTSA at current funding levels (about 
$50 million a year) would take 112-162 years.
---------------------------------------------------------------------------
    \20\ In August 2000, the Interagency Commission on Crime and 
Security in U.S. Seaports estimated that the costs to upgrade security 
infrastructure at the Nation's 361 ports ranged from $10 million to $50 
million per port. Congress funded $93 million for security improvements 
with the passage of the Maritime Security and Transportation Act (MTSA) 
in 2002 but received grant applications for as much as $697 million in 
the first year of the program alone. U.S. General Accounting Office, 
``Transportation Security: Post-September 11th Initiatives and Long-
Term Challenges,'' GAO-03-616T, April 1, 2003, pp. 5 and 16. The Coast 
Guard has estimated that it will require at least $1.4 billion in the 
first year and $6 billion over 10 years for private port facilities to 
meet the baseline security mandates required by the MTSA. Other 
estimates of total cost range from $5.8 to $7.8 billion. James Jay 
Carafano, ``Budgets and Threats: An Analysis of Strategic Priorities 
for Maritime Security,'' Heritage Foundation Lecture No. 791, June 16, 
2003, at www.heritage.org/Research/HomelandDefense/HL791.cfm.
---------------------------------------------------------------------------
    Yet, the current restraint in Federal funding may be very 
appropriate. Addressing the considerable vulnerabilities of maritime 
infrastructure does not necessarily require a dramatic infusion of 
Federal dollars. For example, effective intelligence and early warning, 
domestic counterterrorism, and border and transportation security 
programs can help to reduce risks to critical infrastructure by 
limiting the opportunities for terrorists to reach U.S. ports. With 
limited resources available in the Federal homeland security budget, it 
is not apparent why a multi-billion-dollar port security initiative 
would be a superior strategic choice to a more balanced maritime 
security program.
    In addition, the overwhelming preponderance of maritime 
infrastructure is in private hands. It is not clear that full-federal 
funding would be either appropriate or sustainable. Excessive funding 
would more likely create a condition of dependency with security 
declining as soon as the infusion of Federal dollars ended. Initiatives 
that enable and encourage the private sector to take a more expansive 
and proactive role should be central to any protection program.
    Federal port grants should used sparingly, as a tool to promote 
appropriate public-private sector solutions. More important than simply 
spending more money to help facilitate the development of maritime 
security programs, the Federal Government should help create a 
predictable business environment with (1) multi-year authorizations so 
that states, local governments, and the private sector would have a 
clear grasp of what funds will be available over the long term; (2) 
national performance standards so that they know what the Federal 
Government expects state and local governments and the private sector 
to contribute to critical infrastructure protection; and (3) a clear 
system of national priorities so that the preponderance of Federal 
investments support the most critical strategic needs.
    Emergency Preparedness and Response. This critical mission area 
includes preparing for, responding to, and mitigating the effects of 
terrorist attacks. The overarching principle that must guide funding is 
that Federal resources should be used to assist in creating a true 
national preparedness system, not merely to supplement the needs of 
state and local governments.
    Currently, the major challenges affecting an effective response to 
a maritime incident are the same as those affecting other types of 
domestic emergencies: interagency coordination, organization and 
communications, and convergence.\21\ Establishing unity of effort is 
central to addressing all of these concerns.
---------------------------------------------------------------------------
    \21\ These are described in James Jay Carafano, ``Homeland Security 
and the Trouble with Training,'' CSBA Backgrounder, October 3, 2002, at 
www.csbaonline.org/4Publications/Archive/B.20021003.Homeland_Security_/
B.20021003.Homeland_Security_htm.
---------------------------------------------------------------------------
    The Coast Guard should be commended for its announcement in January 
2004 to consolidate all its regional activities under sector commands, 
so that captains of the port will have all the assets available to 
support maritime security under their control. This initiative, 
however, does not ensure proper unity of effort at the port. In many 
ports, the Coast Guard, ICE, and port authorities, each with critical 
specific duties and authorities in regard to port security, have their 
command posts in different facilities, undercutting efforts to ensure 
effective integration of their efforts in times of crisis. The DHS 
should review the requirements for command and control at the ports and 
determine the needs for unified command posts, redundant command 
facilities, and virtually integrated command posts to ensure unity of 
effort for emergency response.
    It may also be worth reviewing whether national plans are adequate 
to deal with the consequences of catastrophic or multiple attacks on 
geographically disparate maritime targets.\22\ For example, in the 
immediate aftermath of the 9/11 attacks, the Federal Aviation 
Administration halted all civilian aviation. In the aftermath of a 
maritime attack, similar concerns might call a halt to U.S. maritime 
traffic. In this event, mechanisms to rapidly reestablish confidence in 
the supply chain and resume the flow of commerce in order to minimize 
economic disruption and restore public confidence will be vital. If 
adequate public/private sector plans do not exist to address such 
contingencies, they must be rapidly developed.
---------------------------------------------------------------------------
    \22\ For more discussion on multiple and catastrophic attack 
scenarios see the discussion on emergency response in James Jay 
Carafano, ``Budgets and Threats: An Analysis of Strategic Priorities 
for Maritime Security'' Heritage Foundation Lecture No. 791, June 16, 
2003, at www.heritage.org/Research/HomelandDefense/HL791.cfm.
---------------------------------------------------------------------------
Organizational Issues
    While the issues raised in each of the critical mission areas 
deserve attention, together they still do not address the core issue of 
how well the Nation is doing in preparing a maritime security system 
that will protect us during a protracted conflict against threats that 
will surely change and evolve to test the defenses we throw up to 
frustrate them.
    We will not be able to depend on the terrorists to provide us 
measures of success. The fact that al-Qaeda operatives took five to 
seven years to plan and execute the September 11 terrorist strikes is a 
cause for concern. It could well be a half-dozen years before the DHS 
faces its first great test.
    For now our metrics of success must rely on measuring our capacity 
to implement strategy. The first task should be revisit the basic 
organization and missions of the DHS. Here a lesson from the Cold War 
is instructive. The National Security of Act of 1947 created what 
became the Department of Defense and the Central Intelligence Agency, 
the Nation's two premier weapons for defending against the Russian 
bear. Yet, it soon became apparent that in the enabling legislation 
neither organization had been crafted perfectly to match the Nation's 
emerging strategy of containment. Two years later it was necessary for 
the Congress to revisit the organization and missions of the 
departments. At the same time, some of the most difficult and obvious 
challenges, such as how to promote jointness (operations involving more 
than one of the military services), were ignored. As a result, 
organizations and practices became institutionalized, and it took over 
40 years to resolve some of the obstacles to effective operations.\23\
---------------------------------------------------------------------------
    \23\ For example, see David Jablonsky, ``Eisenhower and the Origins 
of Unified Command,'' Joint Force Quarterly, Vol. 23 (Autumn/Winter 
1999-2000), pp. 24-31. See also Shepherd, ``Evolution of Security 
Agencies and Departments,'' pp. 161-165, and William W. Epley, Roles 
and Missions of the United States Army: Basic Documents with 
Annotations and Bibliography (Washington, D.C.: Center of Military 
History, 1993), pp. 299-310. Additional major revisions were made by 
the Goldwater-Nichols Defense Reorganization Act of 1986. See also 
James R. Locher III, Victory on the Potomac (College Station: Texas A&M 
University Press, 2002).
---------------------------------------------------------------------------
    Congress can help the DHS avoid a similar fate if it begins now to 
assess how well the department is organized to implement the emerging 
national strategic priorities. One area that should be addressed is 
assigning responsibility for directing national maritime strategy. 
Clearly, emerging strategic requirements call for an integrated system 
of layered security initiatives. Yet, there is no single over arching 
strategic concepts that defines how ongoing initiatives will be forged 
into a coherent system or makes the hard choices for prioritizing 
scarce resources. In part, the lack of unifying maritime strategy is 
understandable--four major organizations play prominent roles (DOD, and 
within the DHS, the Coast Guard, ICE, and the TSA--Transportation 
Security Agency) and arguably their roles and missions overlap. 
Congress might profitably look at the prospects for consolidating 
missions, assigning one entity within the DHS the role of providing 
overall strategic planning and operational control of maritime security 
and responsibility for coordinating with DOD. At the same time, 
Congress might revisit the regulatory functions of the components in 
the DHS to see if the Departments of Transportation or Commerce might 
more appropriately perform them, allowing the DHS to focus more of its 
resources on homeland security. Finally, a crosswalk needs to be 
performed between the performance metrics established by each agency 
for measuring progress to ensure that they are integrated and 
complimentary.
    Another area that deserves further attention is an examination of 
how we will train the next generation of leaders that will be 
responsible for implementing the future national maritime security 
system. Currently, the Nation lacks an overall homeland security 
training and education strategy. Training is not only essential to 
prepare leaders for the difficult and complex decisions they will face 
in a crisis, but also to evaluate readiness, determine the 
effectiveness of programs, and identify needed improvements. Meanwhile, 
education is critical in preparing leaders to respond to long-term 
challenges.
    The advanced degree program offered by the DHS through the U.S. 
Naval Post-Graduate School is one admirable initiative, but it is not 
enough. Other professional development opportunities for emerging 
senior leaders are also needed. The Massachusetts Institute of 
Technology, for example, conducts a program called Seminar XXI for the 
Federal Government. Seminar XXI provides a year-long series of lectures 
and workshops for mid-grade professionals on international affairs. A 
similar program targeted on homeland security might be equally useful. 
In the same manner, the national community might benefit from the 
establishment of a national homeland security university modeled on the 
military's war college system.
    Finally, any national leader development effort will have to 
include a plethora of state and local leaders and private sector 
leaders. The nation's network of junior colleges, which have become the 
hub of continuing adult education throughout the country, may provide 
the best venue for offering appropriate leader development 
opportunities.
    Congress might consider guiding the DHS training and education 
effort by creating mandatory training, education, and experience 
requirements similar to the provisions established in the Goldwater-
Nichols Act to foster jointness among the military services.
    Over the long term, the capacity of the national maritime security 
system to exploit the initiatives currently being put in place will be 
more dependent on the quality of the decisions made by its leaders and 
the programs they implement than on the structure of the system itself. 
The nation would be well served if we gave equal attention to both 
sides of the equation.
    I, again, thank the Committee for the opportunity to testify on 
this vital subject and I look forward to your comments and questions.

    Senator Nelson. Thank you.
    Mr. Mitre?

         STATEMENT OF MIKE MITRE, DIRECTOR, COAST PORT

   SECURITY, LONGSHORE DIVISION, INTERNATIONAL LONGSHORE AND 
                     WAREHOUSE UNION (ILWU)

    Mr. Mitre. Good morning. I would like to thank the 
Chairman, the Ranking Member and the Members of this Committee.
    My name's Mike Mitre, and I've been a member of the ILWU 
for almost 30 years. I've worked on and around the terminals 
for about 29 years, and my specialty is container terminals. 
I'm a crane driver, and I used to be a foreman running what 
they call the ``dock and ship'' on the terminals.
    I'd like to thank everyone for allowing us to speak here 
today. Some of my constituents are really excited by the fact 
that, hey, we finally had a--got a chance in Washington to get 
up and say our piece and say what we really feel is happening 
with security within some of the marine terminals on the West 
Coast, and especially because we live and work within L.A./Long 
Beach, which is the largest two ports in the country. And with 
12 million containers, that's where the numbers are. That's the 
numbers game, and that's where they're coming.
    Most of my remarks will be aimed at practices that occur 
there. I'd like to also thank the International Longshoremen's 
Association and the teamsters for their assistance in a 
combined that we put together in trying to attack some of the 
tougher issues regarding port security.
    First of all, I'd like to say that we really appreciate the 
commitment that Congress, and this Committee in particular, 
have made to the goal of protecting our ports, but, more 
importantly, to protecting our port workers, which is our 
members, and they're the guys that work there. The men and 
women that are--they're our first line of defense. We handle 
containers when they come off the ship. And if something should 
happen, it's our workers that are going to get hammered first, 
and most of our families live and work, themselves, within five 
miles of the port. And if we're talking any kind of a 
radiological device--in fact, if you have any kind of modern 
explosives, our families would probably impacted just as well 
as our workers would, too. So we really appreciate the strides 
that everyone's made.
    We also really appreciate the Coast Guard. If anyone has 
worked closer with the unions in the ports, there isn't anyone 
closer than the Coast Guard. The Coast Guard in L.A./Long 
Beach, in Oakland, in San Diego, in Seattle/Tacoma, on the 
Columbia River--the Coast Guard's done a great job. They've 
helped more, and I think we have a closer relationship than we 
ever have.
    On the day of 9/11, the Coast Guard was the one that 
reacted first. And within 2 hours, they put together a 
stakeholder group of 200 people. So the Coast Guard, I think, 
has to give--be given kudos.
    Every day, we unload thousands of containers from vessels 
that call from all over the globe, and they're filled with 
things from everywhere, loaded by everybody. Most of them do 
not undergo an inspection before they're loaded on a truck or a 
rail car bound for all points east to the interior of the 
United States.
    Consider the recent suicide-bombing in Israel. In Ashdod, 
port workers and their infrastructure were clearly targeted. 
This is the very same type and level of an incident that could 
very--it could very well happen here. And, you know, we've been 
afraid of it since 9/11. And in the Port of L.A./Long Beach, 
we're really, you know, thinking this could happen. It's 
coming.
    Some of my comments are going to center around some of the 
security procedures that we do within the port, and also some 
of them that have been discontinued, and we feel should have 
never been discontinued, and should be recontinued.
    For many years, protocols such as the inspection of loaded 
container seals and the verification of empty containers were a 
given. These were done at nearly every facility by marine 
clerical workers and longshoremen employed there. Container-
seal inspections are critical. And they're critical because you 
simply can't inspect every container. The integrity of the 
seal, that it hasn't been tampered with and that the seal 
number matches up with the container number on the cargo 
manifest, are two related procedures that can be done in a 
matter of seconds, and they can be done during the process of 
checking the container being offloaded from an arriving vessel. 
It's quick, it's easy, and it's effective. Discharge procedures 
accomplished as this container is being unloaded from a vessel 
of the dock, they're still done by a marine clerk located in 
the very same place as when the seal checks used to be done, 
yet these seal checks have been discontinued by the terminal 
operators that run the terminals in the West Coast.
    The problem that we have is, a lot of the different 
terminal operators have gone so far as to officially inform us, 
in writing, that it's their feeling that, because of oncoming 
technologies, that we no longer have to seal container--check 
the seals on containers; because of incoming technologies, we 
no longer have to worry about checking empty containers coming 
into the port. And you have to realize that if we have 12 
million empty--12 million loaded containers coming in from 
Asia, there's going to be at least 7, 8, 9 million empties 
being cycled back to Asia. If these empties are allowed to come 
into the port uninspected through our terminals, it's--you're 
having an open invitation for something to happen.
    The new MTSA regs require that seal checks are being done. 
But the problem is, the terminal operators are now going to 
interpret that these seal checks are only going to require them 
to check the seals at the terminal's in-gates, but not at the 
vessels, where the majority of all containerized cargo is 
offloaded. Why would we check the seals of this relatively 
small number of export cargo going through the in-gates, but 
ignore the seals on the enormous quantity of our inbound 
imports coming from Asia?
    The empty-container inspections, like I said, ones that 
were--it was an inspection that was once unilaterally done 
throughout the port--has been discontinued since 9/11. This is 
perhaps one of the most threatening of all the traditional 
practices that we no longer do. The ability for a trucker to 
introduce an empty container at a marine terminal in-gate, with 
the knowledge that it will not be inspected as a matter of 
policy, is not right. And it really is no different than 
boarding an aircraft and being searched, yet being allowed to 
carry on a piece of luggage without it ever being opened. The 
only difference is, in this case you have the knowledge 
beforehand that whatever you want to smuggle inside a terminal 
will not be searched as long as it's inside this empty 
container.
    Many empty containers also are cycled back to the United 
States, especially refrigerated ones, and they have been acting 
as an ideal conduit for the smuggling of people and aliens 
trying to come back into this country. There are presently 
terminals in Hawaii--specifically, the Horizon facility--that 
require all empty containers to be opened and searched. And 
then they have to have a seal affixed, clearly marking it as an 
empty. For us to do no less is asking for trouble.
    If you knew that you could drive a 40-foot container onto a 
terminal in the largest port of the country without it being 
opened, don't you think that others may also have this same 
knowledge? Empty-container programs should be part and parcel 
of the new facility security plans. Their exemption presents a 
clear and present danger to not only our workers and to the 
community, but it also presents a danger to the marine 
terminals and our port transportation infrastructure.
    The implementation of the new TWIC card, called the 
Transportation Worker Identity Card, is a process that the ILWU 
has participated in. We're concerned that all aspects of--all 
true aspects of port security are important. Along with TSA and 
the port authorities, ILWU and the related stakeholders have 
embarked on a concurrent effort helping to create and prototype 
a successful terminal access ID concentrating on the importance 
of individual recognition. We must have a better way to 
identify our port workers, our clerical workers, our vendors, 
subcontractors, even management personnel coming onto the 
terminals so that we all know who everybody is, and that an ID 
just can't be shuffled back and forth from one person to the 
other.
    Senators, expensive and technological advancements will 
eventually take their place in the seaport security 
environment. Examples of this, like the new radiologic portals, 
and especially the VACIS gamma ray inspection machines, are 
excellent examples of 21st century technology. The problem is, 
is that they have to be well thought out. These radiologic 
portals, they're a great idea, and they are part and parcel of 
a good, basic terminal strategy. But the very fact that they 
want to locate these things at the out-gates of the terminal 
presents a problem. Most containers coming off the ships are 
going to sit in the terminal between 5 days and 2 to 3 weeks. 
Why would we expose not only our port workers, but the 
community, to a radiologic problem or an accident? And instead 
of siting these radiologic detectors at the out-gates, why not 
pull them close to the ship, so when these containers come off 
the ship, they can immediately go through them, and, therefore, 
ensure the security of the people that work there and the 
people that live close to the ports?
    It is still the sensible, inexpensive, and logical 
approaches to port security, and especially practices like 
container-seal inspections, empty-container verification, and 
other things like this, that will provide a basic and solid 
foundation under which to build a proper security 
infrastructure. Couple this with an accurate port ID system 
that really works, and you have the basics on which to build 
this no-nonsense marine terminal security system.
    Cargo security cannot be allowed to denigrate into a catch-
all for new and developing technologies at the expense of the 
traditional practices that were developed over many, many years 
inside the ports. These were practices that really worked, they 
accurately addressed real problems, and they were relatively 
less commerce-inhibiting than others that were not, and they 
were tried and true methods.
    Many new technologies surrounding cargo security are still 
developmental, and some aren't even fully ready, yet many 
terminal operators have decided already to abandon some of the 
most traditional--more traditional techniques in favor of 
waiting for some of these newer technological advancements to 
come online. We all understand that these new technologies will 
eventually replace many of the inspection and verification 
protocols that are now done in person; but until we come to 
that point, we must make a commitment to continue to do what is 
logical, what is practical, and has worked for us for so long.
    Probably the most important part of my testimony here today 
is to talk about the funding. Funding must be made available. 
It will have to come from Congress so that our Coast Guard 
assets can properly assume the role designated to them as the 
primary landside and terminal enforcement agency. The 
traditional waterside role that the Coast Guard has always 
assumed must now include sufficient funding that is going to 
require additional manning, training, and enforcement to make 
sure that they can accomplish acceptable levels of marine 
terminal container security. Funding is essentially, and not 
only for these needs, and not only for the Coast Guard, but, 
just as important, it is going to be very necessary for the 
answers that will lead us to the infrastructure and port 
security solutions nationwide, that we're going to allow us to 
move cargo and keep commerce moving in the event of a terrorist 
attack.
    Properly applied, this type of funding should address both 
the port security and the infrastructure solutions necessary to 
ensure that the flow of cargo is not interrupted. Properly 
appropriated, these funds will help to not only develop and 
increase port security, but also to design an underdeveloped 
security infrastructure necessary to move cargo in volume in 
the years to come.
    The major problem on the West Coast is this. You have three 
load centers. L.A./Long Beach is the largest one. You have 
Oakland and Seattle/Tacoma. If there's a terrorist attack or 
any kind of a terrorist security incident, we simply do not 
have the alternatives where we can move cargo. The major cargo 
island in L.A./Long Beach houses five of the largest mega-
terminals in the world. Each one of these is capable of moving 
up to 5,000 gate moves a day. And to give you some idea of what 
that is, Rotterdam, at their largest terminal, moves about 850 
gate moves a day. Each of ours on this island can move up to 
5,000 a day. Right now, we're averaging between 1,800 and 2,600 
a day. The numbers game, once again, shows how big L.A./Long 
Beach is, and then, in relation to a smaller bit, to Oakland 
and Seattle/Tacoma.
    This cargo island is connected to the mainland by two 
bridges. If either of these bridges were to go down--and I just 
heard this same kind of a thing from my colleague from New 
Orleans--we're done. You could bring cargo flow to a grinding 
halt.
    You know, not wishing to touch on something that could be a 
little touchy, you know, we had a problem last year, a small 
labor dispute on the West Coast. We had a 10-day lockout. And 
I'm not making light of the situation. But the problem is this. 
In just those 10 days, look what happened. If one of these 
bridges was to be taken out, we could be looking up to 3 to 6 
months, possibly even a year, of an interruption of commerce. 
And 92 percent of all the commerce coming into this country is 
waterborne. Of the commerce coming into the West Coast, 65 
percent comes into L.A./Long Beach alone. And one incident, one 
incident, could bring this to a screeching halt.
    So I would hope, if nothing else today when I'm talking to 
you, that everyone would understand that, on the West Coast, it 
is the major cargo import receiver for this country. It has now 
obviated the need of the Panama Canal through the intermodal 
rail. Intermodal rail connections are able to take cargo 
throughout the country even faster than a ship going through 
the canal and going to an East Coast port, in most cases. And 
because of that, and with only three small load centers, any 
one of these centers goes down, and we have a big problem.
    So I would really hope that by making this point of how 
important these load centers are, we can appreciate the fact 
that funding must be made available to look for alternatives in 
cargo movement, in cargo flow, and alternatives how to unload 
these ships in case of a terrorist security incident.
    Thank you.
    [The prepared statement of Mr. Mitre follows:]

Prepared Statement of Mike Mitre, International Longshore and Warehouse 
                              Union (ILWU)
    Chairman McCain, Ranking Member Hollings and members of the 
Committee, my name is Mike Mitre. I am a member of the International 
Longshore and Warehouse Union (ILWU), which since 1934 has been chosen 
by thousands of West Coast port and dock workers to represent us in all 
matters related to our employment. For the past two years, I have 
served as the union representative regarding port security and have had 
opportunities to work with the Coast Guard, TSA, Customs, and other 
stakeholders in an effort to effectively secure our ports from acts of 
terrorism. We commend these agencies for their hard work and commitment 
to the national security of the United States. In particular, the ILWU 
commends the Coast Guard for developing comprehensive port security 
regulations in a very short time frame. We appreciate the hard work and 
dedication of the Captain's of the Ports, coast guard personnel, TSA, 
and Customs personnel. I also want to commend other labor organizations 
that have worked on a common agenda to protect our ports including the 
International Longshoremen's Association, the International Brotherhood 
of Teamsters, and the Transportation Trades Department, AFL-CIO.
    As co-chair of the International Longshore and Warehouse Union 
Legislative Committee, I have developed a number of policy statements 
with respect to the security of our ports on behalf of our members and 
communicated our position to members of Congress and key staff. We 
appreciate the commitment that Congress and this Committee in 
particular, has made to the goal of protecting both our ports and ILWU 
dockworkers from the threat of international terrorism.
    Mr. Chairman, thank you for holding this important hearing. We are 
at a critical time in the history of this country. The threat of a 
terrorist attack against the marine transportation system is a new 
reality. On March 14, 2004, suicide bombers at the Ashdod Port in 
Israel killed 10 people and wounded another 16. It appears that all the 
victims were workers. It is certainly in the interest of American port 
workers to secure our ports. Every day we unload thousands of 
containers from ships calling from virtually every point on the globe, 
each filled with unknown items packed by unknown people throughout the 
world. Few of these containers or vessels are screened or inspected 
before being unloaded by longshoremen. Many of the containers do not go 
through any type of a security screening process before being loaded on 
a truck or railcar bound for the interior of the United States. Many of 
our families, friends, and coworkers live in different seaport 
communities such as San Pedro and Oakland, California, Portland, 
Oregon, Seattle, Washington, and Honolulu, Hawaii. While I would like 
nothing better than to be able to tell them that all the stakeholders 
within the marine transportation system are doing everything possible 
to keep them safe and secure from terrorism, this may not exactly be 
the case.
    My testimony today will focus on specific measures that, if 
implemented, will provide more meaningful security for our port marine 
terminals and our communities. Marine terminal operators along the west 
coast continue to refuse, despite repeated encouragement and demands 
from the ILWU, to implement adequate port security measures to protect 
our port workers, communities and the Nation as a whole from possible 
terrorist attacks. Even more shocking and inexplicable is the reality 
that some terminal operators have reduced or abandoned some of the most 
basic port security measures following the September 11th and the 
terrorist attack against our American people.
    On March 15, 2004, the ILWU wrote to Coast Guard Admiral Hereth to 
urge the Coast Guard to take effective action to compel these 
employers, the marine terminal operators, to immediately implement and 
maintain adequate security measures in accordance with the Maritime 
Transportation Security Act (MTSA) and the applicable and related Coast 
Guard regulations issued on July 1, 2003 and October 22, 2003.
    Since September 11, 2001, the ILWU has made repeated overtures to 
these same employers to develop and institute, without delay, practices 
and procedures designed to increase the level of security to at least 
that which existed on September 11th, 2001. The Union's requests for 
Employer action to increase port security is documented in various 
proposals and letters to the employers, samples of which are attached 
to this testimony marked Attachment 1.
    Many of these companies have actually reduced security by, among 
other things, discontinuing the practice of inspecting the integrity of 
container seals upon entering marine terminal facilities. The second 
attachment to the testimony are copies of some of the letters 
documenting our Employers' discontinuation of the regular inspection of 
container seals and inspection of ``empty'' containers shortly before 
and after September 11, 2001. The Employers' insistence, over Union 
objection, to stop inspecting container seals at certain West Coast 
marine terminal facilities is especially disconcerting given that the 
Coast Guard regulations in 105.265(b)(4) specifically mandate that 
terminal operators and owners ``check seals and other methods used to 
prevent tampering upon entering the facility and upon storage within 
the facility''.
    While we have urged our Employers to initiate adequate port 
security measures regardless of specific governmental mandates, the 
Union has especially pressed for the PMA Employers' immediate full 
compliance with Coast Guard Regulations 105.265, ``Security Measures 
for Handling Cargo'', which plainly constitute the core security 
provisions for marine terminal facilities; where the majority of ILWU 
port workers are employed.
    With respect to the specific security measures mandated in Coast 
Guard regulation 105.265, ``Security Measures for Handling Cargo'', our 
information, daily work experience, and observations disclose that the 
PMA Employers have failed to implement the following security measures 
listed in that provision:

  <bullet> 105.265(a)(5)--``Identify Cargo That is Accepted for 
        Temporary Storage in a Restricted Area While Awaiting Loading 
        for Pickup''--Most if not all port facility operators/owners 
        have, after September 11, 2001, and also after the December 31, 
        2003 filing of security plans, continued the standard practice 
        of mixing cargo and containers designated for loading on 
        different ships and trucks scheduled for different time periods 
        and also mixing them with other cargo and containers not yet 
        designated for a particular loading or pickup. Moreover, few, 
        if any, facilities have ``restricted areas'' for temporary 
        storage of cargo.

  <bullet> 105.265(a)(6)--``Restrict the Entry of Cargo to The Facility 
        That Does Not Have a Confirmed Date for Loading as 
        Appropriate''--No facility operator/owner, as far as we know, 
        has instituted any restrictions on the entry of cargo that 
        lacks a confirmed date for loading, let alone conduct any 
        determination of ``appropriateness'' for receipt of such cargo 
        since September 11, 2001, and since the December 31, 2003 
        filing of security plans. In fact, many facility operators/
        owners continue to use what they call ``dummy bookings'' to 
        document the regular receipt of cargo that lacks a designation 
        or confirmed date for loading onto ships. In addition, most, if 
        not all, marine terminal facilities continue the standard 
        practice of allowing cargo to first enter the facility and only 
        after entry determine the existence of appropriate 
        documentation and designation for loading. Many facility 
        operators/owners also continue the practice of storing on site, 
        without restriction for several days, cargo with inadequate 
        documentation and unknown designation for loading.

  <bullet> 105.265(a)(9)--``Create, Update, and Maintain a Continuous 
        Inventory of All Dangerous Goods and Hazardous Substances From 
        Receipt to Delivery Within the Facility Giving the Location of 
        Those Dangerous Goods and Hazardous Substances.''--This 
        critical security measure has simply not been implemented at 
        any facilities where ILWU members work since September 11, 2001 
        and continuing after the December 31, 2003 filing of security 
        plans. In nearly all marine terminal facilities, hazardous 
        material cargo is randomly integrated with other types of 
        cargo, including even food products throughout the terminals. 
        Also, as noted, it is standard practice for marine terminals to 
        receive and store for a certain period of time containers of 
        unknown contents pending receipt and verification of complete 
        documentation.

  <bullet> 105.265(b)(1)--``Unless Unsafe To Do So, Routinely Check 
        Cargo, Cargo Transport Units and Cargo Storage Areas Within the 
        Facility Prior to and During Cargo Handling Operations for 
        Evidence of Tampering.''--Few if any West Coast Marine 
        Terminals have instituted any practices or procedures to 
        ``routinely check'' cargo, containers and the storage areas for 
        possible tampering within these facilities following September 
        11, 2001 and even since the December 31, 2003 filing of 
        security plans. In those port facilities where some checking is 
        performed, such as for example, at Terminal-6 in Portland, 
        Oregon, the security guards merely drive through the facility 
        in a perfunctory manner no differently than they did before 
        September 11, 2001.

  <bullet> 105.265(b)(2)--``Check That Cargo, Containers, or Other 
        Cargo Transport Units Entering the Facility Match the Delivery 
        Note or Equivalent Cargo Documentation.''--While this practice 
        was commonly followed in the West Coast ports ten or more years 
        ago, the industry trend starting before September 11, 2001 and 
        continuing to the present is the elimination of requiring that 
        cargo and containers match the delivery documentation before 
        entry into marine terminal facilities. Neither the terrorist 
        attacks of September 11, 2001, the issuance of the Coast Guard 
        interim regulations of July 1, 2003, nor the filing of facility 
        security plans as of December 31, 2003, have changed this 
        regressive trend.

  <bullet> 105.265(b)(3)--``Screen Vehicles''.--The screening of 
        vehicles before entering marine terminal facilities is done in 
        some West Coast ports, but not all.

  <bullet> 105.265(b)(4)--``Check Seals and Other Methods Used to 
        Prevent Tampering Upon Entering the Facility and Upon Storage 
        Within the Facility.''--As noted, most marine terminals on the 
        West Coast have not instituted any procedures for the checking 
        of seals and other methods to prevent tampering either upon a 
        container entering a facility or upon its storage within the 
        facility. Indeed, some marine terminal operators have actually 
        discontinued this practice in years before and in months after 
        September 11, 2001. That most marine terminal operators do not 
        routinely check and verify the integrity of seals on most 
        containers is reflected by the one limited exception where such 
        checks are more commonly done with respect to cargo and 
        containers subject to USDA regulations. Moreover, most marine 
        terminal operators fail to have adequate procedures for 
        monitoring pilferage and other tampering of containers and 
        cargo as reflected in the common practice of the terminal 
        operators and the carriers splitting the cost of any such 
        losses based on their failure to know the time and location 
        where such tampering occurred.

    Mr. Chairman, I cannot emphasize enough the importance of checking 
the outside seal of containers upon entry into the facility by rail or 
truck and especially, upon entry by sea. A broken seal would 
immediately alert the port facility that the container may have been 
with tampered and needs to be carefully inspected. A systematic check 
of container seals also provides authorities with a record as to the 
parties responsible for placing the seal on any container that may be 
the means of a terrorist act.
    The Coast Guard regulations do not contain references regarding the 
need to develop a program to inspect and seal ``empty'' containers. 
There should be little disagreement over the need for an inspection or 
verification protocol concerning these containers. The fact that marine 
terminal operators routinely conducted ``empty'' inspections in the 
past as a regular part of their security program to verify the absence 
of harmful contents and to detect and deter possible terrorist attacks 
only adds to the viability of this procedure. The ILWU urges the Coast 
Guard to strongly consider creating a mandate regarding the inspection 
of empty containers. If there was ever to be an attack from anyone 
using an ``empty'' container to transport and stage explosives or 
chemical or biological agents, this would be the ideal manner in which 
to accomplish it. The level and manner of intelligence gathering and 
the sophistication of technique used by various terrorist organizations 
should leave nothing to chance.
    It is the Union's view that the Coast Guard regulations in general, 
and the MTSA in particular, as well as basic common sense and good 
faith concern for the security of the ports and the country necessarily 
require that all maritime companies initiate comprehensive and adequate 
port security measures without delay, notwithstanding the technical 
final compliance date of July 1, 2004 as set out in 105.115(b) of the 
Coast Guard regulations. Terminal operators that fail to implement 
necessary security measures in the interim preceding the July 1, 2004 
deadline is contrary to the stated intent and objective of the MTSA and 
the Coast Guard regulations.
    Indeed, Section 70103(c)(7) of the MTSA mandates that the Secretary 
of Homeland Security, who has delegated such responsibility to the 
Coast Guard, ``shall require each owner or operator of a vessel or 
facility located within or adjacent to waters subject to the 
jurisdiction of the United States to implement any necessary interim 
security measures, including cargo security programs, to deter to the 
maximum extent practicable a transportation security incident until the 
security plan for that vessel or facility operator is approved.'' Under 
these clear statutory and regulatory mandates, there is no legitimate 
reason or excuse for any vessel or facility operator/owner not to 
implement the provisions of the Regulations and of their security plans 
after submission to the Coast Guard on December 31, 2003, and pending 
review and approval by the Coast Guard by July 1, 2004. Any good faith 
approach to port security would demand no less. To be sure, would-be 
terrorists will not wait for the passing of a technical future deadline 
to attack our ports; nor should port Employers wait to adequately 
protect our port facilities from such potential attacks.
    Common sense would indicate that waiting until July 1, 2004, in 
which to institute necessary port security measures actually could 
heighten the risk of potential terrorism during this waiting period. I 
understand that our employers are concerned about the cost of port 
security measures. The ILWU is mindful of their concerns and we 
understand that it may be cost prohibitive and impractical to subject 
every container to a thorough and complete inspection. However, every 
container that enters our ports can and should be subjected to a 
security check. When there is a conflict between efficiency in the 
maritime transportation system versus additional security measures that 
will enhance the security of the system and our port communities, we 
believe that security should prevail.
    The ILWU has worked closely with TSA in developing the TWIC ID, 
envisioned as a nation wide transportation worker ID security program. 
The prototype phase now underway in the ports has already actively 
involved many ILWU members, an indication of the realization by the 
most average worker just how serious security has become. It is also an 
indication of the degree of commitment the ILWU has exhibited. Only 
through a dedicated and unified effort by all stakeholders will true 
port security be achieved.
    Finally, we ask the Congress and the Administration to fully fund 
port security. It is critical that when the facility security plans are 
finalized that money is available for optimum security rather minimal 
security. We applaud the members of this committee, and particularly 
Senator Hollings, for efforts to secure the necessary funding. If a 
terrorist attack occurred in a major port, the lives of our workers, 
families, and community would be lost. The national economy would be 
badly shaken. It is incumbent on the Congress to provide the necessary 
funding to meet longshore labor and other port workers security 
objectives.
    On behalf of the members of the International Longshore and 
Warehouse Union, I thank you for the opportunity to testify today. I 
would be pleased to answer your questions.
                                 ______
                                 
                              Attachment 1

    ILWU Proposal For Special CLRC Minutes Re Waterfront Security--
                           September 20, 2001

    The CLRC met to begin assessing waterfront security issues in light 
of the terrorist attacks inflicted on the United States on September 
11, 2001. The Coast Parties condemn these terrorist acts and will not 
be deterred from performing the work that is so vital to the nation's 
interest. Accordingly, the CLRC agreed to the following:

  (1)  The Union and the Employers pledge to work together to assess 
        the safety of waterfront personnel and the security of 
        operations covered by the PCL&CA with respect to the threat of 
        terrorist attacks.

  (2)  The Union and the Employers. through the CLRC, will jointly 
        develop any programs and initiatives that they deem appropriate 
        in response to the threat of terrorist attacks affecting 
        waterfront personnel and operations covered by the PCL&CA.

  (3)  The Employers will promptly notify the Union of any developments 
        and initiatives, including any actual or proposed government 
        mandates that could affect waterfront security or operations 
        covered by the PCL&CA.

  (4)  The CLRC will have Waterfront Security as a standing item of its 
        regular meetings= agenda until such time as it deems 
        appropriate.

  (5)  The CLRC instructs all Joint Port Labor Relations Committee to 
        review Waterfront Security as a standing item of their regular 
        meetings--agenda and to report promptly to the CLRC any 
        problems or proposals for its review and action.

    The CLRC agreed to send copies of these minutes to all JPLRC's by 
facsimile today.
                                 ______
                                 
                                                    August 28, 2002
Joseph Miniace,
President and CEO,
Pacific Maritime Association,
San Francisco, CA.

Re: Letter of Understanding on Port Security

Dear Mr. Miniace:

    The Parties agree that the Pacific Coast longshore industry must 
expand port security measures to address the new threats of terrorism 
arising from the tragic events of September 11, 2001. The Parties 
recognize that though many port security provisions may eventually be 
mandated by law, the Coast Parties must act responsibly and 
proactively, utilizing their expertise in port operations, to have in 
place immediate security measures for the protection of port workers 
and 'communities. Accordingly, this will confirm that the Parties have 
agreed to implement under the Pacific Coast Longshore and Clerks 
Agreement (PCL&CA) the following port security measures and to work 
together to lobby the Federal Government to adopt laws and regulations 
that are consistent with these provisions:

  (1)  Any work and functions covered by section 1 of the PCL&CA that 
        are to be performed as part of any port security measures that 
        may be mandated by law or regulation shall be performed by ILWU 
        bargaining unit members.

  (2)  The Union and the Employers pledge to work together in good 
        faith to assess and address the safety of waterfront personnel 
        and the security of operations covered by the PCL&CA with 
        respect to the threat of terrorist attacks. The Union and 
        Employers also agree to work together in good faith in 
        implementing any security procedures that may be required by 
        law.

  (3)  The. Union and the Employers, through the CLRC and the JPLRC's, 
        will Jointly develop a security plan for each port area as well 
        as security plans for each marine facility covered by the 
        PCL&CA These plans shall, among other things, contain 
        procedures for:

    (a)  the identification, assessment, prevention and response to 
            security breaches, emergencies, hazards to health and 
            safety, and threatened and actual terrorist acts;

    (b)  notifying waterfront personnel of emergencies and hazards, for 
            evacuating and otherwise protecting personnel from such 
            dangers, and for determining that personnel may be returned 
            to the area without danger to their health and safety;

  (8)  Any conflicting law or regulation shall supersede any 
        contractual provision regarding port security and related 
        health and safety issues; however, these contractual provisions 
        may expand any legal obligations in this area unless 
        specifically prohibited by law or regulation.

    Please confirm your agreement by signing below.
            Yours truly,
                                             James Spinosa,
                                           International President.
Understanding Confirmed:
Joseph Miniace,
President and CEO
Pacific Maritime Association
                                 ______
                                 
                              Attachment 2
                                Eagle Marine Services, Ltd.
                                                             3/4/02
ILWU Local 52
Seattle, WA

Attn: John Daquisto

John,

    As was discussed last week we have discontinued the checking of 
seals containers loading to our on dock rail and the inspection of 
empty containers discharging from on dock rail. We do not interpret 
this as a change in method of operation and therefore section 15.12 
does not apply. We refer to section 1.21 which addresses the employers 
right to determine what work will be performed.
    If either of these duties are to be performed in the future will 
done in accordance with the PCCCD.
            Regards,
                                              Kelly Garber,
                                           Operations Manager, GGN.
                                 ______
                                 
                                                    Seattle
                                                   January 15, 2002
Scott Godfrey, President
Labor Relations Committee
ILWU Local 52
Seattle, WA

Dear Committee Members,

    This letter is intended to inform you of some procedural changes 
that will be taking place at the in-gate Terminal 18, related to the 
processing and receiving of export full and empty containers. Within 
the next few weeks, pedestals and cameras will be installed in the 
lanes. As a result, the in-gate clerks will be moved into a ``kitchen/
tower'' situation where they will no longer be in the lanes, but will 
be stationed in the gate house building. The cameras will allow the 
clerk to see all four sides of the container from inside the building 
and the pedestal monitors will be used to display the yard location to 
the trucker. Tickets will no longer be given to the trucker.
    As previously stated above, the hardware will be installed within 
the next few weeks but we don't expect to implement the new procedures 
for a couple of months. Please be advised that we have consulted with 
the appropriate regulatory agencies and a camera inspection of export 
containers is allowed by a marine terminal as long as all four sides of 
the container are visible. If you have any questions regarding this 
letter please let us know, as we would be happy to meet with your 
committee upon request to discuss these changes.
            Sincerely,
                                          Graham C. Hunter,
                                                    Ops/Labor Mgr.,
                                                            SSAT, T-18.
Scott Munger--PMA
Sandra Starkey--PMA
Lee MacGregor--SSAT
Steve Hanses--SSAT
                                 ______
                                 
                                  SSA--Terminal 18--Seattle
To: Dennis/Bob
From: Lee
CC: Graham/Steve
Date: 02/15/01
Re: Gate one change

    Please be advised that is has been decided by SSAT Terminal 18 that 
inspections of export containers arriving on trucker's own equipment 
are no longer required. Therefore, as of Tuesday, 2/20/01, the number 
of mechanics working the full in lanes will be reduced, with the 
remaining mechanic's focus being to inspect line owned chassis and the 
associated containers being received.
    Please instruct your clerks that they are not to leave their booth 
to inspect export loads that are on trucker's own equipment. They are 
to receive all information from the drivers (same as today) for 
processing and they will only need to leave their booths for CY moves 
if a mechanic is available. Even though mechanics will be present to 
inspect CY moves, if the clerk has finished the transaction and a 
mechanic has not arrived, the clerks are to process the truck without 
the inspection. This also means that seal number/license number 
verification is not required for these types of moves.
    Please note, all renter boats will need inspections and seal 
verification, regardless of what type of chassis being received.
    Thank you for your cooperation.
                                                        Lee
                                 ______
                                 
                               Marine Terminals Corporation
                                         San Pedro, CA, May 2, 2003
Mike Zuliani
President, ILWU Marine Clerks, Local 63
San Pedro, CA

Re: New Method of Operation at WBCT, SP 126

Mike:

    Please be advised that effective Monday, May 12, the West Basin 
Container Terminal (SP 126) will be eliminating seal number 
verification and empty inspections on all equipment entering the 
terminal. The seal number will be obtained from the truck driver and 
received by the Marine Tower Clerk via the existing gate audio systems.
    This new method of operation will reduce the daily number of marine 
clerks employed by approximately four.
    Please feel free to contact me if you have any questions or 
concerns.
            Sincerely
                                              Sean Lindsay,
                                  General Manager, Labor Relations,
                                          Marine Terminals Corporation.
Adrian Diaz--VP Local 63
Mark Wheeler--WBCT
Robert Owens--MTC
Dave Adano--MTC
Walter Romanowski--MTC
Tim Kennedy--PMA

    Senator Breaux. [presiding]. Thank you very much. I 
apologize for having to go back and forth, we had a vote on the 
Senate floor. And I'm sorry for the interruption. Thank you 
very much for being with us.
    Let me start. Mr. Koch, one of the concepts was, to make 
sure that the cargo that's coming into the United States is 
safe and secure. After it's in the port, it's very difficult to 
do that. It's certainly more difficult to do it on a ship in 
port than it would be to do it when that ship is located in a 
foreign port, on its way to the United States. And you heard, 
the Admiral and Mr. Bonner talk about how 38 foreign ports now 
have adequate inspection-type facilities that we would approve 
in order for them to be able to ship their products to the 
United States. And I guess the question is, Suppose we just 
said, ``Look, you're not going to ship to the United States 
unless and until you have an approved port''--what would that 
do to your folks?
    Mr. Koch. I think it's the question of the criteria, 
Senator, which is--are we talking about being compliant with 
the ISPS code?
    Senator Breaux. Yes, it would have to be something that the 
United States would say, ``Look, if you want your ship to call 
on the Port of New Orleans or the Port of Long Beach or on 
Baltimore or whatever, you have to have that ship originate in 
a port that has an approved inspection system on products that 
are coming to the United States.''
    Mr. Koch. Well----
    Senator Breaux. ''Until you have it, we're not going to let 
you do it.``
    Mr. Koch. What I think is important is to draw a 
distinction between ISPS code and CSI, which is the set of 
agreements that Commissioner Bonner was talking about, where 
they put the U.S. Customs people in the foreign ports, have to 
have the VACIS inspection equipment, and have the information 
sharing arrangement with the foreign customs authority and 
where after, let's say, a container is identified by ATS as 
having a question, U.S. Customs asks Dutch Customs, ``We want 
you to look at that.'' Because that's separate and----
    Senator Breaux. Yes, what would happen?
    Mr. Koch.--beyond the required----
    Senator Breaux. What would happen if we said you couldn't 
come to the U.S. until you have that system in place?
    Mr. Koch. I think you have to give people a lot of lead 
time to put it in place. While there are 38 ports on that list, 
only 18 are currently operational. And it's the kind of 
strategy that we'd have to sit down with our trading partners 
and really work through to make sure that we give people enough 
time that trade is not brought to a halt, and people can plan 
and know what is expected of them and get it in place in time.
    Senator Breaux. I take it that we're moving to put these 
systems in place in the larger ports. I'm not so much worried 
about a ship with a loaded container of explosives coming in 
from Rotterdam or from Singapore as I am coming in from some 
small, third-world country, or a Caribbean island, where 
someone has transported some device to that island to stick on 
a rusty bucket to come into the Port of Miami or the Port of 
New Orleans or any of those ports. Many of those ports will 
never have any kind of a system in place. I mean, they're 
barely operational. And yet they're loading vessels that are 
much larger than the one that blew up the USS Cole. Seems to me 
that--obviously, if I was a terrorist trying to load a ship 
coming to the United States to do grave damage, I wouldn't load 
it in Singapore or Rotterdam; I'd do it in some little third-
world country, where I'd buy off everybody in the port and load 
the ship, and ship it on to the United States. I mean, how do 
we address that? I mean, can we address that?
    Mr. Koch. The potential vectors are so numerous, it makes 
your head hurt. I mean, I think we have to realize that there 
are al Qaeda cells in Hamburg, in Spain, in a lot of places, so 
you can't just assume something coming through Rotterdam is 
automatically safe because it's coming through Rotterdam. I 
think you have to use the kind of more sophisticated screening 
that ATS is supposed to be, which is--you want to know as much 
as you can about that box, so you can make as intelligent a 
risk assessment decision as you can.
    Senator Breaux. I take it the answer is yes, but can you 
elaborate perhaps on how the industry is working with the ports 
to try to facilitate this--I mean, this is not anybody's sole 
responsibility. It's not Congress' sole responsibility, it's 
not the shipping companies' sole responsibility, it's not the 
longshoremen's sole responsibility by themselves, it's not the 
port by themselves. It has got to be a coordinated effort, or 
it will never work. So how are the folks that you deal with 
working with the ports and with the government to help make 
this work?
    Mr. Koch. Well, we're trying to support the government on 
every initiative that we can, whether it's Coast Guard, whether 
it's Customs, whoever it is. We try to sit down with them and 
work through these issues. We've supported the 24-hour rule, 
we've supported the ISPS code. We're supporting the Coast Guard 
and its implementation, working through it with them; working 
with Customs, for example, on these ATS questions, ``What 
information do you want, from whom, when? Let's get agreement 
on what it is you're trying to build.'' Then we can define what 
the gaps are between what we want to have, what we presently 
have, and then we can sit down and figure out, OK, there's this 
option or there's this option, and try to work through with 
them.
    I would observe that I think what this security challenge 
has done is, it has brought labor, carriers, shippers, and 
third parties actually closer together, because we all 
recognize there's a common challenge here. We all want to work 
with the government in every way we can. A lot of this is 
beyond our ability simply to come up with solutions. If it 
doesn't work for the government, it doesn't work, because 
they're the ultimate assessor of what ships get inspected and 
what cargo gets inspected, as is appropriate. So I think we 
view ourselves as partners, working with government in any way 
we can on this, and there's no--as you point out, there's no 
silver bullet; it's taking every piece, whether it's ship, 
port, cargo, people, and working on all of them simultaneously, 
and it's a huge challenge.
    Senator Breaux. Yes.
    Mr. LaGrange, you talked about coming to the Port of New 
Orleans on 9/10, and then the tragic events of 9/11 the next 
day. Not only in the Port of New Orleans, but in the other 
major ports around the country, what would you say is different 
today from what it was on that awful day of 9/11, in terms of 
security?
    I mean, when we had our hearings, quite frankly, I was 
amazed and appalled at the lack of security in the ports with 
regard to protective zones around ships in the port and what 
have you. Going back to the Cole, a little 35-foot boat pulled 
alongside of a military naval vessel and almost blew it to 
pieces and sunk it. And yet I saw, in some ports, the only 
security was a 25-foot fiberglass bass boat that would pull 
around and point out where the ``Do Not Dock'' signs are, and 
it really wasn't much of anything. I mean, that wasn't going to 
stop anybody intent on blowing up a vessel.
    You and I know that in the Port of Houston, New Orleans, 
Baltimore, and in so many other ports, the port sometimes has, 
a chemical plant, an LNG facility, an oil and gas refinery, 
located right in the middle of a city.
    What is different today, in reality, in the Port of New 
Orleans or any of the other ports, that was not there on 9/11, 
in terms of security?
    Mr. LaGrange. Just yesterday, here in Washington, the 
American Association of Port Authorities Legislative Planning 
Council met in--over 150 corporate members, the major ports, 
all of the players in the country--and unanimously, again, 
adopted a resolution supporting $400 million in annual requests 
needed, and we feel as though for quite some time.
    What's difference is, as an example, to use an analogy, the 
week after 9/11 we were rushed to a scene where a guy in a 
kayak with a red box on the front of his kayak, in the 
Mississippi River, had violated the safety zone of the Grandeur 
of the Seas, Royal Caribbean's cruise line that calls on the 
port. As it turned out, it was a guy in a kayak heading to the 
Gulf of Mexico from Minnesota, and that was his lunch box up on 
the hull of the kayak.
    Senator Breaux. You all should have picked him just on 
basic principles of not being----
    [Laughter.]
    Mr. LaGrange. That never would--he never would have been 
accosted, he never would have been stopped, there wouldn't have 
been a safety zone on that cruise ship the week before. And 
that's just a small analogy.
    I think where a lot of the problems are happening now--much 
is happening, but, as I said, not enough has happened, earlier. 
We just have so many resources and so much wherewithal, and 
unfunded mandates or partially funded mandates seem to be the 
order of the day, and we just simply can't stop the order of 
facilitating commerce for security. The Admiral alluded to, 
many times, a balance, and that's basically what we're trying 
to do, balance everything to still make it work and happen.
    Senator Breaux. How is the Port of New Orleans security 
plan progressing?
    Mr. LaGrange. Oh, it's--well. It's been accepted. It's not 
implemented, but it's been accepted by the Coast Guard. It's 
one of the few that he mentioned earlier. We feel really proud 
about that. And lion's share of that was part and parcel 
following the Florida's Ports Council, and starting early on.
    Senator Breaux. So, you have devised a plan, for the Port 
of New Orleans that meets the Federal requirements of what they 
would like to see a plan consist of. But you haven't 
implemented it, and part of that's financial.
    Mr. LaGrange. Exactly. Eight million of $60 million in 
needs would be 100 percent implementation at this point in 
time. The $60 million would.
    Senator Breaux. Do you know if the ports have attempted to 
raise additional funds in some fashion in order to help 
implement the plan? Or are the ports saying, ``Look, we just 
need more Federal money, and we're not going to do anything 
until we get money from Washington?'' Have the ports, in 
general, tried to add more money to their own budgets in this 
area, do they get the states to help, or the port authorities 
to help, or do they try generating funds locally to help meet 
this requirement?
    Mr. LaGrange. Right. That movement has started. We're doing 
it in New Orleans on a public/private basis, working with our 
tenants. We're a land mart port, and the stevedores actually 
operate our terminals, for the most part, with one or two 
exceptions. But there is some very casual talk going on--in the 
fact of--in the case of South Carolina, it has been a little 
more than casual--the opportunity of looking at some fee, maybe 
not called a security fee, but some fee that could be imposed 
at each port individually, dependent on what that port's needs 
may be. Just recently, in the airport in New Jersey, I noticed 
on my ticket a $15, I think it was, surcharge for security, a 
point in case. And our question, at the LPC with the APA is, if 
airport can do it, maybe we should be thinking about doing it, 
particularly at the cruise line terminals. The other--how it 
would be implemented at the other level, I'm just really not 
sure yet, but we are beginning very casual conversations and 
talks about it, looking at the reality of how slow this is 
going to take to get it at the Federal level.
    Senator Breaux. Just out of curiosity, when a cruise ship 
comes in, and the passengers disembark and get back on the 
vessel, the inspections that are done of those movements and 
the loading of those ships, is under the jurisdiction of the 
port or is it the Coast Guard?
    Mr. LaGrange. Customs, for the most part.
    Senator Breaux. Customs, for the most part.
    Mr. LaGrange. Yes, Customs, for the most part. And there is 
100 percent screening of every luggage. But, again--that 
message was made very poignant and very clear earlier--it's a 
metal detection only.
    Senator Breaux. Yes, Senator Nelson correctly pointed that 
out. I visited the Port of Miami, and saw that every single 
suitcase onboard that huge ship of 3,000 passengers went 
through a metal detector, but nothing else. So, if I was a 
terrorist, I wouldn't ship anything metal. They'd get my little 
pocketknife again, but they're not going to get the plastic 
bomb.
    Dr. Carafano, I did not get to hear your testimony. I've 
looked through your statement though. We tried to talk 
yesterday about the type of transportation security risk we 
have in this country. It seems like we spent four and a half 
billion dollars, approximately, on airline security, and I 
don't know what else we can do on airline security that we 
haven't already done. We haven't come anywhere close to that, 
in terms of both rail security or port security. If I were a 
terrorist planning where to attack the United States, I 
certainly would not go to an airline. I would go to something 
else that has fewer implemented security measures. That would 
be either railroads or ports and all their vulnerabilities.
    Are ports more vulnerable than airlines, in your opinion?
    Mr. Carafano. Yes, Senator, of course they are. The real 
question is, How do you deal with that vulnerability? You know, 
I'd just like to make two points real quick on that. Virtually 
all of this infrastructure is in the private sector, and 
security is part of the cost of doing business. And do believe, 
at the end of the day, it's going to be--most of the security 
costs are going to fall, properly, on the private sector to pay 
for this.
    And, now, is there a proper role for the Federal 
Government? Sure there is. Does the Federal Government have a 
role in improving critical infrastructure protection? 
Absolutely. And there are things it should be doing. But I 
think we have to look at what's an investment in that area, as 
opposed to how can it really contribute to improving security 
in the maritime domain. You know, we look at the numbers for 
critical infrastructure protection, and they're enormous 
because of the vulnerabilities are absolutely enormous.
    Senator Breaux. Mr. LaGrange mentioned a user fee at the 
New Jersey Airport. I guess, at the terminal for the airlines. 
The money's got to come from somewhere. And it's either going 
to be in terms of a user fee for the people who use the ports, 
or it's going to come from the taxpayers, who may not directly 
use the port at all. What would your recommendation be if the 
ports needed additional funding? I mean, do you have any 
recommendation----
    Mr. Carafano. I think----
    Senator Breaux.--about it?
    Mr. Carafano. Primarily for critical infrastructure 
protection, I would look for solutions that are based on good, 
solid business models that--if a port can compete economically, 
it has to do safety things, it has to do environmental things, 
and it has to do security things. So I think, in the long term, 
those kinds of solutions will be most sustainable.
    I think in the critical infrastructure protection area, the 
thing that the Federal Government could do best is to provide 
consistency to the business model. I mean, we should--I think 
we should go to multi-year funding for these grants, so people 
have a clear understanding of how much money is really coming 
down the pipeline, ``What can I really count on?'' And then we 
ought to be very clear, in terms of what our national 
performance standards are, what we expect state and local 
governments to do, and we ought to be very clear about what our 
priorities are and who's going to get this money. And that way, 
people can approach this with a sense of, ``Now I know what 
assistance I'm going to get.''
    I really think where we can make our bigger bang for the 
buck is in domain awareness and increasing counterterrorism 
operations--you know, finding this stuff before it gets to the 
port, because the things are so vast. So, for example, I think 
the biggest bang we could get for our buck would be rapidly 
increasing funding for Deepwater. I mean, Deepwater cuts across 
every single mission area in the maritime domain. We know that 
if we spend a lot more, we're going to get a lot--we're going 
to get much more capability, and we know exactly what we're 
going to get for our money, as opposed to when we just buy 
another fence or a light or a rent-a-cop. And we know we're 
actually----
    Senator Breaux. All right.
    Mr. Carafano.--we know we're actually going to create $4 
billion, which can then be plowed back into the maritime 
security role.
    Senator Breaux. The Deepwater Program is a real success, 
and is going to be a success. I know that we are using vessels 
from the Coast Guard for patrol boats that are going to be very 
important to this effort. We are extending their length from 
110 feet to 123 feet for some of the patrol boats, and some of 
the larger vessels, three and four-hundred-foot cutters are all 
going to be very important in the whole scheme of things. This 
is something we need to continue. And I think this Committee is 
going to insist that the Deepwater Program be adequately 
funded, because of its importance.
    With regard to the private money that is being spent by the 
ports to provide some of their security measures, ports have to 
be competitive, and I would imagine that there would be some 
that would say, ``All right, if I'm up in New Jersey, I'm not 
going to do all of this, because the Port of Houston may not do 
it.'' So then nobody does it. Is there a way to ensure that 
there's consistency here? Is the Federal Government saying, 
``All right, ports, you've got to all do the following 
things,'' so that one port in one part of the country will not 
do it because it'll make him noncompetitive with other ports. 
Therefore, nothing gets done. Any thoughts about how we could 
address that?
    Mr. Carafano. You know, I think--well, the answer is--I 
mean, I think we need to say, ``You need to do this.'' But in 
terms of standards, ``You need to provide this kind of 
security,'' and then I think we need to leave it up to the 
ports to determine the best way to do that.
    I actually think that ISPS and MTSA provide a good 
foundation for that. I think what's important is the funding, 
for example, for the Coast Guard, to make sure that--and, I 
think, grant funding to complete an assessment, is extremely 
important. I think it's in funding for the Coast Guard, so 
they're going back and they're doing assessments and audits and 
inspections to make sure that people are compliant with the 
standards.
    And I think the Admiral had it right. I mean, I think--
well, first of all, when we say, ``Who's providing good 
security, and who isn't,'' they're going to be more economic 
competitive, and they're going to get more business. So, in the 
end of the day, I think a business model will solve that.
    And I also think that, you know, if people recognize that 
they're--I mean, I think in a large sense, the private sector 
story is, that there is value in security. And Target, for 
example, recently has created their own brand-new computer 
system to audit their supply chain. And they did this because 
they realize that there's money to be made in security. It 
provides better visibility, it reduces pilferage. And, at the 
end of the day, if something really happens, the economic loss 
to all of us is going to be terrible. I mean, there is, I 
think--I don't think we acknowledge it quite often, but there 
is money to be made in security, and I think the private sector 
will respond if the standard----
    Senator Breaux. Oh, there's money to be made in providing 
the security. I'm worried about the people who have to pay for 
it. I told them yesterday, I want to go into the dog business, 
because they're going to be buying a lot of them.
    [Laughter.]
    Senator Breaux. The dogs to sniff out everything in the 
world, and that's going to be a heck of a business to be in.
    But, if the Port of New Orleans as an example, provides 
first-class security facilities and is the most secure port in 
the world, and the Port of Houston decides, ``We're not going 
to do that.'' Then a ship has to decide whether they're going 
to call at the Port of New Orleans, which is the safest, but, 
by far, the most expensive port----
    Mr. Carafano. Right.
    Senator Breaux.--they're going to lose business to the Port 
of Houston. There ought to be some kind of a national standard 
so that all the ports have to play by the same rules. If one 
wants to be the most secure port in the world, and the one in 
the next state over says, ``Well, we'll cut it in half, and 
we'll cut our rates in half,'' the shippers are going to go use 
the other port that is the cheapest, but maybe not quite as 
secure.
    Mr. Carafano. Well, I do think that MTSA and ISPS provide a 
good foundation for that. And I also think that, you know, for 
example, if you were Target of the--and I go back to the point 
I made earlier about allowing the private sector to identify 
and have validated and certified their means of providing a 
secure supply chain--if you go to the Target of the world and 
say, ``Look, we don't care what happens''--but if, for example, 
you've determined--or we agree that the Port of Houston is a 
secure port, and that we can depend on this. So if something 
goes off in New York, there's no way that we're going to stop 
stuff in the Port of Houston unless we know for a fact there's 
a bomb in Houston. Then Target may very well say, ``Well, you 
know something? It makes good economic sense for me to make a 
deal to move my stuff through Houston, because I know I'll 
always be able to get through.'' And I think that, at the end 
of the day, those factors will become the real driver to--
because we need security that's sustained for--you know, we 
know now it took five to 7 years to plan and execute the 9/11 
attack. That fact that there hasn't been an attack is 
irrelevant. The next attack may come five, ten, fifteen years 
from now.
    Senator Breaux. Yes.
    Mr. Carafano. We need a physically responsible system 
that's going to get us ten or fifteen, twenty years in the 
future.
    Senator Breaux. Well----
    Mr. Carafano. I think Federal funding's not going to do 
that.
    Senator Breaux. Mike, how do you pronounce your last name? 
I'm sorry.
    Mr. Mitre. Mitre.
    Senator Breaux. Mitre, OK. I noticed, in some of our 
hearings right after 9/11, that there was a lack of restriction 
and easy access to ports. I mean, people just drove in and 
drove out with very little checking. There were tourists, in 
the old days, walking around the port, looking at the port, 
looking at the big ships. That cannot be allowed today. Things 
have changed, and people are going to be restricted. I think 
you spoke about the question that if you're in a port today, 
you ought to be there for a reason, and it ought to be 
verifiable. How is that being handled? If some people don't 
want to be restricted in their activities, is it working all 
right now? There are many more requirements regarding access to 
ports and who's there and what your business is. How is that 
being handled by the workers themselves? Is that an acceptable 
system, by requiring more identification, and reasons for being 
in a port?
    Mr. Mitre. Well, I think--especially since 9/11, I think 
there has been a new--almost like a renaissance, a new rebirth, 
of awareness, the fact that we do need security.
    One of the problems with the ports is, they were designed 
not to be secure. We didn't used to have fences. We could 
drive----
    Senator Breaux. Sure.
    Mr. Mitre.--right up to the ship. So we had always less. 
And fences and other things are kind of--I don't want to say 
Band-aids, but are things that have been added on. They weren't 
built in as part of the infrastructure. The problem is, with 
what you're talking about now, is this, we used to have a 
mentality, ``No, we don't want an ID, we don't want''--but, you 
know, really, going back to the Vietnam War, we used to have to 
have--for probably 6, 7 years, we had a port security card. 
Everyone had to have one. And, you know, there was no problem, 
because people understood. But, at that time, we hadn't had an 
incident domestically. Now that we've had an incident 
domestically, our workforce is very much--very, very much more 
aware. And it's not a problem.
    To get on a terminal, you have to have either the company 
picture ID or your driver's license to get on, and everyone's 
checked. If you don't have it, you don't come on, and you don't 
work. And I think we have, now, more self-reporting things 
about--because we have a number of them--we can call the Coast 
Guard--that if a terminal isn't asking, we have our own guys 
calling the Coast Guard saying, ``Hey, we have a problem. 
They're not even asking us for our ID anymore.'' And for us to 
switch around the mentality from not wanting it----
    Senator Breaux. Right.
    Mr. Mitre.--to that, that kind of answers the question, in 
and of itself, I think.
    Senator Breaux. Well, I'm glad to hear that. I was 
particularly interested in your comments about the empty 
containers. Does anyone have a comment on that? Mr. Mitre 
talked about, the empty containers not being checked and 
certified. I mean, if I wanted to load something, I'd go find 
an empty container I know is not going to be checked, and put 
whatever I want in the empty container and backload it to 
somewhere else.
    Mr. LaGrange. At the Port of New Orleans, in particular--I 
think a lot of the ports are addressing that--we're performing 
a study right now, called the ``steel wheel shuttle,'' which 
will relocate the empties to an outer, more rural, sparsely 
populated location. It's kind of like putting a Band Aid on 
something, if you will. But with the resources and funds 
available, we'll utilize a smaller shallow draft port with good 
rail access to do that, where the empties could either be 
railed or barged to that site. But, in the interim, you still 
have the issue that Mr. Mitre alluded to, you still have the 
box at that point, and the dangerous point is when it gets off 
the ship or when it's ready to put on the ship. So that's not 
the final solution, either.
    Senator if I may, I just wanted to add one comment that, 
for a long time, the Ports Association has been on record, 
unlike the airports and others, as feeling as though a 
significant contribution is already being made by the ports to 
the Federal budget. Customs being one perfect example. So, in 
terms of your user-fee question a little earlier, I want you to 
know it's a sensitive issue with all ports. It's not as though 
we're not trying to solve the solution, but we feel as though 
we don't have, even at the other infrastructure level, any of 
those programs in place at other entities like ours.
    Senator Breaux. Thank you.
    Can anybody answer this question: When a container box is 
sealed in a foreign port destined for New Orleans, who seals it 
over there? Is it the government, or is it the company that 
does that? Does the shipper seal it himself, or is there a 
Coast Guard equivalent that says, ``Well, we're looking at this 
box, and this is what's in there, and I'm sealing it?''
    Mr. Koch. The government generally not involved with 
sealing the box. The time the seal should be applied to the box 
is by the person stuffing that container, the shipper at 
origin. That's the time that the seal should be put on. That's 
the time most seals are put on.
    Senator Breaux. OK, well, how do we find boxes that have 
illegal commodities in it? I mean----
    Mr. Koch. Well----
    Senator Breaux.--if you've just got a crooked sealer over 
there that is in cooperation with whoever's trying to ship 
drugs, or whatever----
    Mr. Koch. That certainly can happen. Or seals can be 
tampered with, or containers could be tampered with. Sometimes 
a seal isn't put on at stuffing, but the truck driver will 
carry it, because they know, ``I'm going to go down, I'm going 
to hit local Customs. Local Customs is going to open the box 
and look inside of it, so I won't put the seal on until I'm 
finished with local Customs.'' In some countries, local Customs 
pops the seals on every single container, and then re-puts a 
new seal on. This is an area that requires attention. The World 
Shipping Council, together with the NIT League and together 
with the Mass Retail Association, put together a comprehensive 
seal-verification proposal that we submitted to the government 
in September.
    Senator Breaux. I think that's a key point in the shipping 
process. If each box has to have a seal, you could have someone 
certify that this is what's in the box. You've got to put a 
foolproof system if, in fact, that person is doing their job.
    Mr. Koch. Well, it's one indicator. It's not foolproof, 
because, as you point out, Senator, you could have somebody 
stuffing the box, who has bad intent, and then put a good seal 
on it.
    Senator Breaux. Oh, I understand. But, I mean, if you had 
the right person sealing every box, you would be certifying 
that that box doesn't have a bomb or anything else in it. But 
it's always a problem making sure it's an honest person doing 
it.
    Mr. Koch. Which is what the C-TPAT Program is trying to get 
at, which is, they're trying to identify those importers who 
will take the steps to go to their foreign manufacturing 
places, require that a high-security seal be put on at 
stuffing, and then track it through with their vendors all the 
way through.
    Senator Breaux. I mean, if we had absolute faith at that 
point in the process, we wouldn't need all 145 container 
screeners that screen every box that comes through every port. 
This is a huge expense.
    Mr. Mitre, do you have any comments on these seals?
    Mr. Mitre. Yes, you know--yes, I do--you know, one of the 
things that I think is absolutely necessary to remember is, one 
of our points about checking the integrity of the seal here is 
exactly for the reasons that have been made. It's a very quick 
way to do it. You can see if the seal's been tampered with. And 
one of the things we always used to do is, the clerk that was 
down there used to have a list of what the numbers were on the 
seal. That number will match up with the manifest list. He 
didn't have to write it down. He could just see it. Someone 
else putting another seal on it, a dummy seal, that immediately 
gets it right there. And that was always a very, very important 
thing. Very important.
    The other point, besides that one, is the fact that--let's 
say, for example, someone was to cut a seal off somewhere to 
get into the interior of the container, whether they put 
explosives in it or to steal something, whatever it is, for 
contraband, or whatever. We used the recognition of having a 
seal or not as an indication of something's wrong. And, for 
example, we have empty lanes at the terminals. Empties don't 
have seals on them. They should, but they don't. The other day, 
a container was going through with a seal on it, through an 
empty lane. And someone just said, ``Hey, wait a minute. Why's 
that thing's got the seal there?'' Because, at that one place, 
he--that's not part of the job, but the guy just happened to 
spot it. They go, ``Hey, take that thing over there and open up 
the doors. Let's see what's going on here.'' And they got--I 
guess one of the Customs guys--and they got it over to the 
side, and it was full of flat screen TVs. The point is, is that 
seals, in and of themselves, are a quick, but it's an efficient 
way to see if something's wrong. And that's why we've made such 
a point of saying coming off the vessel--we're not asking them 
to take this huge half-hour thing, but it takes about 30 
seconds to check this seal and to check the integrity of it. 
And I think that's why it's--that's very important.
    Senator Breaux. The seals are not matched up with the 
manifest when they come off a ship?
    Mr. Koch. Carrier systems should have it manifested, and 
the seal number should be there. I think the objective we all 
agree on, I think, if a seal-verification process is in place, 
and that seal's been checked before it's loaded on the ship, 
then that should be all that's needed, because it's not going 
to be tampered with on the ship. Terrorists are not likely to 
go messing with a container once it's on a ship. Or at least 
the risk of that is extremely low. So we think if a seal 
verification's been done properly at the foreign port, you 
shouldn't need to do it when it's taken off the ship here.
    Senator Breaux. Well, these are all interesting points, and 
I think all of this has been very helpful. We heard from the 
Chairman and the Ranking Member. We are making a new effort on 
legislation to get something going here. In order to guarantee 
the ports have the means needed to implement the desired 
security systems. We could have the same degree of security at 
the ports as we do at the airports, which are much better than 
before 9/11.
    So I think you all have been very, very helpful, and your 
suggestions have been very, very important. And with that, the 
Committee will stand adjourned until further call of the Chair.
    [Whereupon, at 12:29 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Prepared Statement of Hon. Trent Lott, U.S. Senator from Mississippi
    I want to thank the Chairman for holding today's hearing, and thank 
all the witnesses for appearing before the Committee to discuss this 
important subject. I worked closely with the Committee on the Maritime 
Transportation Security Act of 2002, and I have followed the Department 
of Homeland Security's implementation of the Act's provisions. In 
general, I am pleased with the efforts to date, but I see that there is 
still much work to be done.
    The Department of Homeland Security is working on a number of 
initiatives to take advantage of the co-location of the various 
agencies under one roof. For instance, Customs and Immigration 
personnel are being cross-trained to handle each others' duties. This 
will help airports, such as Jackson International Airport in Jackson, 
Mississippi, to acquire an immigration screening capability with its 
current Customs workforce without additional personnel. I encourage the 
Department to expedite programs such as this.
    This co-location also provides an opportunity for the Department to 
eliminate some of the redundant efforts of these agencies to perform 
the same missions when they were housed in separate departments. For 
instance, during the 1980s, the Coast Guard and Customs Service both 
developed capabilities to intercept drug smugglers on sea and in the 
air. I recommend the Department consider whether to eliminate this 
duplication and assign each of these two missions to one or the other 
agency. From my perspective, it seems to me that the Coast Guard's 
ingrained ship and boat operating, maintaining, and personnel training 
system is naturally superior to Customs', and that the Customs Service 
aircraft fleet is more specialized for the air intercept mission than 
the Coast Guard's aircraft fleet.
    I also want to support Senator Snowe's statements advocating an 
increase in the Coast Guard's Deepwater program funding. It was clear 
to me at the beginning of this program that the Coast Guard's cutter 
and aircraft fleets were all reaching the end of their service lives 
simultaneously and would need replacement during the same 10-15 year 
period. I understood that the Coast Guard's proposed funding profile 
was based more on what OMB felt comfortable with than on what was 
needed to ensure that the Coast Guard's operational capability was 
maintained, so the time line was stretched out past 20 years. However, 
as we have recently seen, the equipment is not waiting for the funding 
to show up before it fails. The Coast Guard is losing operational 
capability under the current funding profile, and indications are that 
it will get worse. The Congress should fund the Deepwater program at 
least at the $1.1M level in FY05 so that replacement cutter and 
aircraft can be expedited.
    On the subject of port security, a great deal of attention has been 
paid to improving security at our Nation's largest seaports, and 
rightly so. However, while maritime-based attacks on ports such as Los 
Angeles or New York would clearly have major consequences for this 
nation, the hardening of those ports is proceeding at a much faster 
pace than for smaller ports. As others have noted, terrorists look for 
vulnerabilities as well as for effect. We also need to ensure that 
smaller ports with particularly sensitive vulnerabilities are hardened. 
For instance, Pascagoula, Mississippi has a Navy homeport, a major 
shipyard that builds Navy combatants, an oil refinery, and a natural 
gas pipeline.
    Thank you all for your attention to our nations' security.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                    (Ret.) Rear Admiral David Stone
    Question 1. Admiral Stone, your agency gave out the first three 
rounds port security grounds, and in my opinion consistent with the 
authorizing law. TSA set up a process to require each Coast Guard 
Captain of the Port to rank all grant applications in the district, 
after that the Maritime Administration's regional director worked with 
the Coast Guard to come up with a regional recommendation for ranking 
all of the grant applications. Grants were then forwarded to TSA where 
two panels comprised of officials from Coast Guard, TSA, and MARAD gave 
a final ranking and award. Grants were intended to help ensure 
compliance with Federal security plans, and prior to the adoption of 
plans to address Coast Guard identified security concerns. Recently, 
Secretary Ridge announced that he was shifting all grants the Office of 
Domestic Preparedness. Are we dumbing down the process, what was wrong 
with the approach that had been taken?
    Answer. The responsibility of securing our Nation's ports is a 
shared one. The Department of Homeland Security (DHS), the Department 
of Transportation (DOT), and other Federal agencies are working 
together to enhance security in partnership with the public and private 
entities that own and operate the Nation's ports. With the exception of 
the Office of Domestic Preparedness (ODP) administering the grants, the 
selection process will not be materially different. TSA, Coast Guard, 
and the Maritime Administration will continue to provide the necessary 
operational expertise for the grant programs as required by ODP. These 
functions include assisting with determination of eligibility and 
evaluation criteria, solicitation and application review procedures, 
selection recommendations, and post award technical monitoring. TSA 
will also continue to leverage existing transportation expertise by 
working with industry stakeholders, Coast Guard, and DOT modal 
administrations to assist ODP in ensuring that competitive Federal 
security grants are awarded to most eligible applications for the 
reduction or elimination of identified security vulnerabilities at 
ports.
    Additional information. The Office of Domestic Preparedness has 
become the Office of State and Local Government Coordination and 
Preparedness.

    Question 2. It is my understanding that your agency is working on a 
risk based analysis of intermodal cargo shipments, to facilitate 
targeting of cargo for purposes of inspection. It is my understanding 
that GAO also testified critically, that the Customs targeting system 
was not being adequately tested. Have TSA and Customs sat down together 
and critically reviewed each others methodologies? Would not that be 
the right thing to do?
    Answer. We agree that interagency coordination will yield a more 
robust information analysis and risk assessment approach for the 
Department. The Border and Transportation Security Directorate is 
addressing risk assessment issues mentioned above through a multi-
agency working group that includes TSA, CBP, USCG, and DOT. This 
working group is looking at vulnerabilities and security measures 
across the supply chain. Risk assessment is but one aspect of this 
review. BTS also has established an Office of Screening Coordination 
(OSC) that will be reviewing the various existing and proposed 
methodologies and overall domain awareness and risk assessment tools 
within DHS agencies that could be interlinked to provide more 
comprehensive assets to target cargo, vessels, and passengers more 
effectively. The Office of Screening Coordination will be conducting 
its review in the cargo analytical arena with the cooperation and 
participation of CBP, USCG, ICE, DOD, and DOT. OSC will review CBP's 
Automated Targeting System--Cargo and other targeting and domain 
awareness initiatives envisioned or under way TSA, USCG, and the 
National Maritime Information Center. The goal is to leverage all 
existing risk assessment tools within the Department.

    Question 3. How much Federal funding provided by Congress for port 
security grants remains to be allocated?
    Answer. For Fiscal Year 2004, $50 million in Congressionally 
appropriated port security grant funds remain to be allocated. 
Applications for this remaining money have been both solicited and 
received and are currently going through the multi-level, multi-agency 
review process. It is estimated that grants for the remaining funds 
will be awarded in the fall of 2004.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                   Rear Admiral David M. Stone (Ret.)
    Question 1. If your Federal budget for port security functions were 
doubled, in what ways would you use it to improve security?
    Answer. DHS has designated the United States Coast Guard (USCG) as 
the leading operational agency for maritime security issues. Other DHS 
agencies, including the Border and Transportation Security Directorate, 
Customs and Border Protection, and TSA, have been delegated lead and 
supporting roles by the Secretary for various sections of the Maritime 
Transportation Security Act. As the leading operational agency, USCG 
utilizes the resources and expertise of TSA, Customs and Border 
Protection (CBP), and other Federal agencies (Department of 
Transportation's MARAD, as an example) as part of a team to complement 
USCG actions within the overall maritime security regime. Whatever the 
budget level for port security functions, TSA would continue to carry 
out its mission in maritime security and continue to support the USCG 
in its lead role.

    Question 2. What is your intention for the use of the $17 million 
appropriation for OSC? Do you intend to share the results of Operation 
Safe Commerce with organizations like World Customs Organization, the 
International Standards Organization or the International Maritime 
Organization in order to help create an international container 
security standard?
    Answer. DHS anticipates that the Request for Applications for the 
$17 million appropriated in Fiscal Year 2004 for Operation Safe 
Commerce (OSC) is on track to be released later this summer, with final 
award anticipated in the fall. These grants are now administered by the 
Office of State and Local Government Coordination and Preparedness 
(formerly known as the Office of Domestic Preparedness) within DHS. 
This funding will be used to build on current OSC pilot projects, and 
may include other supply chains. The expenditure of the remaining funds 
will be fully coordinated within the Department and Congress to ensure 
that the cargo security efforts through OSC are integrated into broader 
departmental initiatives to secure the cargo supply chain.
    Results from the projects will be used to recommend container 
supply chain best practices and standards for use by commercial 
maritime shippers. Results will be shared with all relevant 
stakeholders, including World Customs Organization, the International 
Standards Organization and the International Maritime Organization.

    Question 3. Are there any plans to expand Operation Safe Commerce 
to the auto, bulk or break bulk shipping trades?
    Answer. As previously stated in Question 2 above, the remaining $17 
million in Operation Safe Commerce (OSC) funds will be used to build on 
current OSC pilot projects and may include other supply chains.

    Question 4. What are the goals of TSA and CBP for the Operation 
Safe Commerce program and how do you believe it can contribute to 
securing international commerce entering the U.S.?
    Answer. It is important to note that the goals for this program 
support the Department's goals for cargo and supply chain security. One 
departmental goal is to ensure effective cargo security from point of 
origin to final destination. In order to ensure that international and 
domestic approaches to cargo security are coordinated and policies are 
consistent, under BTS leadership, a working group consisting of 
personnel from TSA, CBP, USCG and Science & Technology has been meeting 
regularly. The working group is conducting a gap analysis on existing 
cargo security and intelligence programs, coordinating existing 
containerized cargo security programs and R&D efforts to identify 
synergies, and coordinating existing DHS component activities in the 
containerized cargo security environment.
    The working group's efforts at coordination include applying 
lessons learned from Operation Safe Commerce as well as leveraging 
existing CBP programs like the Container Security Initiative (CSI) and 
the Customs-Trade Partnership Against Terrorism (C-TPAT).

    Question 5. How far along is the Department in setting 
specifications for a ``smart container''? Do any effective technologies 
exist that can be applied at reasonable cost today?
    Answer. Through the BTS-lead working group described above, the 
Department is determining appropriate minimum standards for container 
security. This assessment will be complete this fall. This assessment 
includes a review of available technologies to determine what may be 
required within the short term (12 months) to enhance container 
security. As mentioned above this group is looking at the results of 
OSC and other programs designed to evaluate technologies and best 
business practices to improve container security while avoiding 
disruption of the flow of cargo. In addition to OSC, CBP is currently 
engaged with Customs Trade Partnership Against Terrorism (C-TPAT) 
members in established trade lanes to test Container Security Device 
(CSD) technology in order to develop standards for a ``smart 
container''. Data relative to such technology is assessed upon arrival 
in the United States and is ongoing. In FY03, DHS initiated the 
Homeland Security Advance Research Project Assessment (HSARPA) Advance 
Container Security Device Program with the objective of developing the 
next-generation shipping container security devices with multiple 
sensing modalities, ``smart'' condition monitoring, automated alerting, 
and advanced communications. HSARPA is conducting this development 
effort in cooperation with CBP, including the Smart Box Initiative and 
the efforts of the Applied Technology Division. HSARPA is also 
conducting this development effort in cooperation with the 
Transportation Security Administration's Operation Safe Commerce (OSC).
    The cost of technology is a major factor when assessing the 
viability of a certain product. The effectiveness of such technology, 
however, cannot be gauged without applying it to ``real world'' testing 
i.e., applying it to containers in established trade lanes. In order to 
determine if effective technology exists today that is technologically 
and operationally viable and can be applied at a reasonable cost, 
comprehensive testing must be conducted

    Question 6. If Operation Safe Commerce was supposed to guide TSA 
and CBP in creating international standards why is it that CBP 
announced standards prior to getting results from Operation Safe 
Commerce?
    Answer. The Department is still in the process of setting standards 
for cargo containers and to meet the MTSA requirements for performance 
standards in this area. DHS will consider the results of the OSC test 
bed in the development of these standards. In addition, within the 
context of the Container Security Initiative, CBP has identified 
several characteristics of a so-called ``smart container''. The 
Department supports CBP efforts to implement voluntary measures, but is 
still working to determine whether these criteria would be acceptable 
for an enforceable Departmental standard in support of MTSA 
requirements. Through a DHS advisory committee, we have engaged 
industry in a comprehensive discussion of minimum standards. We expect 
to issue formal standards later this year, with the results of OSC and 
other relevant programs considered as appropriate.

    Question 7. Is CBP involved in guiding Operation Safe Commerce? 
How?
    Answer. Yes. CBP plays an integral role in this grant program by 
providing input and lessons learned from existing CBP programs like the 
Container Security Initiative (CSI) and the Customs-Trade Partnership 
Against Terrorism (C-TPAT). CBP is an active participant in the OSC 
Executive Steering Committee, and CBP field staff are also involved as 
requested to assist with testing and operational issues associated with 
the program.
                                 ______
                                 
Written Questions Submitted to Hon. Thomas H. Collins and Responses by 
                     the United States Coast Guard
Intelligence Programs Within DHS
    Question 1. Why are four separate agencies, three of which are in 
the Department of Homeland Security (Coast Guard, Customs, and TSA), 
developing distinct intelligence programs?
    Answer. DHS component agencies, by virtue of fielding front line 
officers (CBP inspectors, ICE agents, USCG personnel, TSA screeners, 
etc.), each have an organic capacity to collect and generate 
information and intelligence, and each, by virtue of having mission 
specific operations, need to be able to analyze and disseminate that 
intelligence to its field personnel. At the same time, it is absolutely 
critical that that information and intelligence be provided to and 
analyzed at a higher level within DHS, and shared with other components 
of the department that did not generate it. For that reason, each of 
these agencies fields a collection and analysis capability that 
supports its specific mission, but also engages in robust information 
sharing with both IA and other members of the intelligence community.
Information Sharing
    Question 2. What are you doing to make sure intelligence is being 
shared among DHS, the Navy, and the rest of the intelligence community?
    Answer. The Coast Guard took an early role within DHS to ensure 
that intelligence products were accurate and available to the DHS 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
and throughout the entire Federal Government. The Coast Guard Command 
Center is co-located with the National Response Center (NRC) sharing 
threat information and reports of suspicious activities from the 
maritime industry and other maritime stakeholders. The Coast Guard has 
been functioning as the Information Sharing and Analysis Center for the 
maritime industry in accordance with PDD 63 since February 2003.
    Additionally, the Coast Guard and Navy continue to build an 
effective joint intelligence partnership to enhance maritime domain 
awareness. The Coast Guard's Intelligence Coordination Center is co-
located with the Office of Naval Intelligence, which comprise the 
National Maritime Intelligence Center (NMIC).
    The Coast Guard has also provided access to its intelligence 
databases, advice to other agencies and DHS components developing 
intelligence-shared architectures, and exchanged intelligence analysts 
and liaison officers with other agencies and components active in the 
maritime arena. These liaison officers work with the following 
organizations: Terrorist Threat Integration Center, Defense 
Intelligence Agency, Federal Bureau of Investigation, Border and 
Transportation Security, U.S. Navy, IAIP, National Security Agency, 
Central Intelligence Agency, National Drug Intelligence Center, El Paso 
Intelligence Center, and Joint Intelligence Task Force for Combating 
Terrorism.
    The Coast Guard and Border and Transportation Security (BTS) have 
also exchanged personnel to enhance data sharing between the CG 
Intelligence Coordination Center's COASTWATCH (which analyzes 
information from notice of arrival reports on vessels, people, and 
certain dangerous cargoes approaching U.S. ports) and BTS' National 
Targeting Center (cargo tracking process). While both systems are 
closely related, the Coast Guard's COASTWATCH and the Border and 
Transportation Service's National Targeting Center (NTC) have developed 
complementary roles in the area of targeting and tracking cargo, 
vessels, and people. This effort is enhanced by the exchange of BTS and 
CG personnel to eliminate duplication of efforts and ensure free flow 
of information such that the centers act nearly as one entity. The 
focus and expertise of the two efforts are however, separate 
functions--one based on a cargo targeting and tracking processes and 
one based on vessels and people from a law enforcement and intelligence 
perspective. The Coast Guard and BTS will continue developing practices 
and policies to improve the capability and capacity of these two 
systems.
Impediments
    Question 3. Are there specific impediments that restrict the 
ability of the Department of Navy to cooperate with respect to 
commercial and domestic information and data?
    Answer. While the Coast Guard cannot respond directly to the 
question for the Department of Navy, there is a well-established 
relationship between the Coast Guard and the Navy for sharing 
intelligence information specifically for maritime homeland security 
and maritime homeland defense. This cooperation is most visible at the 
National Maritime Intelligence Center where the Coast Guard 
Intelligence Coordination Center is co-located with the Office of Naval 
Intelligence.
    The Intelligence Community components of the Coast Guard and Navy 
are governed by intelligence oversight laws and policies, which allow 
for the lawful collection, retention and dissemination of intelligence 
information while protecting the privacy rights of United States 
persons.
Support from Intelligence Agencies
    Question 4. Are you receiving adequate support and information from 
the Intelligence Agencies? When you receive a specific warning from the 
Intelligence Community, how do you disseminate that data down to state 
and local maritime/port officials?
    Answer. Yes, the Coast Guard has received excellent support from 
the Director of Central Intelligence, Intelligence Community Management 
Staff, and other Community members on a broad spectrum of issues.
    Coast Guard participation in sharing intelligence at the state and 
local levels is facilitated through the DHS Information Analysis and 
Infrastructure Protection (IAIP) Directorate. IAIP makes the decision 
as to what information is shared at various levels of government. DHS 
promulgates Sensitive Homeland Security Information to facilitate 
sharing information with our local partners.
    The Coast Guard, in coordination with IAIP, uses a variety of 
methods to share intelligence information with state and local 
officials:

  <bullet> Under the Maritime Transportation Security Act, the Coast 
        Guard disseminates intelligence information to state and local 
        officials through Area Maritime Security Committees.

  <bullet> Coast Guard Field Intelligence Support Teams (FISTs) and 
        Coast Guard Investigative Service (CGIS) Special Agents work 
        closely with state and local law enforcement officials to share 
        intelligence information.

  <bullet> In close coordination with IAIP, the Coast Guard rapidly 
        disseminates terrorist threat warning information to the 
        maritime industry.

  <bullet> Some of the coordination between the Coast Guard and state 
        and local governments is formally recognized through various 
        memorandums of understanding, but most are accomplished via 
        numerous working relationships.
Coordinated Security Efforts in Huntington
    Question 5. [West Virginia officials believe that the Coast Guard, 
TSA, and others involved in port security have a bias for coastal 
ports. These questions related to the Administration's efforts to 
protect inland ports. The Port of Huntington is the seventh largest 
port in terms of tonnage handled in the country. Over 50 percent of the 
cargo processed at the port is hazardous material. I have a series of 
questions relating to this port.]
    The Marine Safety Office (MSO) in Huntington, West Virginia is 
responsible for over 300 miles of navigable waterways. Within the MSO 
Huntington there are 3 state jurisdiction boundaries and upwards of 18 
county jurisdictional boundaries. What steps can be taken to make sure 
the security efforts are coordinated, and that responders are aware and 
positioned to respond to a maritime terrorist incident?
    Answer. The Coast Guard's Port, Waterway and Coastal Security 
(PWCS) mission is to deter, detect, prevent and respond to attacks 
against U.S. territory, population, and critical maritime 
infrastructure throughout the entire Marine Transportation System 
(MTS). This mission is accomplished through interagency, 
intergovernmental, and public/private sector cooperative efforts.
    As the lead Federal entity for maritime security, the Coast Guard 
accomplishes its mission in part through Area Maritime Security 
Committees (AMSC). These committees, which are required by the Maritime 
Transportation Security Act of 2002 (MTSA), include representatives of 
law enforcement agencies, intelligence agencies, first responders, 
vessel and facility owners/operators, as well as Federal, state and 
local agency representatives. The AMSCs, under the leadership of the 
Coast Guard Captains of the Port/Federal Maritime Security Coordinators 
(COTPs/FMSCs) provide a framework to communicate threats, identify 
risks, and coordinate resources to mitigate threats and vulnerabilities 
at the regional level. Such a committee has been established for the 
Huntington region.
    The COTP/FMSC in Huntington, like other field commanders throughout 
the nation, is partnering with the state Joint Task Forces, sharing DHS 
information bulletins, and working with local law enforcement and 
emergency response agencies to establish procedures for responding to 
security threats. These procedures are being proven through exercises 
and drills. Additionally, the AMS Committees on the inland and western 
rivers have created ``River Watch,'' a volunteer network to increase 
awareness and detection capabilities.
Coordination on Different Jurisdiction
    Question 6. How do your agencies coordinate security efforts in 
large multi-jurisdictional areas such as this? And, are we investing in 
technology that will allow us to maximize resources to protect, 
prevent, and respond to incidents that could result in a catastrophic 
loss?
    Answer. The Department of Homeland Security's mission to deter, 
detect, prevent and respond to attacks against U.S. territory, 
population, and critical maritime infrastructure is accomplished 
through interagency, intergovernmental, and public/private sector 
cooperative efforts.
    As the lead Federal entity for maritime security, the Coast Guard 
accomplishes its mission in part through Area Maritime Security 
Committees (AMSC). These committees, which are required by the Maritime 
Transportation Security Act of 2002 (MTSA), include representatives of 
law enforcement agencies, intelligence agencies, first responders, 
vessel and facility owners/operators, as well as Federal, state and 
local agency representatives. The AMSCs, under the leadership of the 
Coast Guard Captains of the Port/Federal Maritime Security Coordinators 
(COTP's/FMSC's) provide a framework to communicate threats, identify 
risks, and coordinate resources to mitigate threats and vulnerabilities 
at the regional level.
    To coordinate security efforts in large areas, many COTP/FMSC have 
established multiple AMSCs to address more specific issues. In those 
COTP/FMSC areas of responsibility that encompass several geographically 
separate areas, or when one AMSC has a significantly large membership, 
COTPs/FMSCs have formed an executive steering committee to oversee the 
multiple AMSCs. Those geographically separate AMSCs, in turn, may be 
viewed as subcommittees of the parent AMS Committee.
    The U.S. Coast Guard is pursuing a number of initiatives for new 
technologies that will allow us to detect, prevent and respond to 
incidents including:

  <bullet> Nationwide implementation of the Automatic Identification 
        System (AIS) and requiring the installation of AIS equipment on 
        towing vessels in compliance with MTSA requirements;

  <bullet> Technologies to allow the automatic tracking of barges;

  <bullet> Enhancing our information systems to integrate results of 
        the Port Security Assessments (PSA) with other security 
        information from the Coast Guard, other Federal, state and 
        local agencies and the regulated maritime community.
Efforts to Secure Huntington, WV
    Question 7. What have your agencies done in particular to safeguard 
inland ports like Huntington? What additional resources--equipment, 
personnel--have you deployed to Huntington and other inland ports? Have 
you started developing security plans to address some of the unique 
characteristics of inland navigation, which possess different security 
challenges from coastal operations?
    Answer. Due to the Coast Guard's multi-mission nature, resources 
provided to the Coast Guard assist in the performance of all missions. 
Since 9/11/01, the Coast Guard has added 19 FTP and assigned dozens of 
Title 10 recalled reservists (current number is 77) toward safeguarding 
inland river ports, including Huntington. Six new boats have also been 
located on the inland river, including one in the Huntington, WV. 
Additionally, in March of 2003, using Title 10 personnel, the Coast 
Guard established the Inland Rivers Vessel Movement Center to attain 
awareness of barges carrying Certain Dangerous Cargoes on the inland 
rivers.
    The Area Maritime Security Committee (AMSC), led by the Federal 
Maritime Security Coordinator (FMSC)/Captain of the Port (COTP), has 
developed an Area Maritime Security (AMS) Plan for the Port of 
Huntington. The AMS Plan will greatly enhance the capabilities of the 
Coast Guard, and other Federal, state and local authorities with 
securing the Marine Transportation System.
Grant Funding for Inland Ports
    Question 8. What percentage of port security grants has gone to 
inland ports?
    Answer. The Transportation Security Administration (TSA) reported 
that applicants on the inland waterway system received 55 grants 
totaling $14.7 million through the first three rounds of Port Security 
Grants. This represents 3.3 percent of the $445.9 million awarded to 
date.
Resources for the Ohio River Valley
    Question 9. Admiral Collins, you are aware, I'm sure, that there is 
a small Coast Guard detachment in Huntington, West Virginia. The 
personnel at this duty station oversee inland waterway safety on the 
Ohio and Kanawha Rivers, but also have some responsibility for ensuring 
the riverside security of chemical plants and power plants that dot 
both of those rivers in West Virginia. Are you satisfied that the Coast 
Guard has sufficient manpower and technological capabilities at this 
location to adequately protect the lives and health of the residents of 
the Ohio River Valley?
    Answer. Due to our Service's multi-mission nature, resources 
provided to the Coast Guard assist in the performance of all missions. 
The President's FY2005 Budget Request includes sufficient resources to 
perform Coast Guard operations and activities within the Ohio River 
Valley in FY2005. The Coast Guard continuously evaluates resource 
requirements and will address any gaps in the Ohio River Valley, as 
well as throughout the entire Coast Guard.
Staffing Levels
    Question 10. Let's pretend that there are no financial constraints 
on the Coast Guard or Congress. Given risk assessments you have seen, 
or in the exercise of normal prudence, how would you change staffing 
levels or the availability of vessels or other materiel at places like 
Huntington, where the Coast Guard presence is relatively small?
    Answer. The FY 2005 Budget supports the Coast Guard resource needs 
in FY2005 to conduct the full spectrum of Coast Guard missions in 
Huntington and throughout the Nation and world.
    However, the Western River region is one of the highest priorities 
for consideration of establishing a future Maritime Safety and Security 
Team (MSST). Within the Western Rivers region, there are six cities 
that we believe require a greater security posture due to their 
population and/or throughputs of certain dangerous cargoes. Theses 
cities are Huntington, Cincinnati, Louisville, Paducah, St. Louis, and 
Memphis. The Coast Guard's preference would be to centrally locate a 
MSST to leverage command, training, administrative, and facility 
efficiencies and deploy detachments as needed to cover as many as six 
areas concurrently. However this concept of operations would require 
this MSST to be larger than the standard teams that have been 
established to date.
PSRAT to Evaluate Huntington
    Question 11. When is the Coast Guard going to use the Port Security 
Risk Assessment Tool to re-evaluate the Port of Huntington Tri-State?
    Answer. The Huntington Captain of the Port Zone received a Coast 
Guard sponsored Port Security Assessment (PSA) in September 2003. As 
part of the PSA, subject matter experts from the Port Security 
Assessment Team reviewed the local Port Security Risk Assessment Tool 
(PS-RAT) scores for facilities covered by the assessment. Based on 
their expertise and field observations, the assessment team validated 
the local PS-RAT content and suggested changes, additions, and 
deletions to reflect PSA findings.
    Local Coast Guard port officials routinely update their PS-RAT 
information and scores to adjust to changes in the threat, 
consequences, or vulnerabilities related to an asset or activity in 
their area of responsibility. Coast Guard Marine Safety Office 
Huntington most recently updated their PS-RAT and re-scored assets in 
mid April 2004.
Huntington, WV Area Maritime Security Plan
    Question 12. The Port of Huntington Tri-State would seem to be a 
perfect opportunity for the Coast Guard to develop a prototype for area 
maritime security plans--the area is filled with hazardous materials 
and chemical facilities, the river system spans a great distance 
connecting to many states, and coordination and monitoring for both 
security and contingency response is complicated. I would appreciate it 
if you would evaluate the possibility of prototyping a system for 
inland waterway security management.
    Answer. The Coast Guard's internal timeline for implementation of 
the Maritime Transportation Security Act of 2002 (MTSA) called for all 
Captains of the Port/Federal Maritime Security Coordinators (COTP/FMSC) 
to prepare an Area Maritime Security Plan and submit it to the 
respective District Office for approval by 1 April 2004. The COTP/FMSC 
for the Port of Huntington met this deadline.
    While each port is unique, the Port of Huntington was the first of 
several inland waterways ports to receive a Port Security Assessment 
(PSA) under the Coast Guard's domestic PSA program outlined in the 
MTSA. As such, the Port of Huntington served as a baseline for 
assessing inland port security and identifying ways to minimize 
security risks and improve the overall security posture at U.S. inland 
ports. Using the PSA as a foundation, the Coast Guard is taking a 
systems approach that ties in multiple COTP zones with similar key 
assets and vulnerabilities to improve security on the inland river 
system.
Status of AIS
    Question 13. The MTSA requires all vessels arriving in U.S. waters 
to be equipped with transponders to allow the Coast Guard to track 
their movements by the end of this year (currently oil tankers and 
cruise ships are carrying them). Last year your budget only requested 
$1 million dollars for the installation of towers and equipment to 
monitor shipping. I was able to get you an additional $23 million, but 
again here we are with another request of only $5 million. Why is it 
that we can track small aircraft, big aircraft, anywhere in this 
country. Yet when an oil tanker comes into downtown Charleston, we have 
no means of tracking this ship?
    Answer. The Coast Guard has commenced developing a nationwide 
Automatic Identification System (AIS) to provide tracking of vessels 
required to carry the AIS transponders in our ports and waterways. 
Through the Ports and Waterways Safety System (PAWSS) project we 
currently have, or will have by the end of 2004, full AIS capability at 
9 designated Vessel Tracking System ports:

  <bullet> New York

  <bullet> Houston/Galveston

  <bullet> San Francisco

  <bullet> Puget Sound (Seattle-Tacoma)

  <bullet> Prince William Sound (Valdez)

  <bullet> St. Mary's River (Sault Ste. Marie, MI)

  <bullet> Berwick Bay (Louisiana)

  <bullet> Lower Mississippi River (New Orleans)

  <bullet> Los Angeles-Long Beach

    In addition, the Coast Guard is already operating basic (primarily 
receive-only) AIS installations in the following locations:

  <bullet> Miami and Florida Keys

  <bullet> Long Island Sound (Groton, CT)

  <bullet> Hampton Roads (Norfolk, VA)

    By the end of 2004, the Coast Guard intends to have established 
initial AIS capability (primarily receive-only) at additional locations 
nationwide. These sites will be determined based on a variety of 
criteria, including the expected density of AIS-equipped vessels in the 
area, existing command and control capability to put the data to use, 
compatibility and support for the more extensive and capable system 
currently in the planning stages, and coordination with other needs and 
assessments.
    Requirements for the nationwide AIS project are being developed as 
we continue to adhere to the Coast Guard's major acquisition process. 
By adhering to the major acquisition process, the Coast Guard will 
ensure the proper project planning, analysis and cost estimating is 
performed as required by the Federal Acquisition Regulations. The 
intent for the nationwide AIS project will be to use and build upon the 
initial AIS capability currently being developed and deployed to create 
a fully integrated nationwide system providing real-time vessel 
tracking information to compliment other inputs in the development of 
Maritime Domain Awareness (MDA). The FY05 Budget request of $4 million 
is adequate because it's the minimum funding level necessary to proceed 
with the acquisition process in the concept development phase and would 
include limited AIS deployment capability. The FY05 budget request was 
based on the strategy to implement as many ports with AIS as possible 
with funding provided in FY04. Because of the critical nature of a 
nationwide system, we deemed the best way to proceed long term was 
through the major acquisition process.
Cost of National AIS System
    Question 14. How much, ballpark, would a national system cost?
    Answer. The Coast Guard is currently developing an implementation 
plan for the nationwide Automatic Identification System (AIS) 
consistent with Coast Guard and Department of Homeland Security 
requirements associated with major systems acquisitions. Once the 
Acquisition Project Baseline is developed, a total project cost 
estimate will be known and we will be able to provide a more accurate 
estimate of the cost for the number of additional ports that will be 
outfitted with AIS technology.
    Based on its experience to date with Ports and Waterways Safety 
System (PAWSS) installations, the Coast Guard has found that port 
geography and vessel congestion are the primary drivers behind AIS 
infrastructure costs. Additionally, as the Coast Guard expands its AIS 
infrastructure outside of VTS/PAWSS ports, other factors such as 
availability of electrical power, communication links, tower 
availability, and real property will impact the design and ultimately 
the cost of a nationwide AIS network. Site surveys are needed in order 
to determine the precise AIS infrastructure required to meet Coast 
Guard requirements in any particular area.
    Because of the differences in installations, the Coast Guard cannot 
accurately determine the cost of a nationwide AIS system, but a 
ballpark estimate of acquisition costs range from $62 million to $165 
million with a life cycle cost range of $155 million to $675 million. 
The Capital Investment Plan includes $81 million over five years for 
AIS, including $4 million in 2005. It also includes $37 million for the 
final stages of the Ports and Waterways Safety Systems (PAWSS) 
deployment. The large ranges are reflective of the uncertainties in 
system requirements and uncertainty over whether the nationwide AIS 
system will be able to reuse existing or planned Coast Guard 
infrastructure. The low end of the cost ranges assumes available 
infrastructure will be used with incremental increases in support costs 
and no use of satellite systems. The high end assumes some new towers 
and sites will be required with associated new support costs and the 
use of some satellite systems (moving AIS from a national to a more 
international operating picture). In addition, the highest life cycle 
cost is based on a commercially built and owned system that provides 
AIS information to the Coast Guard as a service.
Status of Long-Range Tracking System for Vessels
    Question 15. Additionally, we authorized the development of a long 
range tracking system using satellites to allow the Coast Guard to poll 
movements to track vessels as they enter into our EEZ, or areas of 
particular sensitivity. Where are we in this program?
    Answer. Long-range tracking of vessels is a critical component of 
Maritime Domain Awareness. The Coast Guard is pursuing a wide variety 
of means to track cooperative and potentially non-cooperative vessels 
calling on, or operating near, the United States. We have submitted a 
proposal to the International Maritime Organization (IMO) that will 
require ships to report their positions and other information, which 
will enable the Coast Guard to conduct an assessment of the risk posed 
by a vessel. While not ``ruling out'' any system, use of an Automatic 
Identification System (AIS)-based system would leverage existing/future 
carriage requirements and mesh with existing systems.
    In addition to our efforts through the IMO, we are also pursuing a 
wide variety of methods to track vessels, such as long-range radar 
systems, acquisition of information on vessel positions and intentions 
through other sources, and cooperative arrangements with the maritime 
industry. Existing capabilities within the government domain will be 
integrated into a final solution.
Fraudulent MMDs
    Question 16. It is my understanding that in the last couple of 
years the Coast Guard has rooted out widespread fraud in the issuance 
of documents to foreign seamen, specifically on Panamanian seamen. I 
also understand that a recent investigation indicated a lesser degree 
of fraud in the issuance of U.S. mariner's licenses. Please elaborate 
on this investigation, and what steps you have taken to rectify the 
issue?
    Answer. During the last several years, the International Maritime 
Organization (IMO) has noted that many credentials carried by seafarers 
of certain countries, notably Panama and Philippines, are fraudulent, 
counterfeit, or altered. The IMO has taken steps to encourage these and 
other governments to provide better security to the credentialing 
process to ensure that credentials issued are legitimate and more 
resistant to counterfeiting or altering. In addition, the IMO requested 
the International Labor Organization (ILO) to revise its 1958 
Convention on Seafarers' Identity Cards, with a view to using up-to-
date technology for making these documents more useful in confirming 
mariners' identities. The ILO adopted a new convention in June 2003 and 
is in the final stages of developing its standard for the biometric 
information it intends to use in support of the Convention's goals.
    On the domestic front, in December 2002, the U.S. Coast Guard and 
Federal Bureau of Investigation (FBI) initiated OPERATION DRYDOCK, a 
joint criminal and counterterrorism investigation into national 
security threats and document fraud associated with U.S. merchant 
mariner credentials. The Coast Guard and FBI were assisted in this 
investigation by other components of the Department of Homeland 
Security, the Department of Justice, Department of Defense, and U.S. 
Intelligence Community. Approximately 220,000 active mariner records 
(of which, approximately 95,000 are licenses and 125,000 are merchant 
mariner documents (MMDs)) were reviewed to uncover possible criminal 
activity, application fraud and terrorist links. This investigation 
focused on discrepancies between the information in the merchant 
mariner credential application and information contained in law 
enforcement and public records.
    The investigation revealed nine individuals that held Merchant 
Mariner Credentials who have suspected associations with terrorist 
groups. In addition to these nine individuals, the Coast Guard 
identified thousands of cases of possible fraud or other problems, 
including mariners with active arrest warrants. In response to this 
information:

  <bullet> The Coast Guard is suspending and revoking unauthorized 
        credentials;

  <bullet> U.S. Attorneys are pursuing criminal charges where 
        warranted;

  <bullet> Approximately a dozen people have been arrested because of 
        active arrest warrants that were uncovered as a result of 
        Operation Drydock; and

  <bullet> The Coast Guard, FBI and the U.S. Navy worked together to 
        screen mariners serving on Military Sealift Command ships 
        carrying troops and material during the war in Iraq. As a 
        result, more than a dozen mariners were removed from service 
        aboard those vessels.

    In addition to the OPERATION DRYDOCK investigation of those holding 
current credentials, in February 2003, the Coast Guard enhanced the 
security of the credential program by requiring more direct contact 
with all mariners to verify identification, strengthened the process 
for conducting criminal background checks for applicants seeking new 
MMDs, and began issuing MMDs on more tamper-resistant cards. The new 
MMDs incorporate improvements for increased security including features 
to deter counterfeiting, such as micro-printing and serial numbers 
directly connected to a single mariner.
    The Coast Guard is fully utilizing its current authority to access 
public and government databases for the purpose of gathering background 
information to determine whether an applicant for, or holder of, a 
merchant mariner's document is a safe and suitable person to be issued 
such a document or to be employed on a vessel under the authority of 
such a document. The Coast Guard National Maritime Center currently 
uses a number of databases to screen mariners seeking credentials, 
including: public databases, the Coast Guard Marine Information for 
Safety and Law Enforcement (MISLE) system, the National Crime 
Information Center (NCIC), which includes FBI terrorism watch list 
information, the National Driver Register (NDR), and others.
    As these initiatives progress, the Coast Guard is continuing its 
efforts to enhance the security of issuing all credentials to mariners 
operating in the U.S. marine transportation system. Thanks to strong 
Congressional support in the Fiscal Year 2003 supplemental 
appropriations, the Coast Guard has been able to implement a very 
robust screening process and more tamper-resistant card as part of the 
MMD program. Support of the Coast Guard's Fiscal Year 2005 budget 
request, which includes $8M and 12 FTP specifically for this effort, 
will enable the Coast Guard to continue its efforts to enhance the 
security of mariner credentials in Fiscal Year 2005 and beyond to 
ensure that credentials are never issued to those who pose a threat to 
national security or marine safety.
Press Reports
    Question 17. Admiral Collins, in the summer of 2002, there were a 
number of press reports about possible infiltration of potential 
terrorist operatives through containers. I believe the press 
allegations indicated a number of ports. I specifically recall Savannah 
and Long Beach. Are you at liberty to reveal the merits of these 
allegations?
    Answer. The National Maritime Intelligence Center (NMIC), a Coast 
Guard Intelligence Coordination Center (ICC) and Office of Naval 
Intelligence (ONI) joint command, examined those press reports and 
concluded that the feasibility of the smuggling information discussed 
was unlikely and there were no tangential indicators (e.g., stowaway 
records from the two U.S. ports) to support the reports. However, the 
Coast Guard, working with its DHS, DOD and industry partners, will 
continue to monitor this avenue for potential terrorist entry.
Interagency Coordination on Maritime Domain Awareness
    Question 18. Admiral Collins, I have heard statements recently 
about the evaluation of a program to increase our awareness of maritime 
transportation. I believe the Secretary of Navy was also quoted 
similarly as endorsing the concept of a maritime NORAD. I think that 
this is extremely promising. However, I am concerned about the 
cooperation of the various agencies that collect data on commercial 
shipping, and last time you testified I asked all of you to try to work 
together on this issue. Are you all working together to make sure that 
you have the right information, the right analysts, and the right 
monitoring equipment to get the best information?
    Answer. Yes, the Coast Guard recently organized a National Maritime 
Domain Awareness (MDA) Summit, cosponsored by the Department of 
Homeland Security and Department of Defense, and chaired by Admiral Loy 
and Assistant Secretary McHale. The Summit was intended to bring 
together the senior leaders of all agencies that have a stake in 
Maritime Domain Awareness to ensure they are working together. 
Participants agreed on the need to establish a Senior Steering Group to 
unify efforts and develop a comprehensive national MDA plan and 
architecture based on the following guiding principles:

  <bullet> Build coalitions and partnerships

  <bullet> Develop and share technology

  <bullet> Develop standards and requirements

  <bullet> Integrate and share information

  <bullet> Drive cost effectiveness
Key Issues in Port Security Report
    Question 19. Admiral Collins, in conference on the MTSA, the Senate 
conferees took the position that port security costs had to be paid 
for, and in the absence of a commitment of funding by the 
Administration, and proposed a fee on users of the system. Ultimately, 
the Senate relented in the face of opposition by the House, however, we 
required the Administration to file a report within 6 months to explain 
what they proposed to pay in the way of port security costs, both for 
ports and for a variety of Federal port security programs. That report 
is 9 months overdue--when can we expect that report?
    Answer. The Resources to Address Key Issues in Port Security report 
was written jointly by the Coast Guard, Transportation Security 
Administration and Immigration and Customs Enforcement. The report has 
been written and is currently in the clearance process within the 
Administration.
NMTSP
    Question 20. Admiral Collins, the MTSA mandates a national plan to 
allow us to reopen ports to commerce in the aftermath of a terrorist 
attack, where is that plan?
    Answer. The Coast Guard's timeline for development of the National 
Maritime Transportation Security Plan (NMTSP) spans two years with 
development of the interim plan by the end of calendar year 2004 and 
the final plan by the end of calendar year 2005. In addition to working 
in close concert with the Transportation Security Administration, the 
Coast Guard intends vigorous engagement with the National Maritime 
Security Advisory Committee in the planning effort involving recovery 
of U.S. ports.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                            Gary P. LaGrange
    Question 1. What would it mean to the U.S. economy if the 
Mississippi River was shut down for any length of time?
    Answer. The vessel collision at the mouth of the Mississippi River 
on February 21, 2004 is a poignant example of the economic havoc that 
could be visited upon this Nation by a terrorist act. In this 
unfortunate incident, a relatively small sunken vessel in this busy 
waterway channel caused 158 ocean going vessels to be delayed during 
the four-day closure of the main international shipping channel into 
the Mississippi River. The closure was absolutely necessary to conduct 
search and rescue and recovery operations followed by removal of the 
vessel.
    After removal of the vessel, the backlog of ship traffic was 
cleared and shipping returned to normal within three-and-a-half days.
    Estimates are that this incident caused approximately $17 million 
in direct losses and $68 million in overall economic impacts. Not only 
were ships delayed but three container cargo ships and three passenger 
vessels were diverted to other ports. Thousands of passengers were 
bussed to other Gulf Coast ports which were ill-equipped to handle them 
on short notice. The cruise lines incurred thousands of dollars in 
ground transportation costs and reimbursements to passengers for the 
loss of their vacations.
    With more than 5,000 ocean-going vessel calls annually, it should 
be readily apparent how important this waterway system is to the 
Nation's economy.
    The Nation's economy would experience severe consequences from a 
prolonged closure of the Mississippi River to deep draft navigation. 
The Lower Mississippi River port system from the Gulf of Mexico to 
Baton Rouge handled $227 million tons of foreign waterborne commerce in 
2002, valued at nearly $40 billion and representing 18.1 percent on the 
Nation's international waterborne commerce. American producers exported 
27 percent of the total U.S. exports out of lower Mississippi River 
Ports.
    Agricultural products from 17 mid-western states are exported out 
of the 10 lower Mississippi River Grain Elevators, representing more 
than 62 percent of total U.S. grain exports.
    More than 92 million tons of petroleum and energy related 
commodities are shipped on the Mississippi River system from Louisiana 
representing nearly 16 percent of all waterborne import petroleum 
products.

    Question 2. What have you received in Federal funds to help you 
comply with your Federal mandate and what did you use the funds for?
    Answer. The Port of New Orleans has received approximately 
$8,000,000 in Federal grant funding. The funding has been used 
primarily for infrastructure enhancements; fencing, lighting, 
monitoring and gate access technology. Specifically, the cruise 
terminal fencing has been improved, and the lighting and camera project 
is underway. The upriver terminal facility projects will provide 
enhanced fencing, lighting, gate access technology, and new monitoring 
equipment. Funds were also received for a video teleconferencing system 
to enhance emergency coordination activities.

    Question 3. What are some of the unique challenges in securing the 
Port of New Orleans?
    Answer. The Port is difficult to secure because it runs directly 
parallel to the city's residential neighborhoods, the central business 
district, and major tourist attractions. Virtually all of the mandated 
access control requirements, especially those during elevated alert 
levels, have a significant potential to adversely affect port and/or 
city business, especially as it relates to traffic delays. Methods to 
curtail the affects are possible, but staff intensive. We have no 
vessel dedicated to river or canal patrol. The emergency response 
vessel has been providing some security inspections and patrols; 
however, the added use has taken it's toll on the vessel in the form of 
increased repairs. Our landlord/tenant status has required more 
guidance from the regulatory officials, which slows the plan 
preparation process.

    Question 4. What are some of the unique challenges that you face as 
a river port with respect to security obligations?
    Answer. The number of ships that pass through our port each year 
(6,000) adds to the ``vulnerability.'' The diversity of the types of 
vessels calling on our port requires that security personnel be more 
adept at understanding and applying the Federal regulations.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
